<html>
<title></title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                                ------                                 
        REGULATORY FAILURE: MUST AMERICA LIVE WITH UNSAFE FOOD?

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             MARCH 12, 2008

                               ----------                              

                           Serial No. 110-99


      Printed for the use of the Committee on Energy and Commerce


                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

                        energycommerce.house.gov
        REGULATORY FAILURE: MUST AMERICA LIVE WITH UNSAFE FOOD?
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MICHAEL F. DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
 David L. Cavicke, Minority Staff 
             Director
<RULE>7________________________________________________________________

              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
DIANA DeGETTE, Colorado              ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chairman                    GREG WALDEN, Oregon
HENRY A. WAXMAN, California          MIKE FERGUSON, New Jersey
GENE GREEN, Texas                    TIM MURPHY, Pennsylvania
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
    Prepared statement...........................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, prepared statement................................    10
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................   145

                               Witnesses

Steve Mendell, president, Hallmark/Westland Meat Company.........    14
    Prepared statement...........................................    15
    Answers to submitted questions...............................   168
Danielle Lachman, divisional merchandise manager, Target 
  Corporation....................................................    69
    Prepared statement...........................................    71
Daniel Wegman, chief executive officer, Wegmans Food Markets, 
  Inc............................................................    71
    Prepared statement...........................................    75
Dennis G. Olson, Ph.D., professor, Iowa State University, College 
  of Agriculture and Life Science, Department of Animal Science..    83
    Prepared statement...........................................    84
Stephan F. Sundlof, D.V.M., Ph.D., director, Center for Food 
  Safety and Applied Nutrition, Food and Drug Administration.....    97
    Prepared statement...........................................   100
Richard A. Raymond, M.D., under secretary for food safety, United 
  States Department of Agriculture, Food Safety and Inspection 
  Service........................................................   117
    Prepared statement...........................................   119

                           Submitted Material

Westland/Hallmark Meat Company training documents, dated October 
  6 & November 12, 2007..........................................   146
Accounts from Humane Society of the United States Investigator at 
  Hallmark/Westland Meating Company..............................   148
Food and Drug Administration, letter of April 17, 2008...........   149
Report, dated December 29, 2005, from United States Department of 
  Agriculture on Westland/Hallmark Meat Company..................   151
    Westland/Hallmark Meat Company response......................   152
FDA recall classification document...............................   155
``FDA and Fresh Spinach Safety,'' report of March 2008, submitted 
  by Hon. Henry A. Waxman........................................   156


        REGULATORY FAILURE: MUST AMERICA LIVE WITH UNSAFE FOOD?

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak (chairman) presiding.
    Members present: Representatives Stupak, DeGette, Melancon, 
Waxman, Green, Schakowsky, Dingell (ex officio), Shimkus, 
Whitfield, Walden, Burgess, and Barton (ex officio).
    Staff present: John Sopko, David Nelson, Kevin Barstow, 
Richard Wilfong, Scott Schloegel, Kyle Chapman, Krista 
Carpenter, and Alan Slobodin.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order. Today we have 
a hearing entitled ``Regulatory Failure: Must America Live With 
Unsafe Food?'' Each Member will be recognized for an opening 
statement. I will begin. Since the 110th Congress began in 
January 2007, this subcommittee has been investigating the Food 
and Drug Administration's ability to protect Americans from 
unsafe food. This is the subcommittee's sixth hearing regarding 
the safety and security of the nation's food supply. While the 
previous five hearings have focused on a variety of topics 
including companies who have produced contaminated food, unsafe 
food imports, and the ability of the FDA and USDA to protect 
our Nation's food supply, today's hearing will focus on what 
steps the regulators have taken or need to take in order to 
ensure the safety of our food supply.
    Since our investigation began 14 months ago, there have 
been at least 163 recalls and health alerts associated with 
FDA-regulated products. Despite USDA's hefty budget and large 
inspection force, it too is not immune from problems. Since 
2007, there have been at least 67 meat recalls totaling 180 
million pounds of meat. There has also been an alarming jump in 
the number of recalls and illnesses associated with E. coli-
contaminated meat. In 2007 alone, there were 20 recalls of meat 
products due to being tainted with the deadly pathogen E. coli. 
These recall efforts affected about 33 million pounds of meat. 
This compares with just 8 recalls and just over 155,000 pounds 
of meat in 2006 due to E. coli.
    These numbers alone indicate that there is a serious 
increasing problem with our food safety system. Still, there is 
even greater support for this assertion. The Centers for 
Disease Control and Prevention now estimate that there are 76 
million cases of food borne illnesses every year in the United 
States. These illnesses result in an estimated 5,000 deaths and 
325,000 hospitalizations. It is clear that our food safety 
system is broken. We must address this stark reality and remedy 
this dire situation.
    The subcommittee has had the unfortunate experience of 
watching firms that have sold contaminated food falsely assure 
the American public that the safety problems have been solved 
only to learn that yet another outbreak or recall has occurred 
within a few months. Cargill and Dole both are repeat offenders 
and ConAgra has had three recalls this past year. On Monday the 
newly reopened Castleberry plant, whose parent company witness 
testified 2 weeks ago that Castleberry had learned its lesson 
from the botulism contamination, but on Monday they were shut 
down by FDA and USDA's Food Safety Inspection Service again. 
This shut-down was due to processing violations that could lead 
to pathogen contamination.
    Today we will hear from the company responsible for perhaps 
the most notorious recall over the past year. Steven Mendell, 
the President of Westland/Hallmark Meat Company, will testify 
regarding his company's recall of more than 143 million pounds 
of raw and frozen beef products. This was the largest meat 
recall in the history of the United States. The most troubling 
aspect of this recall is that approximately 50 million pounds 
of the beef were sold to the National School Lunch Program and 
other Federal nutritional programs for the poor and elderly. 
Thankfully, to date there have been no reported illnesses 
associated with this meat.
    Mr. Mendell was invited to testify at the subcommittee's 
previous food safety hearing on February 26 regarding the 
circumstances surrounding his company's recall. Despite 
extensive efforts by committee staff to reach out to Mr. 
Mendell, he avoided contact with the committee staff and chose 
not to appear at the February 26 hearing. Because of Mr. 
Mendell's unwillingness to appear voluntarily, the subcommittee 
was forced to issue a subpoena to comply Mr. Mendell's 
testimony here today. We look forward to finally hearing from 
him.
    Throughout our prior five food safety hearings, one thing 
has been evident. There are increasing concerns about the 
safety of the nation's food supply and it is necessary to 
utilize more technology to make our food supply safer. Due to 
the interest raised by our last hearing, today we will explore 
one such technology: food irradiation. Food irradiation is a 
technology which destroys organisms that cause foodborne 
illnesses. Proponents of food irradiation believe it is a safe 
and effective technology that can guarantee the safety of food. 
Some claim irradiation is the only sensible kill step for leafy 
greens and meats. Others, such as the president of Dole, 
claimed last month that it was not workable and harmed fresh 
produce.
    Today, we will hear testimony from Dr. Dennis Olson, a 
Professor of Animal Science at Iowa State University and an 
expert on the use of food irradiation. Dr. Olson will testify 
regarding the potential benefits of irradiation. We will also 
hear from Mr. Daniel Wegman, the CEO of Wegmans Food Markets. 
As a CEO of a supermarket chain that sells irradiated meat, Mr. 
Wegman will discuss why his company chooses to offer irradiated 
products to its consumers. While food irradiation will be the 
only technology discussed at this hearing, the committee is 
also exploring other food safety technologies. We hope to 
examine these as our food safety investigation continues.
    We will also hear today from Target Corporation. In 
November, Target sent a formal letter to USDA requesting 
approval for a label that would alert consumers that certain 
meat products Target sells are packaged in an atmosphere 
containing carbon monoxide. Amazingly, USDA did not approve the 
label. I look forward to hearing why USDA would not approve 
such a label, and I look forward to hearing what other efforts 
Target Corporation has made to inform their consumers of the 
carbon monoxide packaged meat they sell. Finally, we will hear 
from two primary regulators of our food supply, the FDA and the 
USDA. Dr. Stephen Sundlof, the Director of the Center for Food 
Safety and Applied Nutrition at FDA, and Dr. Richard Raymond, 
the Under Secretary for Food Safety at USDA, are here. Each 
will testify about the steps their agencies have taken or need 
to take to ensure the safety of our nation's food supply.
    As I stated previously, today's hearing is our sixth 
hearing regarding the safety and security of our nation's food 
supply, and it probably will not be our last. The American 
public can be assured that we will continue to hold as many 
hearings as necessary to fix our country's broken food safety 
system. When we have companies, government agencies, or 
individuals before this committee, we expect them to follow 
through on the promises they make. We will do follow-up and we 
will bring them back before the committee to account for any 
failures on the promises they made to us and the American 
people. That concludes my opening statement.
    [The prepared statement of Hon. Bart Stupak follows:]

                     Statement of Hon. Bart Stupak

    Since the 110th Congress began in January 2007, this 
subcommittee has been investigating the Food and Drug 
Administration's ability to protect Americans from unsafe food. 
This is the Subcommittee's sixth hearing regarding the Safety 
and Security of the Nation's food supply. While the previous 
five hearings have focused on a variety of topics including 
companies who have produced contaminated food, unsafe food 
imports, and the ability of the FDA and USDA to protect our 
Nation's food supply, today's hearing will focus on what steps 
the regulators have taken or need to take in order to ensure 
the safety of our food supply.
    Since our investigation began 14 months ago, there have 
been at least 163 recalls and health alerts associated with 
FDA-regulated products. Despite USDA's hefty budget and large 
inspection force, it too is not immune from problems. Since 
2007, there have been at least 67 meat recalls totaling 
approximately 180 million pounds of meat. There has also been 
an alarming jump in the number of recalls and illnesses 
associated with E. coli-contaminated meat. In 2007 alone, there 
were 20 recalls of meat products due to being tainted with this 
deadly pathogen e-coli. These recalls affected about 33 million 
pounds of meat. This compares with just eight recalls and just 
over 155,000 pounds of meat in 2006 due to E. coli 
contamination.
    These numbers alone indicate that there is a serious 
problem with our food safety system. Still, there is even 
greater support to this assertion. The Centers for Disease 
Control and Prevention now estimate that there are 76 million 
cases of food borne illness every year in the United States. 
These illnesses result in an estimated 5,000 deaths and 325,000 
hospitalizations. It is clear that our food safety system is 
broken. We must address this stark reality and remedy this dire 
situation.
    The Subcommittee has had the unfortunate experience of 
watching firms that have sold contaminated food falsely assure 
the American public that the safety problems have been solved 
only to learn that yet another outbreak or recall has occurred 
within a few months. Cargill and Dole both are repeat offenders 
and ConAgra has had three recalls in the past year. On Monday 
the newly re-opened Castleberry plant--whose parent company 
witness testified 2 weeks ago that Castleberry had learned its 
lesson from the botulism contamination--was shut down by FDA 
and USDA's Food Safety Inspection Service again. This shut down 
was due to processing violations that could lead to pathogen 
contamination.
    Today, we will hear from the company responsible for 
perhaps the most notorious recall over the past year. Steven 
Mendell, the President of Westland/Hallmark Meat Company, will 
testify regarding his company's recall of more than 143 million 
pounds of raw and frozen beef products. This was the largest 
meat recall in the history of the United States. The most 
troubling aspect of this recall is that approximately 50 
million pounds of the beef were sold to the National School 
Lunch Program and other Federal nutritional programs for the 
poor and elderly. Thankfully, to date, there have been no 
reported illnesses associated with this meat.
    Mr. Mendell was invited to testify at the Subcommittee's 
previous food safety hearing on February 26, 2008, regarding 
the circumstances surrounding his company's recall. Despite 
extensive efforts by Committee staff to reach out to Mr. 
Mendell, he avoided contact with Committee staff and chose not 
to appear at the February 26th hearing. Because of Mr. 
Mendell's unwillingness to appear voluntarily, the Subcommittee 
was forced to issue a subpoena to compel Mr. Mendell's 
testimony here today. We look forward to finally hearing from 
him.
    Throughout our prior five food safety hearings, one thing 
has become evident: there are increasing concerns about the 
safety of the Nation's food supply and it is necessary to 
utilize more technology to make our food supply safer. Due to 
the interest raised by our last hearing, today, we will explore 
one such technology--food irradiation.
    Food irradiation is a technology which destroys organisms 
that cause foodborne illness. Proponents of food irradiation 
believe it is a safe and effective technology that can 
guarantee the safety of food. Some claim irradiation is the 
only sensible ``kill step'' for leafy greens and meats. Others, 
such as the President of Dole, claimed last month that it was 
not workable and harmed fresh produce.
    Today, we will hear testimony from Dr. Dennis Olson, a 
Professor of Animal Science at Iowa State University and an 
expert on the use of food irradiation. Dr. Olson will testify 
regarding the potential benefits of irradiation. We will also 
hear from Mr. Daniel Wegman, the CEO of Wegmans Food Markets. 
As a CEO of a supermarket chain that sells irradiated meat, Mr. 
Wegman will discuss why his company chooses to offer irradiated 
products to its customers. While food irradiation will be the 
only technology discussed at this hearing, the Committee is 
also exploring other food safety technologies. We hope to 
examine these as our food safety investigation continues.
    We will also hear testimony today from Target Corporation. 
In November, Target sent a formal letter to USDA requesting 
approval for a label that would alert consumers that certain 
meat products Target sells are packaged in an atmosphere 
containing carbon monoxide. Amazingly, USDA did not approve the 
label. I look forward to hearing why USDA would not approve 
such a label and I look forward to hearing what other efforts 
Target Corporation has made to inform their customers of the 
carbon monoxide packaged meat they sell.
    Finally, we will hear from the two primary regulators of 
our food supply, the FDA and USDA. Dr. Stephen Sundlof, the 
Director of the Center for Food Safety and Applied Nutrition at 
FDA, and Dr. Richard Raymond, the Under Secretary for Food 
Safety at USDA, are here. Each will testify about the steps 
their agencies have taken or need to take to ensure the safety 
of this Nation's food supply.
    As I stated previously, today's hearing is our sixth 
hearing regarding the Safety and Security of our Nation's food 
supply, and it probably will not be our last. The American 
public can be assured that we will continue hold as many 
hearings as necessary to fix our country's broken food safety 
system. When we have companies, government agencies, or 
individuals before the Committee, we expect them to follow 
through on the promises they make. We will do follow-up and we 
will bring them back before the Committee to account for any 
failures on the promises they made to the American people.
                              ----------                              

    Mr. Stupak. I would now like to turn to my friend, Ranking 
Member Mr. John Shimkus, for an opening statement. I would just 
caution everyone, it looks like we are going to have a vote 
here pretty quick, and we expect a number of procedural votes 
on the floor today. Tempers flare a little bit. It got a little 
late last night, and so I think we might be back and forth 
which disrupts our hearing, but I appreciate everyone's 
patience and we will try to get back and forth forthwith. There 
is also another hearing going on in the Energy and Commerce 
Committee. Mr. Shimkus, opening statement, sir?

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I appreciate the 
hearing. I believe that this hearing will serve two purposes. 
First, this hearing follows up on the hearing we held on 
February 26, and includes some key witnesses, including 
representatives from USDA and FDA not present at the earlier 
hearing. Second, this hearing highlights issues arising from 
the largest beef recall in U.S. history and focuses on advances 
in food technology, in particular the use of irradiation, and 
how this kill step could be added in food processing systems to 
increase the safety of our food supply.
    Of course, I am eager to hear testimony from Mr. Mendell, 
the CEO of Hallmark/Westland Meat Packing Company, and I hope 
that he can answer the questions we all have concerning the 
illegal and dangerous practices committed at his plant that we 
witnessed at the last hearing. On the same note, I am also 
eager to hear from Dr. Raymond, the Director of FSIS at the 
USDA and hope that he can answer questions concerning the 
conduct, responsibilities, and actions of USDA inspectors 
present at the plant as well as those stationed at other meat 
processing facilities across America.
    At some point during this year of food safety 
investigations, committee staff began to believe that the food 
safety model proposed may serve as an archetype for FDA. 
However, with over 60 meat recalls last year and with increase 
in reports of E. coli in meat, committee staffers are beginning 
to question whether or not the inspector based food safety 
model works as well as previously thought. The bottom line is, 
does having an inspector present at every meat processing plant 
actually decrease the likelihood of the presence of this 
pathogens in a finished product? If the inspectors cannot see 
the pathogens, what good does the physical inspection of that 
product do? Would the inclusion of a kill step like irradiation 
and more end product testing be a better use of our limited 
resources? These are the kinds of questions that these recent 
recalls and outbreaks raise, and we want to try to get some 
answers today.
    I look forward to hearing from Dr. Olson and Mr. Wegman 
about the advances in irradiation and the effective use of this 
technology. Former committee chairman Bliley requested that GAO 
complete a report on the beneficial use of irradiation on food 
products which was published in 2000. The report concluded that 
scientific studies conducted by public and private researchers 
worldwide over the past 50 years support the benefits of food 
irradiation while indicating minimal potential risk. However, 
when the report was published consumer acceptance of 
irradiation food products was extremely low. I look forward to 
Mr. Wegman describing his experience with consumer acceptances 
of irradiation food process. If consumer acceptance remains low 
but the science behind irradiation confirms that it kills these 
dangerous pathogens and increases the safety of our food, I 
want to know what can be done to improve consumer acceptance of 
this technology and what role, if any, FDA or USDA has to help 
convey that message.
    Lastly, Dr. Sundlof, the FDA Director of the Center for 
Food Safety and Applied Nutrition, is here to answer some 
pending regulatory questions surrounding numerous aspects of 
food safety including the issuance of voluntary guidelines on 
leafy greens to private industry. The FDA's response to 
botulism scares at the Castleberry and New Era plants and 
discrepancies in the microbial testing results at the ConAgra 
plant in Sylvester, Georgia, and the ongoing concerns over 
imported seafood.
    Today is about getting answers for the American people. I 
thank our witnesses for coming, and I look forward to 
discussing this vital policy issues. I tried to go fast, Mr. 
Chairman. Thank you.
    Mr. Stupak. You did, and I appreciate that. Mr. Dingell for 
an opening statement, please. We still have plenty of time, 10 
minutes, on the floor yet.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you. I commend you for holding today's 
hearing, and for your leadership in the committee's efforts to 
protect our Nation's food supply. You have been providing 
superb leadership in this matter and the Nation owes you great 
gratitude. Those who heard the testimony at our first food 
safety hearing of the parents of children who became sick or 
seriously injured from contaminated food understand how 
important these efforts are. So what have we learned from our 
work so far? First of all, CEOs of major food companies 
testified they will do better but we only find that they have 
not. Second, food and drug employees and our own staff 
investigators tell us that the FDA has little or no control 
over the quality of the food entering the United States because 
the agency is understaffed, underfunded, and lacks the 
technological capabilities that are necessary to address its 
problems.
    The FDA rewards headquarters bureaucrats with bonuses, 
scandalously so, while they systematically starve their field 
inspection and laboratory forces. The new FDA food czar, its 
enforcement chief, and the commissioner tell us that FDA can do 
more with less, a patently false claim that I have heard for 30 
years, and very frankly I want to tell you this is probably one 
of the finest fairy tales I have heard, and I have been told it 
every day that I have talked to the heads of FDA and it is 
always proven to be false and probably deceitful and possibly 
actively so. FDA promises new technologies, yet they have 
delayed the deployment of irradiation, a technology that some 
experts say promises truly effective cure mechanisms for the 
pathogens that contaminate our food.
    Today we will have a chance to question those same 
regulators who are responsible for the safety of American 
foods. We will expect straight answers about what they intend 
to do and how they intend to halt the illness and economic 
waste associated with 168 recalls that have occurred since we 
began the inquiry last year. We might also inquire how many 
more recalls should have occurred that did in fact not occur. I 
am particularly pleased that Mr. Mendell of Westland/Hallmark 
Meat Packing is appearing before us today. I hope that he has 
learned that this committee has an adage of some age that it is 
important that our witnesses understand there is an easy way 
and there is a hard way to answer our questions and cooperate 
with the committee. Either way this committee has and will find 
out the truth, and the truth today that we want to know is how 
much money he made from illegally slaughtering so-called downer 
cows--cows so sick or injured that they could not walk or 
stand, cows universally viewed as potentially dangerous 
carriers of mad cow disease, and how he participated in a 
program which denied safety to the American public with regard 
to their food supply.
    The good news, however, is that no mad cow disease has yet 
been found, although the incubation period for this disease 
might be up to 20 years or longer for humans. Nevertheless, Mr. 
Mendell's firm has cost school districts and other companies 
greatly in replacing meat that was recalled. I am curious what 
Mr. Raymond of the U.S. Department of Agriculture is going to 
tell us that his inspectors were doing in the California plant 
while the downer cows were forced into the kill boxes. He must 
also tell us why he refuses to allow a major retail operator 
the right to tell his consumers how their meat is prepared and 
how their meat is preserved or treated. I am equally curious to 
hear how Mr. Sundlof of FDA will explain what he intends to do 
about the Office of Pre-Market Approval.
    This body appears to have botched the generally recognized 
safe, or GRS, applications for carbon monoxide packaging for 
meat and fish, yet the records are all mysteriously lost of how 
their meat review after the committee began its inquiries, and 
we will ask for the production of those papers. In closing, I 
want to remind colleagues that at our first hearing we heard 
the dramatic testimony of a mother of a 2-year-old who needed a 
kidney transplant because the spinach that the child ate was 
contaminated with E. coli. At our last hearing, Mr. Sundlof's 
predecessor told us that the mandatory regulations he prepared 
were ignored by Health and Human Services in the confusing 
surrounding melamine imports. I am curious to hear what Mr. 
Sundlof has done to resurrect these regulations that could 
protect other children from similar fate. I also will want to 
know what his resources are and what the agency intends to do 
to both get the resources and to reform its practices to 
protect the American people.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Dingell. Mr. Barton for an 
opening statement, please. We still have time before we run to 
the floor to vote.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Stupak and Chairman Dingell, for 
holding this hearing on the food safety. I am very appreciative 
of what you are trying to do. There is no daylight between the 
Republicans and the Democrats on the issue of food safety for 
the American people. Americans have the right to know which 
people are raising their food, harvesting their food, 
processing it, packaging it, delivering it, selling it, and 
inspecting it. We are committed, we on the Republican side, to 
working on a bipartisan basis. Once we have completed our 
investigation there are legislative things that need to be done 
we will work on a bipartisan basis to enact new legislation in 
this area.
    Today we have several witnesses here that we are anxious to 
hear from. I especially want to hear from Dr. Raymond at the 
United States Department of Agriculture. I think there should 
be some questions asked about what the role of the inspectors 
for the USDA were at Hallmark/Westland, and why they apparently 
weren't able to catch what was going on before the famous 
videotape was released. I also would like to hear a little bit 
more about what a witness at our last hearing called an ``up-
tick'' on the presence of E. coli in the meat and the resulting 
increase in the number of the recalls.
    I would also like to hear from Dr. Raymond explaining the 
process that the USDA goes through when deciding whether to 
initiate a recall or not and how it affects the consumers and 
the businesses as well as the customers involved. So I think we 
have a good witness list, and we are ready to participate as 
soon as we finish with the important work on the floor. There 
is also a hearing going on in the committee upstairs of Energy 
and Air Quality on Pipeline Safety so some of us will be going 
back and forth. Thank you, Mr. Stupak, and welcome our 
witnesses. We are ready to go to work.
    [The prepared statement of Hon. Joe Barton follows:]

                      Statement of Hon. Joe Barton

    Thank you, Chairman Stupak. Let me note at the outset that 
the Committee's oversight of food safety and its efforts to 
gather new information about problems and solutions are a 
valuable application of our jurisdiction, and I strongly 
support this mission. Americans have to know that the people 
who raise, harvest, process, package, deliver, sell and inspect 
what we eat are actually protecting the public from being 
sickened and killed by our food. As these hearings unfold, I'm 
committed to working with you and writing bipartisan 
legislation to ensure that buying and consuming food in this 
country is a safe process. There should be no daylight between 
Republicans and Democrats on this.
    Today we have the right witnesses here to answer some of 
the questions raised at our last food-safety hearing.
    I am particularly anxious to hear the testimony of Dr. 
Raymond from the USDA. I hope that he is prepared to explain 
what his inspectors at the Hallmark Westland Meat Plant were 
doing and whether those questionable actions are prevalent in 
other USDA-inspected meat processing facilities. I certainly 
hope the answer is no.
    I also hope that he can help us identify the source of what 
a witness at the last hearing called an ``uptick'' in the 
presence of e-coli in meat and the resulting increase in number 
of meat recalls. Lastly I hope that Dr. Raymond can explain the 
USDA recall process and how it affects both the consumer and 
the businesses involved. Several witnesses at the last hearing 
indicated that the latest recall of 143 million pounds of meat 
may have been an over-reaction and a misuse of USDA resources. 
I want to know if that assessment is valid.
    Secondly, I am anxious to hear from the witnesses on the 
second panel concerning their knowledge and use of irradiation 
on food products, including meat and produce. The inclusion of 
irradiation to eliminate the contamination of food is one that 
has been widely endorsed for years. In fact, the former 
Chairman of this Committee, Mr. Bliley, requested that GAO 
complete a report on the benefits and risk of irradiation which 
was published in 2000.
    The report concluded that a half-century's worth of 
research conducted by government and private scientists 
worldwide recognize and support the benefits of food 
irradiation and indicate that any potential risk is marginal. 
Back in 2000, the report noted that the major purchasers of 
irradiated foods were health care and food service 
establishments, which purchased them specifically to reduce the 
threat of food-borne illness. But, concerns on the part of food 
processors, retailers, and others about consumer acceptance of 
irradiated foods have limited their availability to date. We 
all know how easy it is for activists to sow fear, but real 
people are getting sick from bad food and the politics of fear 
won't make them well again. I think it's finally time to tell 
the public what we know about a food-processing technique that 
will keep them from getting sick.
    Back in 2000, FDA officials, including the Director of the 
Division of Product Policy, Center for Food Safety and Applied 
Nutrition, generally agreed with the findings presented in the 
GAO report. The question I have for Dr. Sundlof, the new 
Director of CFSAN, is what is the status of the recommended or 
mandatory use of irradiation by FDA? What is the FDA's official 
stance on this technology? If already FDA approved, then why 
aren't more processors using this technology?
    Lastly, I look forward to hearing the testimony of all our 
witnesses and in making progress on securing the safety of our 
food supply. Thank you Chairman.
                              ----------                              

    Mr. Stupak. Thank you, Mr. Barton, and a good job on 
Washington Journal today.
    Mr. Barton. Yes, I said some nice things about you so I 
hope you remember that.
    Mr. Stupak. Mr. Waxman, we still have some time if you want 
to get yours in. I am not sure if we are going to have one or 
two votes but why don't you start, and I think we have most of 
the openings done. When we come back, we will be able to move 
right in to testimony.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, I am pleased you are holding 
these series of hearings on food safety. It is so important. 
The American people assume it is a given that when they sit 
down to eat, the food is going to be safe. But we are hearing 
reports every single day about another contaminated meat or 
produce item, and the public is getting very, very anxious 
about it. I was pleased that Mr. Barton talked about doing 
something on a bipartisan basis. I hope he will work with us to 
accomplish the goal of assuring the American people that food 
is safe. I want to focus on one issue. Several years ago there 
was a story about E. coli in spinach and that raised a lot of 
concerns. Representative DeLauro and I decided to do an 
evaluation of what was going on with the produce, and today we 
are issuing our report.
    The investigation reveals, I fear, a system that is 
incapable of preventing another outbreak in fresh produce. The 
findings of the report are stark. FDA is supposed to inspect 
every year. Instead they go every couple of years. When they 
find problems, and they are common, they don't make sure that 
the problems are corrected. Over 6 years of records we 
reviewed, FDA did not take a single meaningful enforcement 
action, not a single warning letter, seizure or injunction. We 
looked at this company called Natural Selections. That was the 
firm implicated in the 2006 outbreak of E. coli in spinach. FDA 
inspectors found multiple problems with that company and still 
no enforcement actions. Shockingly, the FDA currently has no 
real authority to require firms to grant the agency access to 
records, so they can't get the records, they don't go for the 
inspections, they don't find out what is happening, and then lo 
and behold, we get an outbreak of problems.
    This investigation revealed these serious problems with the 
FDA's system for protecting fresh produce. Some of this is 
because of lack of resources. Some of it is because of lack of 
authority at the FDA. And I must say I have been dismayed at 
the Bush Administration's failure to demand additional 
resources and to revamp the FDA itself to make sure they do a 
better job. I commend you for holding this hearing, and I look 
forward to this committee working on a bipartisan basis because 
we owe it to the American people to assure them with confidence 
that their food is safe. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Waxman. That appears to be the 
end of the opening statements. We are going to recess for 15, 
20 minutes. We are not sure if we have one or two votes. We 
will be back right after votes. We stand in recess.
    [Recess.]
    Mr. Stupak. The committee will come to order. I am sorry 
about the votes. It is going to be a disruptive day on the 
floor and 1 vote turned into about 4. The ranking member and I, 
Mr. Shimkus and I, have agreed that if they do any more of 
these votes where it is just to adjourn and no other votes, we 
are not going to go back. We want to get this hearing in. We 
are just going to stay and march through here. Before we left, 
I know Mr. Waxman wanted to submit this. I am going to ask 
unanimous consent to submit for the record Committee on 
Oversight and Government Reform Majority Staff report March, 
2008, FDA and the Fresh Spinach Safety, prepared by Mr. Waxman. 
Without objection be made part of his opening statement. Ms. 
DeGette, opening statement, if you would, please.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you, Mr. Chairman. I would ask unanimous 
consent to put my full opening statement in the record. And I 
would just note that I am happy that our witnesses are here 
with us today. I am eager to hear an explanation of what 
happened in this situation on the heels of the hearing a couple 
of weeks ago. And in particular a couple of issues that I am 
interested in hearing about is how we can set up a system of 
traceability, which is a law I have been sponsoring for some 
years, and also if a mandatory recall system would help either 
get the product back or preferably to deter conduct like this. 
So with that, Mr. Chairman, I will submit and I yield back.
    [The prepared statement of Hon. Diana DeGette follows:]

                    Statement of Hon. Diana DeGette

    Thank you, Mr. Chairman.
    I want to applaud you for holding this hearing today, and 
for the comprehensive investigation into food safety throughout 
your tenure as Chair of this subcommittee. Nothing is more 
important than the safety of our food.
    Today we continue our efforts to see what the private 
sector can do to help ensure that the food we put on our tables 
each day is as safe as it can possibly be. I think we all 
understand that restoring the confidence of the American 
consumer is simply not something the government can do alone.
    Two weeks ago we heard from the CEOs of some of the largest 
food processors in the country, some of whom were involved in 
outbreaks of foodborne illnesses.
    Many of us were dismayed that these CEOs, as they often do, 
came before us and simply apologized for the outbreaks. But our 
intent on this committee is not to receive apologies but to 
find out exactly what happened, why it happened, and what is 
being done to make sure it doesn't happen again.
    Several witnesses updated us on their plans to improve 
their internal processes for this or that product. But that's 
not good enough. Some of these companies have cleaned up the 
mess and implemented best practices following a recall, only to 
have yet another outbreak in a completely different product 
line a few months later. And then another, and then another.
    Ladies and gentlemen what we need on food safety is 
dramatic overhaul, not tinkering around the edges, in both the 
public and private sector.
    But while the testimony of these CEOs was far from 
adequate, I do want to applaud them for testifying in the first 
place. Our witness today has not been as cooperative.
    One of the fundamental roles of Congress is to conduct 
oversight. That oversight hinges on the ability to gather 
information on behalf of the American people, shine light on 
problems, and if necessary develop policy-based solutions.
    But, we cannot perform this function when information is 
being withheld. Mr. Mendell, you were contacted by this 
committee on numerous occasions to request that you appear 
before us.
    Just last month, your company was involved in the biggest 
meat recall in the history of this nation, after shocking 
undercover video footage at your plant was released.
    Your company acted responsibly and ordered a recall, but 
that is not the end of the story. The American people have the 
right to know what happened.
    As you know, this committee has been looking into cracks in 
the food safety system for quite some time now. I would think 
that the biggest recall in history is something that we should 
investigate further.
    But when this committee tried to invite you to testify, we 
did not hear back. In fact after 15 phone calls, we did not get 
a response from you, your counsel, or your company.
    We were forced to issue a subpoena to compel your testimony 
this morning. I hope you will be more cooperative with us today 
so we can get to the bottom of this.
    One of the things I hope you are forthcoming about is your 
company's system of tracing the meat products you sold. We have 
all heard the media reports that some of the recalled meat was 
sent to schools around the country, including to Jefferson 
County Schools near my district in Colorado. There are also 
reports that meat was sent to large wholesalers and retailers, 
who presumably distribute across the country.
    The fact is, we can never really know where all of the meat 
was sent because there is no effective traceability system in 
place in the United States.
    For years I have introduced legislation, H.R. 3485, to set 
up a system to trace food products from the farm to the fork. 
Right now there is no quick, reliable way to find out where 
food was produced and to where it has been sent.
    In the event of an outbreak of illness, or in this case, 
the introduction of sick cattle into the food supply, a 
traceability system would allow us to quickly identify the 
source, inform businesses along the supply chain, cease 
distribution of other tainted products, and notify potential 
consumers and business owners who may have this food in their 
homes, restaurants, and on their store shelves.
    Some companies already have an effective tracing system; 
indeed advances in technology make it achievable and cost 
effective nationwide.
    In addition to traceback, I'd like to ask the USDA and FDA 
about another piece of legislation I've sponsored, that would 
give them each the ability to recall tainted food, an authority 
they lack right now.
    In this case, it seems that Westland/Hallmark issued a 
recall immediately upon seeing the video we witnessed today, 
showing irrefutable and sickening evidence of its employees not 
only mistreating sick animals, but putting them into the 
nation's food supply.
    Would a voluntary recall have occurred without such 
convincing evidence? I think the government should have the 
authority to act in the case that a company does not act 
quickly enough.
    Obviously we should focus our efforts on preventing 
contamination in the first place, but we also need to have 
better procedures in place to deal with an outbreak, especially 
with regards to recalling and tracing food products.
    Thank you, Mr. Chairman.
                              ----------                              

    Mr. Stupak. Thank you. That concludes the statements by 
members of the subcommittee. I will call our first witness to 
come forward. On our first panel is Mr. Steve Mendell, 
President of Hallmark/Westland Meat Company. It is the policy 
of this subcommittee to take all testimony under oath. Please 
be advised, sir, that you have the right under the rules of the 
House to be advised by counsel during the testimony. Do you 
wish to be represented by counsel? Mr. Mendell, do you wish to 
be represented by counsel? OK. We are going to ask you to turn 
it on, and we recognize our former colleague Asa Hutchinson may 
be assisting you in this testimony, is that correct?
    Mr. Hutchinson. That is correct.
    [Witness sworn.]
    Mr. Stupak. Let the record reflect that the witness replied 
in the affirmative. Mr. Mendell is now under oath. Before we 
begin, one of the reasons why we are here is this video that 
was played, so before we hear from our witness I would like to 
show a brief video that was produced by the Humane Society as 
part of their undercover investigation of the Hallmark/Westland 
Corporation's slaughtering house operation. We invited you, Mr. 
Mendell, to appear at our last hearing but for some reason you 
declined to appear. At our last hearing we showed this video, 
which is the basis for many of the members' questions, and I 
want to be sure you have had a chance to see it so you can 
accurately reflect upon our questions. Following the video, we 
will hear your opening statement. Before we run the video, as I 
did last time, I want to caution viewers it is quite graphic. 
Kyle, would you run the video for us, please?
    [Video.]
    Mr. Stupak. OK. We will now hear a 5-minute opening 
statement from Mr. Mendell. Mr. Mendell, you may submit a 
longer statement for the record, and please begin, sir.

 STATEMENT OF STEVE MENDELL, PRESIDENT, HALLMARK/WESTLAND MEAT 
                            COMPANY

    Mr. Mendell. Thank you, Mr. Chairman. As you stated, I am 
the President of Hallmark/Westland Meat Company. The company is 
in the business of harvesting and processing beef under the 
Federal Meat Inspection Act. Until a few weeks ago, my company 
was viewed as having an excellent record in the areas of humane 
handling and food safety. We took pride in this record. In 
early February, I was contacted by a Washington Post reporter. 
The reporter sent me an excerpt of the video taken by the 
Humane Society. I was shocked, I was horrified, and I was 
sickened. I agreed that the actions shown in the video were 
inhumane and completely reprehensible. The actions were a 
blatant violation of the company policies and procedures. These 
policies and procedures were not just documents but were 
implemented through training and regular compliance audits. The 
company has always been committed to best practices when it 
comes to humane handling and food safety.
    In 2007, the company passed 17 outside audits and twelve 
additional internal audits. The company has been regularly 
audited by the Audit, Review and Compliance Branch of USDA. The 
company has also been regularly audited by Silliker, as well as 
other independent third-party auditors. I ask that these 
reports be made part of the record.
    Mr. Stupak. I won't accept them right now but we will ask 
some questions when you are done, and then maybe they can be 
part of it, but please continue with your statement.
    Mr. Mendell. The company received the highest scores in the 
areas of humane handling and food safety. From the video I saw, 
two employees blatantly violated those policies and procedures. 
Our company has a zero tolerance policy for inhumane treatment. 
The video was apparently taken in October or November of '07. 
Had I known about the employees' actions sooner, I would have 
terminated the employees on the spot. I want to emphasize 
though the activities shown on the video that I saw are not 
food safety issues. The cows shown in the video could not walk, 
were designated to be euthanized and were not put into 
commerce. There is a question about the last cow I saw on that 
tape because I had not seen that tape. These cows would not 
have passed USDA inspection to enter the processing line.
    I also want to emphasize that it would be financial suicide 
for a company to harvest or process a cow that it believes to 
be sick. Generally, the company does not pay suppliers for the 
cost of a cow deemed unfit for human consumption. Therefore, 
there are no financial incentives to bypass regulations. It is 
for this reason that the company would have no interest in 
processing a non-ambulatory cow. In audit after audit, the 
USDA, and other outside auditors, and our internal audits found 
negative test results for the presence of E. coli 157 and 
salmonella. The audits also reported that the company with 
complying with humane handling laws and company policies. In 
February, my management team and I examined what steps we could 
take to ensure that no inhumane handling occurred.
    We reviewed our policies which are in accordance with the 
guidelines of Dr. Temple Grandin, a world-renowned expert in 
humane handling practices. We confirmed that the two fired 
employees, as well as the Humane Society employee, had 
participated in extensive training and retraining. We hired Dr. 
Erica Voogood to ensure that we had best practices. We hired 
all new pen employees and a new pen manager. We installed 17 
cameras that would videotape unloading, pens and chutes areas 
so we could monitor compliance with humane handling practices. 
We were taking all the steps we could to ensure for USDA, our 
customers, and the public that the inhumane handling shown in 
the video would never recur. I then received a call from USDA 
indicating that they had a second video--that they had received 
a second video, a video which I asked to see, which was not 
provided and which I have never seen. At the urging of the 
USDA, however, our company voluntarily recalled all products 
containing any trace amounts of beef harvested by our company 
for the last 2 years. Our company is now the subject of the 
largest meat recall in U.S. history.
    To my knowledge, the USDA has not asserted that there is 
any evidence of contaminated food or any evidence of any 
illness. I am not aware that there has ever been--that there 
has ever before been a meat recall of this magnitude where 
there was no evidence of contaminated food and no evidence of 
any illness. Our company is ruined. We cannot continue. 
Approximately 220 employees have lost their jobs. The financial 
impact affects just not our company but many others. Because 
our company supplies beef that is commingled with other 
products and put into commerce, the financial impact of the two 
employee's actions and the recall is devastating. The conduct 
appearing in the video that I saw is sickening. That is not the 
company I know.
    I agree with everyone who is shocked and horrified at the 
video. I know that this committee was upset I did not appear 
before you earlier in response to the invitation sent a few 
weeks ago. I sincerely apologize for that. It had been a 
chaotic time for me, my company, and my family. I know that 
this committee deserves the respect of witnesses, and I 
appreciate the opportunity to speak today.
    [The prepared statement of Mr. Mendell follows:]
    [GRAPHIC] [TIFF OMITTED] T0332.001
    
    [GRAPHIC] [TIFF OMITTED] T0332.002
    
    [GRAPHIC] [TIFF OMITTED] T0332.003
    
    [GRAPHIC] [TIFF OMITTED] T0332.004
    
    [GRAPHIC] [TIFF OMITTED] T0332.005
    
    [GRAPHIC] [TIFF OMITTED] T0332.006
    
    [GRAPHIC] [TIFF OMITTED] T0332.007
    
    [GRAPHIC] [TIFF OMITTED] T0332.008
    
    [GRAPHIC] [TIFF OMITTED] T0332.009
    
    [GRAPHIC] [TIFF OMITTED] T0332.010
    
    [GRAPHIC] [TIFF OMITTED] T0332.011
    
    [GRAPHIC] [TIFF OMITTED] T0332.012
    
    [GRAPHIC] [TIFF OMITTED] T0332.013
    
    [GRAPHIC] [TIFF OMITTED] T0332.014
    
    [GRAPHIC] [TIFF OMITTED] T0332.015
    
    [GRAPHIC] [TIFF OMITTED] T0332.016
    
    [GRAPHIC] [TIFF OMITTED] T0332.017
    
    [GRAPHIC] [TIFF OMITTED] T0332.018
    
    [GRAPHIC] [TIFF OMITTED] T0332.019
    
    [GRAPHIC] [TIFF OMITTED] T0332.020
    
    [GRAPHIC] [TIFF OMITTED] T0332.021
    
    [GRAPHIC] [TIFF OMITTED] T0332.022
    
    [GRAPHIC] [TIFF OMITTED] T0332.023
    
    [GRAPHIC] [TIFF OMITTED] T0332.024
    
    [GRAPHIC] [TIFF OMITTED] T0332.025
    
    Mr. Stupak. Thank you, Mr. Mendell. You have two reports 
you wanted to put in, and I objected. I just want to clarify a 
couple things. On the first report, the audit report from 
Silliker, the concern I have is the report dated November 21, 
2007, the small print, fourth paragraph says the name of 
Silliker or its affiliates or any of its employees may not be 
used in conjunction with any marketing or promotion or in any 
publication concerning or relating to the client or its 
products and services without the prior written consent of 
Silliker. Do you have the prior written consent of Silliker to 
submit this?
    Mr. Mendell. I don't.
    Mr. Stupak. OK.
    Mr. Shimkus. Mr. Chairman, could you yield on that for a 
second, and maybe counsel can help us too on both sides. It is 
my understanding that you actually own this report. You paid 
for it. So I am not sure that application would apply to your 
ability to--it is a service rendered. It is not marketing. It 
is not----
    Mr. Hutchinson. Mr. Chairman, if I might, the disclaimer on 
the front says the report is furnished solely for the benefit 
of the above-named client in connection with the auditing 
services so it would be our view that this was an audit in the 
regular course of business that we paid for and it would be 
relevant to the committee's consideration when appropriate.
    Mr. Stupak. OK. So upon your advice you are having your 
client then submit this report?
    Mr. Hutchinson. Yes.
    Mr. Stupak. Despite the disclaimer, we don't have written 
notification? OK. I am just trying to protect the integrity of 
everybody here. OK. And then on the--I guess the other one 
doesn't have that disclaimer, just some general--would you take 
same advice that your client paid for it, it is his report, 
therefore, it would be appropriate to submit it for the record, 
Mr. Hutchinson?
    Mr. Hutchinson. Which one are you referring to?
    Mr. Stupak. The one dated, let me get the exact date, HACCP 
Consulting Group from Fairfax, Virginia, November 16, 2007.
    Mr. Hutchinson. Correct.
    Mr. Stupak. So these are 5 days apart, these two reports, 
and you would like them both submitted for the record.
    Mr. Mendell. Yes, indeed.
    Mr. Stupak. OK. Without objection. Hearing no objections 
they are part of the record.
    Mr. Hutchinson. There is one more letter that was attached 
to that package, a letter of February 1, 2008. Do you have 
that?
    Mr. Stupak. Yes, I do.
    Mr. Hutchinson. We would ask that to be made a part of the 
record as well.
    Mr. Stupak. This is the letter from Dr. Coiner, Meat 
Consultant? He is a Doctor of Veterinary Medicine, is that 
correct?
    Mr. Mendell. Yes, that is correct.
    Mr. Stupak. That is the one? OK. It is dated February 1, 
2008.
    Mr. Mendell. That is correct.
    Mr. Stupak. That is after these incidents. I didn't know if 
you----
    Mr. Mendell. That is correct. That is after.
    Mr. Stupak. But you still want it?
    Mr. Mendell. Yes.
    Mr. Stupak. Without objection, February 1, 2008, letter 
from V.E. Coiner, Doctor of Veterinary Medicine, Meat 
Consultant, will be part of the statement.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. Let us begin questioning then. Mr. 
Mendell, you state your company according to what I have seen 
and read, the company began, at least you, in 1990 near Los 
Angeles, correct?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. And then you bought this slaughterhouse later?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. OK. Were you aware then in 1990 that the Humane 
Society in neighboring Panoma found recurring problems of the 
plant handling cows?
    Mr. Mendell. No, sir.
    Mr. Stupak. OK. Are you aware that in 1993 part of the 
Jack-in-the-Box where we had the E. coli and people were 
injured, your company settled part of that claim?
    Mr. Mendell. Yes, sir, I was part of that recall.
    Mr. Stupak. OK. And then in 2003, 2004, your company 
aggressively went after the, I shouldn't say after, sought the 
hot lunch program providing meat to the Federal government for 
a hot lunch, right?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. OK. And in 2005, you had a complete by U.S. 
Department of Agriculture for non-compliance in handling of 
animals?
    Mr. Mendell. Yes. We had one violation written by USDA, 
yes, sir.
    Mr. Stupak. OK. Do you have that report with you today?
    Mr. Mendell. Yes, I believe we do.
    Mr. Stupak. Can you submit it for the record so we can see 
it? The downer cow issue, you agree they are not supposed to be 
put into the human food supply chain, food chain, correct?
    Mr. Mendell. Yes.
    Mr. Stupak. And why is that?
    Mr. Mendell. Because they changed the regulation in '04, 
until '04 they were allowed in the food chain, not school 
lunch, but commercial trade. In '04 the regulation was changed.
    Mr. Stupak. And do you know why that was?
    Mr. Mendell. In abundance of caution for E. coli, 
salmonella and----
    Mr. Stupak. And mad cow disease, right?
    Mr. Mendell [continuing]. Mad cow disease.
    Mr. Stupak. And it was established then, was it not, that 
of the 15 cases of mad cow disease in North America, U.S., and 
Canada, 12 of the 15 were downer cows. Eighty percent of those 
cows related to mad cow disease were downer cows, is that 
correct?
    Mr. Mendell. I don't know those exact numbers but they 
sound right to me.
    Mr. Stupak. Are you aware of the report, I think everybody 
has it, Canada confirmed a new case of mad cow disease on 
February 26, the day you were supposed to testify, confirm mad 
cow disease still available?
    Mr. Mendell. Yes, I was aware of that.
    Mr. Stupak. OK. Are you also aware that mad cow disease, 
including the Jack-in-the-Box case, they don't surface until on 
an average 13 years, but up to 20 years later before mad cow 
disease may surface in a human?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. So the statement that there has been no illness 
because of this recall, we don't know that for at least on an 
average 13 years later because of the incubation period, 
correct?
    Mr. Mendell. That would be correct.
    Mr. Stupak. OK.
    Mr. Mendell. But we have--we have safeguards in there, sir.
    Mr. Stupak. Well, let us talk about safeguards.
    Mr. Mendell. All right.
    Mr. Stupak. You said on the video we showed, you never saw 
the cow, we call it the water boarding cow, the last cow.
    Mr. Mendell. The water boarding cow I had seen.
    Mr. Stupak. You had seen?
    Mr. Mendell. Yes.
    Mr. Stupak. And that was put into the kill chute and that 
was made part of the human consumption, was it not?
    Mr. Mendell. No, I saw the video.
    Mr. Stupak. You saw the video.
    Mr. Mendell. Yes.
    Mr. Stupak. So that cow that we referred to, it is at mark 
435 in the video if you want to get it up, Kyle, that went into 
the food supply, did it not?
    Mr. Mendell. I am not sure if it did, sir.
    Mr. Stupak. Well, it went into the kill and it was killed. 
It showed that on the tape, does it not?
    Mr. Mendell. OK. Was that--yeah, I am not certain that was 
the cow, but yes.
    Mr. Stupak. OK. So that would be a direct violation, that 
cow as a downer cow could not go into the food chain, correct?
    Mr. Mendell. That would be a direct violation unless it was 
re-examined by a veterinarian.
    Mr. Stupak. Was it re-examined?
    Mr. Mendell. I don't know, sir.
    Mr. Stupak. In that video, did you see any veterinarian 
there?
    Mr. Mendell. No, it didn't look like it to me, sir.
    Mr. Stupak. OK. Kyle, do you have a second clip? Let me 
show you this clip. You said there was a second video you never 
saw.
    Mr. Mendell. Right.
    Mr. Stupak. But you talked to the USDA about it, correct?
    Mr. Mendell. I am sorry?
    Mr. Stupak. You said you talked--in your written testimony 
you said there is a second video, USDA called you on it, and 
that is when you decided to do the recall.
    Mr. Mendell. That is when they decided to recall.
    Mr. Stupak. And you've never seen the video?
    Mr. Mendell. I haven't seen that one, and I don't know if 
there is another one.
    Mr. Stupak. OK. Kyle, show the second one.
    [Video.]
    Mr. Stupak. OK. Has your company ever illegally 
slaughtered, processed or sold a downer cow?
    Mr. Mendell. I didn't think we had, sir.
    Mr. Stupak. OK. The first video shows a downer cow going in 
the kill box, right?
    Mr. Mendell. Yes.
    Mr. Stupak. This last one was a cow that never made it to 
the kill box. It was there, not quite in, and they shot it and 
they dragged it in, correct?
    Mr. Mendell. That is the video that I hadn't seen that USDA 
had called me on, sir.
    Mr. Stupak. I am curious, and I know my time is up, but 
when seeing these videos, the first video was on the Web weeks 
before we had our hearing. This one has been on for a couple of 
weeks, the one you just saw. We download them off----
    Mr. Mendell. That one I never saw, sir. I thought it was--
--
    Mr. Stupak. Wouldn't your own curiosity as president of the 
company and CEO you are responsible for, wouldn't you want to 
see what is being played out there, what they are saying about 
your company, what the videos are showing about your company?
    Mr. Mendell. Yes, I would, sir.
    Mr. Stupak. So the recalls of the 143 million pounds of 
meat based upon these two cows we know went in was a proper 
recall then because of mad cow disease, correct?
    Mr. Mendell. It was a regulatory violation for sure. It was 
inhumane treatment for sure.
    Mr. Stupak. Let me just be real clear. There is no doubt 
that a downer cow since 2004 according to your testimony cannot 
be put in the nation's food supply because of concerns of mad 
cow disease, which does not manifest itself in human beings on 
an average of 13 years later, is that correct?
    Mr. Mendell. That is correct, unless you have a vet there 
to examine it, and I did not see a vet.
    Mr. Stupak. So based upon what we saw, it would be logical 
to conclude then at least two downer cows went into the 
nation's food supply as we did not see a vet make a physical 
inspection before it was put in the kill box?
    Mr. Mendell. That would be logical, yes, sir.
    Mr. Stupak. OK. So then let me take it one step further. 
The cow we just saw in video 2, the water board cow in video 1, 
they were illegally slaughtered underneath the rules and 
regulations of the United States?
    Mr. Mendell. Correct.
    Mr. Stupak. I have more questions, but my time is up. I 
will turn to Mr. Shimkus for questions, please.
    Mr. Shimkus. Thank you, Mr. Chairman. So for the layman 
here, especially the second video, that was the kill box?
    Mr. Mendell. Yes.
    Mr. Shimkus. OK. We just wanted to clarify that. Because 
the real issue here--there are two big issues. The one is, and 
the chairman has just highlighted the point ,is that your 
statement says it is not a food safety issue, now after having 
seen the second video our issue is going to be downer cows in 
the kill box. The risk is greater than the ability to--I mean 
the risk is such that that is why we have the rules, no downer 
cows in a kill box because of the uncertainty of the food 
process. And so it is a food safety issue to us based upon the 
second film.
    Mr. Mendell. I believe those cows should be verified on a 
case-by-case basis by the USDA veterinarian. He has the 
authority to let that cow go or not.
    Mr. Shimkus. I just want to clarify that because I am 
assuming that if a vet, and I could be wrong, I am not in the 
business, but if a vet had inspected it that would still give 
the authority of a processor to drag a cow that has been 
inspected into the kill box? I would assume it would have to 
walk--it would still--you would inspect it, it is OK, and then 
we escort it in instead of the--I mean dragging, that is my 
concern.
    Mr. Mendell. I believe the regulation states that that cow 
must be ambulatory to the knock box.
    Mr. Shimkus. Thank you. Let me ask, the other concern is 
the whole idea is to protect the food safety of our citizens, 
and you go through a litany of regular training, compliance 
audits, interim audits, USDA audits, the review that was 
submitted and accepted for the record. The simple question is 
what went wrong, and if you have so many audits, and we have 
all be in businesses where we have audits and reviews. Is it a 
fact that heads-up were given to the processing facility so 
when the inspectors are there everything is above board, and 
when the inspectors leave everything returns to an operating 
process which is not acceptable? That is the follow-up 
question. You have done the auditing. What went wrong?
    Mr. Mendell. Well, obviously there was a breakdown in our 
training or our programs to allow that kind of behavior to 
occur.
    Mr. Shimkus. But there is also wrong in the audit that you 
paid for, there is something wrong in all these reviews that 
someone--the concern from my aspect as a supporter of business 
and industry is the corporate culture. And you have so many 
reviews. Was there a corporate culture change that effected a 
nod and a wink to all these audits and a heads--that is the 
problem. We have to figure out why you had so many reviews, so 
many internal audits, so many inspectors, and then the Humane 
Society does their undercover and, voila, it is pretty graphic 
and it is not defendable.
    Mr. Mendell. It is very graphic. It is very sickening to me 
also. We also put videos in there after this occurrence. I 
think the only answer to solve this kind of problem are video 
cams. We installed 17 video cams shortly after that that 
covered every square inch of that yard and the unloading area, 
and paid a company, Aero Sight was the name of the company, for 
24/7 surveillance along with Dr. Grandin and Dr. Voogood 
looking at them on a weekly basis check-up.
    Mr. Shimkus. Let me just finish up because the major point 
is this has been devastating across the board. It is 
devastating to the treatment of the animals and we all accept 
that and are aggrieved by that. It is devastating because of 
the possible risk to the food supply, and again highlighting 
the mad cow disease and all the things that we are dealing with 
on food recalls we are under pressure to get this right. And it 
is devastating to you personally, your family, all the 
employees.
    Mr. Mendell. Yes, sir.
    Mr. Shimkus. The tax base, and we have to do what we can to 
try to make things right, so I lay that on the table that this 
is destructive to everybody and it is unfortunate and we got to 
try to find a way to fix it, so I appreciate the chairman--I 
yield back my time, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Shimkus. Before I turn you over 
to Ms. DeGette for questions--oh, sorry, Mr. Dingell is there. 
Let me just, a word of caution. On questions, your answers to 
my questions, page 2 of your testimony, you said I want to 
emphasize that thought that the activities shown on the video 
are not food safety. The cows shown in the video could not 
walk, were designated to be euthanized and were not put into 
commerce. I think we established that is not true based on your 
testimony. You also state these cows were not slaughtered, 
ground or sold. They were euthanized and removed. That may not 
have been true. That is what your written statement said, which 
is supposed to be under oath and part of the record, but I 
believe your oral testimony contradicted that. You may want to 
clarify that.
    Mr. Hutchinson. It is an important point. The testimony 
that was submitted referred to an excerpt of a video that my 
client saw, and so his testimony was accurate relating to the 
excerpt of the video that he saw and his testimony is correct 
in that regard. It has obviously been clarified today in 
further testimony.
    Mr. Stupak. The only hesitance I have, Mr. Hutchinson, is 
the top of page 2, shocked with an electrical prodder, and had 
water hoses sprayed in their nose in an effort to get them to 
their feet. That was the one that was euthanized and put in the 
food chain, the one where Mr. Mendell said I was not aware of 
it, but that is the same one he saw. He describes it in his 
testimony. That had to be video number 1. It is the same. So 
the written testimony and the oral testimony are not on the 
same parallel. And I just caution. The committee is under oath 
for a reason and I want to--before I unleash Mr. Dingell, I 
just want to give you that caution.
    Mr. Hutchinson. We appreciate the instruction of the 
chairman, and I think combined with what his statement has been 
for the record, both written and orally, I think he testified 
orally that provides a clarification and direct answers to the 
committee.
    Mr. Dingell. Mr. Chairman, I believe it is the custom for 
the committee to swear all witnesses, is that correct?
    Mr. Stupak. Yes. He was sworn in earlier with the----
    Mr. Dingell. Mr. Mendell has been sworn. The other 
gentleman----
    Mr. Stupak. He was identified and sworn early on, yes.
    Mr. Dingell. The other gentleman at the table, has he been 
duly sworn?
    Mr. Stupak. Mr. Mendell has. Mr. Hutchinson, have you 
been--you were sworn in the beginning, were you not?
    Mr. Hutchinson. No, I was not.
    Mr. Stupak. OK. Then we are going to have to do it right 
now then, OK?
    Mr. Dingell. Mr. Chairman, my understanding of the practice 
of the committee that a witness has the privilege of being 
sworn and testifying. He has the privilege of having a lawyer 
and having the lawyer advise him during his appearance before 
the committee. I am not aware of any privilege that permits an 
individual to be sworn and to serve as a witness and yet at the 
same time to serve as an attorney or lawyer or legal advisor to 
the witness. I think Mr. Mendell has the privilege of being 
duly sworn and testifying. The gentleman there at the table, he 
is appearing here as a lawyer. It was always my practice when I 
ran the committee and this subcommittee that those who appeared 
as lawyers functioned as lawyers, and those who function as 
lawyers could not testify.
    Mr. Stupak. Point well taken, Mr. Dingell.
    Mr. Dingell. I believe that is the practice to which we 
should continue to adhere, and I think Mr. Mendell should be 
permitted to answer the questions, and if he can't then he 
should state so and we will decide whether or not we want to 
hear from his lawyer under oath at a suitable and proper time.
    Mr. Stupak. Very well taken, Mr. Dingell. In my sense of 
fairness in trying to make sure everybody is treated fairly 
here, I had asked Mr. Hutchinson a question or two. You are 
right, he cannot be a lawyer and a witness at the same time. 
Therefore, I would recommend and I would suggest to the 
committee with no objection that Mr. Hutchinson stays where he 
is at, not take the oath, but can advise Mr. Mendell. Before 
you answer a question if you want to consult with Mr. 
Hutchinson, we will give you that opportunity. I just want to 
make sure everybody is clear on where we are going, clear on 
the statements, clear on the facts because there are 
extenuating circumstances that may develop in this.
    Mr. Shimkus.
    Mr. Shimkus. I have no objection, Mr. Chairman. The only 
thing that I just want to get a handle on the line of 
questioning and maybe because I don't understand what I am 
seeing. There is an assumption here that in the first tape that 
there is a clear indication that a downer cow went into a kill 
box. I don't know if I need a rerun. I have a hard time seeing 
that. I am not sure. And I don't have to see the whole thing. 
It is just that last section where--because that is where a lot 
of confusion is. And then obviously the second film we are 
clear, we are clear there is problems with. I just have 
trouble--we saw that first film in the other hearing. I don't 
know if our line of questioning went in that direction that 
there was concern about the food safety supply then.
    Mr. Stupak. The other caution I had, Mr. Shimkus, and point 
well noted, but I had asked Mr. Mendell directly based upon 
what we saw, the first video, second video, and no veterinarian 
had looked at this cow. Would it have been illegal to put this 
cow in, and he answered yes. So that sort of cleans that one 
up, I think. Go ahead.
    Mr. Shimkus. If the chairman would yield, I would like to 
pose--I think there is a lot of confusion and he has answered 
but I would ask it again for full clarification so we know on 
the first video food safety, kill box.
    Mr. Stupak. I had asked the question and let me take a 
minute and try to clarify this. Has your company ever illegally 
slaughtered, processed or sold a downed cow, Mr. Mendell?
    Mr. Mendell. Not that I was ever aware of.
    Mr. Stupak. Correct. And that was your answer earlier, you 
said not that you were aware of. And then I directed your 
attention to the video.
    Mr. Mendell. Correct.
    Mr. Stupak. And we discussed the fact that the water board 
cow went into the, I called it a kill box but I guess it is a 
knock box, and then once it went into that knock box it went 
into the food supply, and we established no veterinarian had 
looked at it which is required by law. And then we mentioned 
the second video where that cow was shot outside the knock box 
and then dragged into the kill box. That one went in on the 
second video. So the question I believe to the best of my 
memory I asked since 2004, since the rules changed in 2004, 
that downer cows could not go into the food supply for human 
consumption because of the concern of mad cow disease which 
manifests itself 13 years, maybe as high as 20 years later, as 
the reason why we do not allow downed cows into food supply, I 
think you answered affirmative to that, correct?
    Mr. Mendell. Yes.
    Mr. Stupak. And then I said so in summation at least two of 
these cows then that we saw in the video, the two videos, were 
illegally slaughtered. I believe your response was yes.
    Mr. Mendell. OK, to clarify that. The cow getting the water 
sprayed in its nose, that is clearly inhumane treatment. I did 
not see an inspector there to reinspect that cow to allow it to 
go into the food chain.
    Mr. Stupak. And we saw it go in the kill box, therefore, it 
went into the food chain?
    Mr. Mendell. Yes.
    Mr. Stupak. OK. And the second one, the second cow, that 
short video.
    Mr. Mendell. Yes.
    Mr. Stupak. Where they shot it outside the kill box, and 
then it went into the kill box, then it went into the food 
supply. It was not inspected by a veterinarian.
    Mr. Mendell. Not that I saw, sir.
    Mr. Stupak. So it is fair to say then that these two cows 
went into the food supply and that would be illegal since at 
least 2004 to put a downer cow in the food supply for human 
consumption?
    Mr. Mendell. I would say that it is a rules violation for 
not calling a USDA veterinarian to inspect that cow to either 
let it or not let it go in.
    Mr. Stupak. The veterinarian, even though the veterinarian 
could have rectified the problem, the problem is we have a 
downer cow according to the video that saw no veterinarian 
there went into the food supply. That is what makes it illegal, 
the downer cow being in the food supply, is that correct?
    Mr. Mendell. Yes. I don't have all the facts. I just see 
what I see on the video. I am not completely sure if that cow 
walked all the way in the knock box, or backed out of it, which 
is a common occurrence. There is a door that closes behind it.
    Mr. Stupak. But if the cow went into the food supply 
everyone can make their own conclusions from that video----
    Mr. Mendell. Yes.
    Mr. Stupak. We didn't see a veterinarian. If it went in the 
food supply that would be illegal.
    Mr. Mendell. Right. That would be illegal. It did go 
through postmortem inspection.
    Mr. Stupak. Right, but whether it went through postmortem 
or not, a downer can't go into the food supply. That is the law 
since at least 2004 in this country according to USDA and 
Federal law, correct?
    Mr. Mendell. Without approval of the vet.
    Mr. Stupak. Correct. And we didn't have a vet in----
    Mr. Mendell. I didn't see one, sir. It is a case-by-case 
basis, and I did not.
    Mr. Stupak. And in these two cases we didn't see a 
veterinarian?
    Mr. Mendell. I did not.
    Mr. Stupak. OK. All right, you are going to find this a 
hard one to believe but we have an air code yellow meaning a 
plane is within our air space. We need to evacuate the 
building. But not yet, not yet. OK. They are cautioning not 
yet. If we do, I am going to give you a 2-second warning. Leave 
calmly, OK? If you want to leave now, you can. There is a plane 
in our air space. We may need to evacuate. Now, Ms. DeGette--
no, Mr. Dingell for questions, please.
    Mr. Hutchinson. Mr. Chairman.
    Mr. Stupak. Yes.
    Mr. Hutchinson. Mr. Mendell did have one clarification on 
that last question.
    Mr. Stupak. OK. Clarification before we go to Mr. Dingell.
    Mr. Dingell. Thank you. Mr. Dingell----
    Mr. Stupak. Mr. Dingell, one minute, please. Mr. Mendell 
wants to clarify something for us before I turn it to you, sir. 
Mr. Mendell.
    Mr. Mendell. If that cow did not pass postmortem inspection 
it would not have gone in the food supply either.
    Mr. Stupak. That is fine. Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and I commend you again for these hearings. Mr. Mendell, in 
your statement--you make this statement at page 2. I want to 
emphasize though that the activities shown on the video are not 
a food safety issue. The cows shown in the video could not 
walk, were designated to be euthanized, and were not put into 
commerce. Then you said this. All these cows should be treated 
humanely. They were not. These cows were not harvested and they 
did not enter the food system. They were not slaughtered, 
ground or sold. They were euthanized and removed. Are we to 
believe that statement? The movie shows things rather 
differently.
    Mr. Mendell. Those were probably different videos, sir.
    Mr. Dingell. Sorry?
    Mr. Mendell. They were probably a different video, sir. I 
have seen clips of different videos, 50 of them. I have not 
seen what I saw here today. I saw pieces of it. I have never 
seen the whole thing.
    Mr. Dingell. So we have to assume then that your statement 
here is incorrect, is that right?
    Mr. Mendell. Not based upon the video that I saw, sir.
    Mr. Dingell. All right. Now, Mr. Mendell, I have got to say 
I have certain sympathy for you because you are not in a very 
pleasant place but I have a few questions more that have to be 
directed to you. You chose not to attend the hearing on the 
invitation of the committee on February 26, and despite 
substantial efforts by the committee staff to reach you, you 
avoided the committee staff. Now will you explain to me why you 
chose not to appear before the committee and why it was 
necessary for the committee to subpoena you for your presence 
today?
    Mr. Mendell. During the last--during the last committee 
meeting, I was on the recall team at Westland Meat Company. My 
company was in a crisis. It was next to impossible for me to 
leave, sir. I apologized to the committee earlier for that, and 
I deeply regret not being able to attend, but this was a very 
serious incident. I was trying to comply with USDA.
    Mr. Dingell. You did not so communicate this to the 
committee or the staff as they communicated to you, is that 
correct? You didn't advise the committee of these matters, did 
you?
    Mr. Mendell. I said that I was over-inundated with phone 
calls, news reporters, and my business was in the middle of the 
biggest recall in U.S. history, and I didn't want to leave my 
recall staff without me.
    Mr. Dingell. Now, Mr. Mendell, in your testimony you state, 
and I quote, ``The company does not pay suppliers for the cost 
of a cow deemed unfit for human consumption and there is 
therefore no financial incentive to bypass the regulations.'' I 
would note here that the pictures--so you are telling us here 
that you don't pay these people for these downer cows, so you 
got a whole bunch of downer cows going in, and we have pictures 
of them. I must assume then that you didn't pay for these 
downer cows but the downer cows were put into the food supply 
according to the pictures which we saw. Now that leaves me then 
with the assumption that you are not paying for these downer 
cows but the downer cows are winding up in the food supply and 
causing recalls of meat because of the improprieties that have 
been associated with the slaughter and with the slaughter of 
downer cows. Am I correct or incorrect with that?
    Mr. Mendell. That is incorrect, sir. Those cows----
    Mr. Dingell. What are the facts then, if you please?
    Mr. Mendell. Those cows are--each one of those cows has a 
number on them. If that number--those numbers are recorded 
through that plant. If that cow goes in the plant it is paid 
for. If it is processed and it passes postmortem inspection it 
is paid for. Any cow that we euthanize in a truck, in a pen, 
any place outside the plant, usually most of the time those 
cows are bought as a subject or on the rail and they are not 
paid for. There are instances where our buyers buy some. They 
are euthanized or they don't pass inspection, we do pay.
    Mr. Dingell. Now in your statement, Mr. Mendell, you told 
us the number of times that you had been audited by USDA.
    Mr. Mendell. Yes, sir.
    Mr. Dingell. And I am assuming that in each one of those 
audits you got a clean bill of health, is that right?
    Mr. Mendell. Yes, sir.
    Mr. Dingell. So you then--I would note, however, before you 
owned Hallmark Meat Packing Company, Hallmark faced scrutiny 
for the way it handled downer cows. Were you aware of the 
problems that the company had before your ownership of it?
    Mr. Mendell. No, sir.
    Mr. Dingell. And I would note that during that time you 
owned Westland Meat Company, which bought beef from Hallmark, 
is that correct?
    Mr. Mendell. On occasion, yes, sir.
    Mr. Dingell. Did you have any awareness then of mishandling 
of downer cows and the handling of downer cows by Hallmark 
either through yourself and your own knowledge or that of your 
company, Westland Meat Company?
    Mr. Mendell. Not at that time, sir.
    Mr. Dingell. So all during that time the Department of 
Agriculture is giving you clean bills of health in its audits 
of your company and in its audits of Hallmark. I wonder if you 
could help us to understand why did they do that if we had all 
these problems that were going on during that period of time?
    Mr. Mendell. Well, the only problem I know we had, sir, was 
the inhumane treatment of animals and obviously my system broke 
down. I don't know how often USDA is supposed to be in a 
knocking box or examine the yard areas or loading or unloading. 
I am not really sure, sir. Obviously, my programs, which is 
very disappointing to me after extensive training and hours and 
hours and hours of training, obviously failed.
    Mr. Dingell. Thank you, Mr. Mendell. Mr. Chairman, I thank 
you for your courtesy.
    Mr. Stupak. Thank you, Mr. Dingell. Mr. Whitfield for 
questions.
    Mr. Whitfield. Thank you, Mr. Chairman. And, Mr. Mendell, 
thank you for being with us today. I want to, first of all, 
just go over a couple of things regarding the Washington Post 
article about this. Now you are the chairman or you are the 
owner of this slaughterhouse, is that correct?
    Mr. Mendell. I am the owner of Westland Meat Company and I 
manage Hallmark Meat Packing.
    Mr. Whitfield. OK. And how many plants do you have?
    Mr. Mendell. One plant.
    Mr. Whitfield. Just one. And what is the status of that 
plant today?
    Mr. Mendell. It is closed.
    Mr. Whitfield. And do you anticipate that it will be 
reopened?
    Mr. Mendell. I doubt it, sir.
    Mr. Whitfield. OK. Now I think it is very clear to everyone 
that there are a couple of issues here, 1, the humane slaughter 
of animals, and, 2, the food safety chain. And you have been 
pretty straightforward today in saying that this was inhumane 
treatment of these animals so there is no question about that. 
And I notice that when you first saw these videos you made the 
statement that it is impossible, electrical prods are not 
allowed on our property, and it is absolutely not true that 
water was sprayed at the nose of these animals and that we have 
a massive humane treatment program that we follow to the nth 
degree. All of those statements turned out not to be correct, 
but you have admitted today that whatever the procedures that 
you had in place, they simply did not work, is that correct?
    Mr. Mendell. Yes, sir. Evidenced by the audits that I 
received from USDA and all these third party audits, and I knew 
the programs we had in place. I knew the training that we had 
in place. I mean I couldn't believe that it was my plant until 
I saw the video.
    Mr. Whitfield. Now you mentioned that video cameras are 
really the only way to ensure a clean plant, a humane plant, 
and so forth, and you installed those cameras at this plant, is 
that correct?
    Mr. Mendell. Yes, I did, sir.
    Mr. Whitfield. Now in your knowledge of other owners of 
slaughterhouses, do most slaughterhouses have cameras 
installed?
    Mr. Mendell. No, sir, they do not. I only know of one.
    Mr. Whitfield. And you know we have a lot of Federal laws 
relating to criminal charges against people who treat animals 
inhumanely, as an example, Michael Vick recently, and it is my 
understanding that current Federal law does not provide for 
criminal penalty even in cases of the egregious offenses for 
violation of humane handling at slaughterhouses. Is that your 
understanding as well?
    Mr. Mendell. I am not sure of that law, sir.
    Mr. Whitfield. So you don't know if there are any criminal 
violations here or not under existing Federal law?
    Mr. Mendell. I know that the county of San Bernardino has 
charged the two employees that we fired with criminal charges.
    Mr. Whitfield. OK. Now when a load of cattle arrives at the 
plant do they normally arrive in double deck trailers?
    Mr. Mendell. The majority, yes, sir.
    Mr. Whitfield. And these are cattle that you have buyers 
that have gone out and purchased or you have contracts with 
suppliers that just bring them in?
    Mr. Mendell. Both.
    Mr. Whitfield. And when the cattle arrive at the plant is 
there an inspector when they are unloaded from the trucks?
    Mr. Mendell. No. Not purposely, unless, not unless he is 
doing antemortem inspection.
    Mr. Whitfield. But the inspection is the responsibility of 
the Department of Agriculture, is that correct, or do you have 
the----
    Mr. Mendell. I am not sure if that is the regulation for 
them or not, sir.
    Mr. Whitfield. Well, the postmortem and antemortem, whose 
responsibility is that?
    Mr. Mendell. That is theirs.
    Mr. Whitfield. OK. So you are saying you don't know if they 
have a responsibility to inspect the animals when they are 
unloaded from the trailers?
    Mr. Mendell. No, sir.
    Mr. Whitfield. The only thing that you are really aware of 
is that they do have ante- and postmortem inspection 
responsibility?
    Mr. Mendell. Yes, sir.
    Mr. Whitfield. And they also supply a veterinarian that 
even on the downer cow can approve that animal for slaughter, 
is that correct?
    Mr. Mendell. Could you ask me that one more time, sir?
    Mr. Whitfield. The Department of Agriculture provides a 
veterinarian that comes to the plant and if they inspect a 
downer cow and decide that it is OK to be slaughtered then it 
can be slaughtered, is that correct?
    Mr. Mendell. Yes.
    Mr. Whitfield. And the only mad cow--most of the mad cow 
disease that has occurred in the U.S., there hasn't been that 
many, has been directly related to downer cow, traced to a 
downer cow, so what would you think about--I recognize the 
monetary situation but it seems to me that maybe we should have 
a blanket policy that downer cows will not be slaughtered. Do 
you have an opinion on that?
    Mr. Mendell. Well, I think they should take them on a case-
by-case basis but the vets--maybe they don't have enough vets. 
Maybe they aren't staffed properly. I am not sure. I couldn't 
answer that question.
    Mr. Whitfield. But on the downer cows at your plant on this 
particular day, we do not really know if a veterinarian was 
there or not, is that correct?
    Mr. Mendell. It didn't appear in the video, sir, but he 
could have been there earlier. We could have shot five earlier. 
We could have euthanized five earlier that day when he was 
there. I am just not positive.
    Mr. Whitfield. But the USDA inspectors, they do not stay at 
these plants. They just come and go?
    Mr. Mendell. No, sir. They are stationed at my plant, 5--4 
or 5.
    Mr. Whitfield. And how many of the inspectors are stationed 
there?
    Mr. Mendell. I believe there are four inspectors and one 
vet, if I am not mistaken.
    Mr. Whitfield. And they are there all the time?
    Mr. Mendell. Yes, sir.
    Mr. Whitfield. All day long?
    Mr. Mendell. Yes, sir.
    Mr. Whitfield. OK. I see my time has expired, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Whitfield. Mr. Green for 
questions, please.
    Mr. Green. Thank you, Mr. Chairman. And again, Mr. Mendell, 
we appreciate you appearing today. And I guess all of us have 
been touched because I have two school districts in my district 
in Houston, Texas, Pasadena Independent School District and 
Houston Independent School District, who bought meat from your 
plant and were part of that recall. Now I have to admit why 
would a Texan buy meat from California but we will talk about 
that later. I do have some questions. One, in light of the 
videos that you saw was the recall justified especially 
considering the latency time for mad cow disease?
    Mr. Mendell. I think--I think the decision for the recall 
was made in a matter of 4 or 5 hours, if I am not mistaken. I 
think in my humble opinion that USDA could have contacted 
Alameda, our local area office, talked to the veterinarian in 
charge, talked to my area supervisor, and thought about this a 
little bit before the recall. We do have safeguards in place, 
sir, with specified risk material which are known to harbor the 
prion of Mad Cow. We do remove that from every beef that we 
slaughter. We are the--the USDA is currently trying to lift age 
limitations on beef going to Japan and Korea because of 
specified risk material removal. We have that same process in 
place.
    Do I feel it was enough of a safeguard? Yes, I do. That is 
why we have the program in process. That is why the USDA has it 
in process to move that specific risk material. So if a downer 
got into the system, that harmful part of that cow has been 
removed.
    Mr. Green. Let me ask you because again I haven't spent as 
much time maybe as you have but since the downer cows, the 
solution would be to put video out there and not just a 
supervisor overseeing those employees, how do you know that 
your program was carried through to remove that part of that 
cow?
    Mr. Mendell. It is documented inside the plant and audited 
as well, I see your point, it is audited as well inside the 
plant. I believe it is a lot easier to audit it inside than 
outside.
    Mr. Green. Well, I read your testimony and I know you had 
audits both inside and outside, but I also assume that the 
outside where those downer cows were taken in when they 
shouldn't have been that you had oversight and you had audits 
there?
    Mr. Mendell. Yes, we have.
    Mr. Green. OK. So that system failed, and I would be 
concerned about the latency period on mad cow disease, and I 
think that is the concern that the FDA--and we have learned now 
from the FDA that oftentimes they don't respond very quickly 
whether it be toy safety or other things--not toy safety, that 
is consumer product, but other issues. But let me ask another 
question. One of the pen workers who has been charged 
criminally in this case stated that he felt pressured to ensure 
that a certain number of cows were slaughtered each day. If he 
didn't meet that quota that management was angry. Is this true?
    Mr. Mendell. No. I mean we had a--we harvested 500 cattle a 
day. Yes, did he have to do his job, did he have to do it in a 
timely manner? Yes. I had pressure selling it too. Everybody 
that worked there, I mean, had pressure. Do I think it would be 
an excuse to inhumanely treat an animal? Absolutely not.
    Mr. Green. In 2005 USDA cited your company for non-
compliance for being overly aggressive and using electric prods 
to move cattle. What corrective actions did you take?
    Mr. Mendell. Well, we rewrote our programs immediately, 
retrained our employees immediately, and we also used a 
different kind of--yes, it is not--I think the recommendation 
by Temple Grandin, the authority on this, was 50 volts. We use 
6 volts, the battery packs. It is not--we used it excessively. 
I think we used it 8 percent more than we were supposed to, 8 
out of 100 cows more, if I am not mistaken. You are allowed to 
hit 25 of them. I think we did 33. I believe, if I remember 
correctly.
    Mr. Green. OK. So that was the 2005 incident?
    Mr. Mendell. Yes, sir.
    Mr. Green. Were there any other incidents of non-compliance 
from the USDA?
    Mr. Mendell. Not that I recall, sir, no.
    Mr. Green. I guess, having supervised employees and you had 
many more than I had to when I was in business, but I guess the 
supervisors are supposed to report--you can put video--videoing 
the employees, videoing the supervisors, but again it seems 
like somebody who was in management overseeing what was 
happening, and that should have been reported or maybe they 
were encouraged by the production too much because we see this 
in a lot of companies that are obviously in different types of 
businesses, and so I guess that is my concern about it. And the 
recall was maybe unjustified in your sense but I am not so sure 
any of those children in my district that consumed any of that 
meat if they did, 13 years from now or 10 years from now, you 
are not going to be around to deal with that so that is the 
concern that I think our whole committee and this Congress has 
on a bipartisan basis. Thank you, Mr. Chairman. I know I am out 
of time.
    Mr. Stupak. Thank you, Mr. Green. Ms. DeGette, for 
questions.
    Ms. DeGette. Thank you very much, Mr. Chairman. Mr. 
Mendell, you said in your testimony that in 2005 you had a 
violation for mishandling of animals, is that correct?
    Mr. Mendell. That is correct.
    Ms. DeGette. Did you recall any of your product at that 
time?
    Mr. Mendell. No, ma'am.
    Ms. DeGette. So what was the financial result for your 
company of that violation in 2005?
    Mr. Mendell. Financially, none.
    Ms. DeGette. Yes, there was none. Did you install video 
cameras after that violation in 2005?
    Mr. Mendell. No, I didn't.
    Ms. DeGette. No, you didn't. What other further steps did 
you take in 2005 to increase the surveillance over the handling 
of the animals?
    Mr. Mendell. I don't believe we increased surveillance. We 
rewrote our programs and retrained our employees and went on an 
aggressive monthly training program with all of our employees.
    Ms. DeGette. OK. And then after the recall in 2007, what 
was the financial impact on your company then? I am sorry, 
2008, this year.
    Mr. Mendell. It is devastated.
    Ms. DeGette. What is the price figure for devastated?
    Mr. Mendell. I couldn't imagine.
    Ms. DeGette. Hundreds of millions of dollars?
    Mr. Mendell. Yes, ma'am.
    Ms. DeGette. And after that, then you installed the video 
cameras, correct?
    Mr. Mendell. Yes, ma'am.
    Ms. DeGette. And how much did that cost you?
    Mr. Mendell. Oh, yes, I did do the video cameras before I 
knew there was going to be a recall. I am sorry.
    Ms. DeGette. When did you do the video cameras?
    Mr. Mendell. When we realized there was inhumane treatment.
    Ms. DeGette. Well, when was that? You learned, I think, 
according to your written testimony, you learned about the 
videotape in early February of this year, so when did you 
install the cameras?
    Mr. Mendell. I think we ordered them within the next 3 or 4 
days.
    Ms. DeGette. OK. And how long after you learned about the 
videotape did you hear from the U.S.--so at that time even 
though you knew about the videotape and the treatment of the 
animals, you did nothing, your company did nothing to 
voluntarily recall the beef, did you?
    Mr. Mendell. No.
    Ms. DeGette. In fact, it wasn't until you heard from the 
USDA about the second tape, and when they urged you to do a 
voluntary recall that you then complied with that voluntary 
recall, right?
    Mr. Mendell. That is correct.
    Ms. DeGette. So how long after learning of the first tape 
did you learn about the second?
    Mr. Mendell. I believe the second tape we didn't hear or 
see, and I haven't seen it until today. I don't think we heard 
about the second tape for about 10 days.
    Ms. DeGette. Ten days after the first tape?
    Mr. Mendell. Yes, ma'am.
    Ms. DeGette. And so what your testimony is that you ordered 
the video cameras after the first tape but before the second, 
correct?
    Mr. Mendell. Yes, ma'am. When we realized there was an 
inhumane issue, we thought it was the only way that we could 
resolve it, and we went ahead and installed them.
    Ms. DeGette. OK. Now, so have you ever recalled product 
before, sir?
    Mr. Mendell. No.
    Ms. DeGette. And have you ever been advised by the U.S.--so 
in 2005 you didn't recall any product, correct?
    Mr. Mendell. I am sorry?
    Ms. DeGette. In 2005 when you received the citation from 
the USDA for mishandling of animals, you did not recall any 
product, correct?
    Mr. Mendell. No, ma'am.
    Ms. DeGette. OK. Now I want to ask you of the downed cows 
that we have seen in the videotapes today which at least the 
committee believes entered the food supply, would a consumer 
going into a grocery store be able to know or a school serving 
this beef in a school lunch be able to know whether meat from 
that cow or from that lot of cows was in the meat that was 
being served in their facility?
    Mr. Mendell. Not that exact cow, no.
    Ms. DeGette. Would they be able to know about the cows from 
that lot whether they were in the meat that was being served?
    Mr. Mendell. Yes.
    Ms. DeGette. How would they know that?
    Mr. Mendell. They would know--we have a lotting system that 
every 60 cows is a lot.
    Ms. DeGette. So what happens after that lot then goes to be 
processed?
    Mr. Mendell. Well, it is documented. We can tell where that 
lot came from. We know whose cows are in that lot----
    Ms. DeGette. Well, you know which cows are in the lot when 
you send it to be processed, correct?
    Mr. Mendel. Yes.
    Ms. DeGette. And then what happens to that lot number after 
it is sent to be processed, say, into hamburger?
    Mr. Mendell. I believe we still maintain that lot. I think 
we can trace----
    Ms. DeGette. OK. But do you know whether that lot 
information is contained--because when they make hamburger, I 
am sure you know this, you are in the business, and I am just a 
congressperson, but when they send the lots of cows to the 
processors to be processed into hamburger they take meat from a 
number of different lots, correct?
    Mr. Mendell. No, those lots--well, yes.
    Ms. DeGette. Yes, they do.
    Mr. Mendell. Four or five lots mixed in that one----
    Ms. DeGette. Exactly.
    Mr. Mendell. Yes, exactly.
    Ms. DeGette. And there is no federal requirement right now 
that the numbers from those lots that are mixed into that 
hamburger be documented which lots went into that hamburger, 
did you know that?
    Mr. Mendell. Yes, I do know that.
    Ms. DeGette. So, therefore, when the person at the local 
elementary school or when the consumer at Safeway buys a 
package of ground beef they would have no idea whether the cows 
from the lot that were downed cows at your plant were contained 
in that package of hamburger, correct?
    Mr. Mendell. Correct.
    Ms. DeGette. And from what you are saying, you document 
which cows go into which lot, correct?
    Mr. Mendell. Correct.
    Ms. DeGette. And you document then which lots go to the 
processing facilities, correct?
    Mr. Mendell. Well, I have a processing--I make ground beef 
in-house.
    Ms. DeGette. OK.
    Mr. Mendell. The same building.
    Ms. DeGette. So you would have the ability then----
    Mr. Mendell. To trace back.
    Ms. DeGette. To trace back, correct?
    Mr. Mendell. Yes, ma'am.
    Ms. DeGette. And that would probably help you financially 
in your business because if some ground beef was discovered 
that had salmonella or E. coli or whatever it could be traced 
back to that particular lot and then you could figure out what 
happened and you could recall that amount, correct?
    Mr. Mendell. Yes, ma'am.
    Ms. DeGette. And that is probably easy to do within the 
industry, isn't it?
    Mr. Mendell. It is easy to do with a single source supplier 
like myself because I don't bring meat from the outside. It is 
all my beef. If it is a stand alone grinder, they might buy 
meat from 10 different people.
    Ms. DeGette. But they could still figure out those lots, 
couldn't they?
    Mr. Mendell. They could figure it out, and it would be a 
lot harder, yes.
    Ms. DeGette. OK. Thank you very much.
    Mr. Stupak. Mr. Burgess for questions, please. We have a 
vote on the floor. There is 12 minutes left. As far as I know, 
it is only a motion to adjourn. Mr. Shimkus and I are going to 
stay. We will skip that vote. We want to keep this hearing 
going.
    Mr. Burgess. What about the plane, where is it?
    Mr. Stupak. Now it is code green. I think they are sending 
up little drones or something.
    Mr. Burgess. Mr. Mendell, thank you for being here today. I 
know it hasn't been easy to do this. I certainly respect the 
fact that you could have declined to be here today or declined 
to testify but you willingly gave your testimony, and we on the 
committee are deeply appreciate of that. On the second tape 
which this morning I guess you saw for the first time, do you 
have any reason to believe that the USDA or the Humane Society 
didn't share that tape with you? Do you feel you had the 
availability to view all of the tapes beforehand that were 
collected in evidence?
    Mr. Mendell. No, I don't.
    Mr. Burgess. Why wouldn't you have? Why would that have not 
been made available to you by the USDA?
    Mr. Mendell. I don't know. I asked them for it the night 
that they suggested the recall, and they said we will see what 
we can do about getting you the tape. I have yet to get it.
    Mr. Burgess. Now the recall, according to testimony we are 
going to get a little bit later, that was February 4, is that 
right, so some time much earlier in the month?
    Mr. Mendell. Yes, sir. I can't really remember.
    Mr. Burgess. Well, obviously this story hit the press wires 
and you became aware of it before that time. Were you aware of 
how animals were--if animals were mistreated in the process of 
going through the line there at the slaughterhouse?
    Mr. Mendell. At my plant?
    Mr. Burgess. Yes, sir.
    Mr. Mendell. No, sir.
    Mr. Burgess. Do you ever go out and watch the process 
yourself?
    Mr. Mendell. Occasionally. Not very often.
    Mr. Burgess. Do you think other CEOs at other packing 
plants would frequent the yards where this activity is taking 
place?
    Mr. Mendell. I doubt it.
    Mr. Burgess. I do too. Now I think in response to a 
previous question, some of the blatant violations were missed 
by 17 outside audits. Was your company aware of when audits 
would take place? Did you have any special preparation to be 
able to get through those audits?
    Mr. Mendell. I think we were occasionally notified and 
occasionally not. I couldn't tell you exactly. It really wasn't 
something I dealt with but----
    Mr. Burgess. Because it had never been a problem?
    Mr. Mendell. I don't think--no. I think USDA audits are 
sometimes announced, sometimes not announced, depending on 
where they want to go, what they want to--they might go to 
outside storage. They might want to--so they might call to 
arrange that.
    Mr. Burgess. On the subject of the violations that 
occurred, and you said they were blatant violations and not 
part of the company policy, I couldn't help but notice on the 
little bit of tape that we heard today the fact that I guess 
there might have been a language barrier. Were efforts made so 
that employee training was given in an appropriate language so 
that there would be no question about everyone understanding 
what their roles and duties were?
    Mr. Mendell. Yes, sir. We had bilingual supervisors.
    Mr. Burgess. Prior to this story breaking in February, and 
prior to the activity of this committee, at any point did you 
think there was a threat to public health at your plant?
    Mr. Mendell. No, I didn't, sir, not as evidenced by these 
audits and the amount of testing we were doing, no.
    Mr. Burgess. Do you think it was within your power as 
president of your company to prevent these activities from 
occurring?
    Mr. Mendell. The inhumane treatment?
    Mr. Burgess. Yes.
    Mr. Mendell. Yes, I think it should have. I think it was an 
oversight by me. Did I think I needed to with the training that 
I had in place? No. In hindsight, I wish I would have had 
cameras out there.
    Mr. Burgess. So your company cameras have now been placed 
were actually after the fact?
    Mr. Mendell. After the fact, sir.
    Mr. Burgess. Just one other observation that came up during 
earlier testimony when you weren't here in the previous hearing 
that there was some delay between the time that the Humane 
Society made the tapes available to the district attorney and 
the time that they then went public with their information and 
some concern on my part, and I think some other members had 
some concern about that delay that allowed more product to go 
into the stream of commerce. Had you been aware of those videos 
much earlier when they were made in October, early November, 
would that have diverted this material from the stream of 
commerce?
    Mr. Mendell. Would it have diverted----
    Mr. Burgess. Would it have prevented the potentially 
defective product from entering into the lunch menu?
    Mr. Mendell. Absolutely. If I knew that that was going on 
and we--I mean I couldn't believe that it actually was until I 
saw the videos. I would have put the cameras in--I would have 
put the cameras in immediately. Yes. Yes, I think it would have 
diverted the whole thing.
    Mr. Burgess. So the delay for whatever reason, whether it 
was the DA telling the Humane Society not to go public, for 
whatever reason the delay then compounded the problem?
    Mr. Mendell. Yes, sir.
    Mr. Burgess. Thank you, Mr. Chairman. I will yield back.
    Mr. Stupak. Thank you, Mr. Burgess. Ms. Schakowsky for 
questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman. I am very 
concerned because Chicago public schools were among those that 
received the meat. I represent a good part of the city of 
Chicago. I am also concerned about your testimony which I think 
I understand now essentially you revised your testimony where 
you say that there was not a food safety issue, that they were 
not slaughtered, ground or sold. That is not correct based on 
what you have seen, is it?
    Mr. Mendell. On the videos that I have seen, no. They 
weren't processed on the videos that I had seen. The two I saw 
today, they did go in the plant.
    Ms. Schakowsky. What I am trying to understand is how you 
want to--you were so certain in your testimony having said that 
you yourself had not done any individual inspections. When you 
wrote this testimony you seemed absolutely certain that they 
were not slaughtered, ground or sold, that they were euthanized 
and removed, that there was not a food safety issue. How could 
you have felt so certain about that?
    Mr. Mendell. Based on the videos I have seen--that I saw, I 
did not think those cows went into the food supply, and I still 
say today that with our specified risk removal materials that 
is why it is a stage 2 recall with a remote possibility for 
health concern. They said that they played with a stage 3 
recall was USDA's words, which I don't really know what the 
definition of that is. I know that the product has been fully 
tested and it has gone through every rigorous test that USDA 
had inside that plant. I think there is less than a minute 
chance of that product being contaminated.
    Ms. Schakowsky. Would you say unequivocally under oath on 
the record then that there has not been in the past--now, aside 
from those cows that were on the video--that your plant has not 
had any food safety issue?
    Mr. Mendell. Not that I have ever been aware of, ma'am.
    Ms. Schakowsky. Well, that is what I am concerned about. 
You say this is not the company I know. That is what you said 
in your testimony.
    Mr. Mendell. No, ma'am, it isn't.
    Ms. Schakowsky. But what I question is, is this a company 
that you know? And I want to ask a question about the training. 
You said according to your testimony ``the two fired employees 
as well as the Humane Society employee have participated in 
extensive training and retraining.'' However, according to the 
Wall Street Journal the Humane Society employee told the Chino 
police that he ``had received no formal training.'' According 
to the article, on his first day the Humane Society employee 
reported to Pablo Salas, a manager who told the new employee 
not to be cruel to animals, but Mr. Salas only came outside to 
the pens 15 to 20 minutes a day. It was also reported that Mr. 
Salas put intense pressure on the pen managers to meet a quota 
of 500 pounds per day. So I want to know what your definition 
of extensive training and retraining is and why there was--or 
is there, I understand there is no certification process to 
confirm that employees had been trained, and how can you argue 
that your compliance audits worked when it is so clear that 
they failed?
    Mr. Mendell. OK. The training--I have two training 
documents here from Sean Thomas, which was the Humane Society 
employee. One is dated 10/8 and one is dated 11/12. He worked 
there 6 weeks. He had orientation. He had gone through the 
training process twice, and I have his signature here stating 
that he did so.
    Mr. Stupak. Mr. Mendell, are you going to offer those as 
exhibits? Are you going to offer those?
    Mr. Mendell. Yes.
    Mr. Stupak. OK. Kyle, can we get someone to make copies so 
we have them. You can go ahead, Ms. Schakowsky.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. And I appreciate copies of the documents. 
So you are saying that that statement was inaccurate and false 
that he was not trained?
    Mr. Mendell. He was trained, ma'am.
    Ms. Schakowsky. You have documents that say he was?
    Mr. Mendell. Yes, ma'am.
    Ms. Schakowsky. OK, and that you are going to present. Let 
me ask one more question. According to their testimony on the 
Humane Society employee's first day on the job he saw a cow 
collapse on the way into the stunning box, and after she was 
electrically shocked and still could not stand, she was shot in 
the head with a captive bolt gun and then dragged on her knees 
into slaughter. I want to know, would you consume meat from a 
cow that was slaughtered in this manner?
    Mr. Mendell. No. It is against USDA regulation. Do we have 
video of that one or was that a statement he made? He made a 
statement that he didn't get training too, and we have 
documentation of that.
    Ms. Schakowsky. Assuming that it all jives together, that 
in fact when he signed that that he actually did go through 
that training. I understand. You say you have documentation. My 
concern is that you refer to audits, you refer to policies, you 
refer to documents, and yet in just over a month of someone 
taking videotape the experience on the ground there was quite 
different from what you said. And I understand, you say you 
regret now that there weren't cameras. I think what we are 
concerned about is the discrepancy between things that are on 
paper, statements that are part of your policy, but that in 
reality we are seeing something very different and it is our 
job to try and figure out how to jive those two together. Thank 
you.
    Mr. Stupak. Thank you. We will continue with questions, 
another round. Mr. Mendell, Mr. Burgess asked you about the 
Humane Society, and without the work of the Humane Society we 
never would have known what went on in those days, correct, in 
November there with the downer cows being put in--without their 
work, we never would----
    Mr. Mendell. Without the tape, would I have known? No.
    Mr. Stupak. Anyone, no one would have known?
    Mr. Mendell. No, sir.
    Mr. Stupak. You indicated in your statement that you would 
have terminated these employees immediately. In your employee 
handbook if they put a downer cow into the kill box or a knock 
box as you call it, does your discipline--is it very clear you 
are terminated?
    Mr. Mendell. They would have been terminated immediately 
for that too.
    Mr. Stupak. Is that in writing in your company policy?
    Mr. Mendell. Yes, sir. I don't think we have it with us, 
but I can gladly get the committee a copy. It is very clear, 
let us put it that way.
    Mr. Stupak. Mr. Burgess asked you about the health risk, 
and the safest way to protect Americans is just not put a 
downer cow into the human food chain, right? That is the safest 
way?
    Mr. Mendell. Yes.
    Mr. Stupak. You indicated that about the recall that you 
had 4 or 5 hours, you indicated earlier in testimony you might 
have seen 50 different videos, but yet the video we have seen 
today you hadn't seen those. Those were in the public domain a 
month before the--I shouldn't say that, a couple weeks before 
the February 26 hearing, and here we are, March 11, 12, so they 
have been out there for about a month.
    Mr. Stupak. Would there have been anything that would have 
prevented you from going online to look at these videos? You 
are the only one in America who hasn't seen it.
    Mr. Mendell. Maybe not. Maybe there wasn't anything that 
prevented me but I was in a crisis mode at that time. There 
were a million things going on with USDA. We were all being 
interviewed by USDA.
    Mr. Stupak. All right, but this is--the first video is 5 
minutes. The other one we showed you is 1 minute. Six minutes. 
These videos were the accusations against your company. I would 
think you would want to say, man, what are they saying or what 
are they doing?
    Mr. Mendell. Well, I never saw the narrated video like 
that, not one time. I have never seen it. Like I said, I have 
seen----
    Mr. Stupak. I just find it amazing you would never look at 
it, that is all.
    Mr. Hutchinson. Mr. Chairman.
    Mr. Stupak. Yes.
    Mr. Hutchinson. May I just add perhaps as counsel, I was 
not aware that the last video----
    Mr. Stupak. You can't testify though, remember?
    Mr. Hutchinson. I don't mean to testify. I am just saying 
we are not aware----
    Mr. Stupak. It is called testimony though. OK. Tell Mr. 
Mendell and Mr. Mendell can relay your answer. Let me ask you 
this. You said it was a stage 3 recall, I think you said, and 
you said you didn't know what stage 3 was.
    Mr. Mendell. I didn't know the definition of a stage 3.
    Mr. Stupak. OK. Do you know what it is today?
    Mr. Mendell. No, sir.
    Mr. Stupak. That is the possible highest risk. That is why 
it is stage 3. That is my understanding. Let me ask you this. 
What did they say if you--that they would make you do the 
recall. You said you had 4 to 5 hours. You had never seen the 
video. They said they had more video. You said you didn't see 
it. What convinced you then to go along with the recall or was 
this a mandated recall by USDA that you had no choice?
    Mr. Mendell. Well, it is not mandatory, sir.
    Mr. Stupak. Right.
    Mr. Mendell. In 10 days it would be. That is what they told 
me the next morning. We consulted----
    Mr. Stupak. Didn't you ask them what is the basis of you 
forcing me, USDA, why are you forcing my company to go under 
recall if there is no risk and you have never seen downer cows 
go into the food supply?
    Mr. Mendell. We did ask them. They said it was based on a 
video, based on testimony of an employee. We asked who the 
employee is. They said they couldn't tell us. We asked for a 
copy of the video. They said they would see what they could do 
about getting it to us. That they thought there was enough 
evidence to----
    Mr. Stupak. And if this video and what they represented to 
you was going to devastate your company, as it has, as you have 
indicated----
    Mr. Mendell. Yes.
    Mr. Stupak [continuing]. And you had a 10-day window 
period, why wouldn't you just wait to see the video to make 
sure that they are not blowing smoke?
    Mr. Mendell. Would you think USDA would do that, sir, in 
this kind of an arena?
    Mr. Stupak. Well, from where I sit, absolutely. Your whole 
future, your whole----
    Mr. Mendell. Yes, my whole life up in smoke.
    Mr. Stupak. It just seems to me and some of us up here, 
there has to be something more there. I guess we are trying--is 
there something more? Are we missing something? You didn't see 
a video? You didn't go online? You didn't take time to even see 
the video and, say, at least present the video before I make a 
decision?
    Mr. Mendell. I had seen clips of the video, sir. I was 
called at 9:00 or 10:00 at night when this recall committee--
9:00 or 10:00 west coast time.
    Mr. Stupak. OK.
    Mr. Mendell. They acted like I didn't have a choice, and I 
don't think I did. They said they would have sanctions in 10 
days. It would be an involuntary recall and it would be worse.
    Mr. Stupak. How about then after you made your recall 
before you come to testify here, why wouldn't you have watched 
the videos then that were online to get prepared for testimony?
    Mr. Mendell. I had seen enough to be--I was regrettable 
enough with the videos that I had seen on the inhumane 
handling. I knew what the issue was.
    Mr. Stupak. Let me ask you this because it is part of our 
hearing. Does your company use carbon monoxide in your 
packaging of meat?
    Mr. Mendell. No.
    Mr. Stupak. Has your company ever used irradiation?
    Mr. Mendell. One more time?
    Mr. Stupak. Irradiation, have you used it?
    Mr. Mendell. Do I know about it?
    Mr. Stupak. No. Have you used it in your----
    Mr. Mendell. No, I haven't. We were about to. We never did.
    Mr. Stupak. Can a school district receive a refund? A 
number of the members mentioned refunds. They had to throw out 
their meat. Can they receive a refund from your company? I have 
probably about 20 school districts in my district.
    Mr. Mendell. I am not sure if that is going to be possible.
    Mr. Stupak. OK. In the Silliker report, this is one of 
these audit reports you want to put in there, on page 2 of the 
Silliker report it says animal welfare audit, beef. The video 
indicated that the inspections took place at 6:30 in the 
morning and 12:30 p.m. Do you remember that?
    Mr. Mendell. No.
    Mr. Stupak. OK. The narrative part of the first video.
    Mr. Mendell. 6:30 a.m. and 12?
    Mr. Stupak. Right. The video in the narrative said they 
started the inspections at 6:30 every morning. 6:30 was the 
inspection, and the next one was 12:30.
    Mr. Mendell. That was for antemortem inspections, yes, sir.
    Mr. Stupak. Right. But here your audit only takes place 
between 8:00 a.m. and noon.
    Mr. Mendell. OK.
    Mr. Stupak. So when the animals were going by for this 
inspection to see if you have downer cows this audit, they 
weren't present?
    Mr. Mendell. Who wasn't present?
    Mr. Stupak. This audit, the animal welfare audit of beef by 
Silliker, this audit you paid for.
    Mr. Mendell. Right.
    Mr. Stupak. The critical part of this testimony, or, I am 
sorry, of this hearing, is the downer cows having to move from 
here to there.
    Mr. Mendell. Right.
    Mr. Stupak. That occurs between 6:30 in the morning and 
again at 12:30 in the afternoon. According to this audit that 
you are relying upon to show your good practices they are only 
present between 8:00 and 12:00. They missed the critical phase 
we are talking about.
    Mr. Mendell. Is that what time those animals got moved?
    Mr. Stupak. It is right here.
    Mr. Mendell. That is what time the USDA went outside.
    Mr. Stupak. I am going off the audio of the video.
    Mr. Mendell. OK.
    Mr. Stupak. So what I am saying is if you are relying on 
this audit, the key times we are looking for your auditors 
weren't present?
    Mr. Mendell. Yes, obviously.
    Mr. Stupak. OK. And the other one didn't have times when 
they were present, just they were there November 13, 14.
    Mr. Mendell. It is just saying it is in that 8:00 to 12:00 
period.
    Mr. Stupak. Let me ask you this question. I indicated 
earlier that in both 2003 and 2004 you went after, or I 
shouldn't say after, you contracted for the national school 
lunch program. And in there because of the school lunch program 
there is greater scrutiny of your operation, is that correct?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. So the risk of downer cows becomes more 
critical, correct?
    Mr. Mendell. Absolutely.
    Mr. Stupak. And the Wall Street Journal article I am 
reading says that the plants that slaughter animals are the 
major buyer of older, spent dairy cows from many dairy farms in 
the inland valley, is that correct?
    Mr. Mendell. That is correct.
    Mr. Stupak. Do you also buy cows from a 15-state area?
    Mr. Mendell. Fifteen?
    Mr. Stupak. Yes.
    Mr. Mendell. No. Probably six.
    Mr. Stupak. Six-state area. OK. I think that has been 
covered. What happened to Mr. Salas? Another worker told police 
Mr. Salas only came outside and he couldn't be reached for 
comment.
    Mr. Mendell. When this incident occurred, we suspended 
Pablo Salas until we reviewed all the documents that he had in 
place, and reinstated him to provide them all for USDA because 
I felt he did--he was doing his job. I wanted to make sure that 
all the paperwork was in order, that this gentleman did go 
through orientation and two training periods in a 6-week time, 
as well as documentation of backup for the rest of the people 
that worked there.
    Mr. Stupak. Are you ready for the next question?
    Mr. Mendell. Yes, sir.
    Mr. Stupak. I had asked you earlier about class 3, and I 
thought it was the serious adverse health. That is not true. 
Class 1 is adverse health. Class 2 is serious adverse health. 
Class 3 is likely to cause adverse health consequences--not 
likely to cause adverse health. I am going to put this as part 
of the record so we have it for the record in case any other 
member wishes to refer to it during their questions. Last 
question, these two audits, you had these audits, the two you 
have submitted as part of your testimony, do you know when 
auditors are coming, like this Silliker?
    Mr. Mendell. I personally don't but I am sure----
    Mr. Stupak. Do they make arrangements with the company to 
come out?
    Mr. Mendell. I am sure these audits were scheduled. Yes, I 
am sure they were.
    Mr. Stupak. I have no further questions for this witness. 
Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Mendell, in your 
opening, your testimony, you testified receiving death threats, 
is that correct?
    Mr. Mendell. Yes, I did.
    Mr. Shimkus. And death threats at home, folks calling at 
home?
    Mr. Mendell. Yes.
    Mr. Shimkus. I just put that in the record to--I think a 
lot of us have been under crises modes. We have to put some 
stuff in perspective as far as shutting down the plant, putting 
a lot of people out of employment, going through the processes. 
Actually to some extent I am surprised and encouraged that you 
are here testifying today. When I was a county treasurer, I 
conducted the principle of management by walking around, brief 
familiar. Dr. Burgess kind of talked about that a little bit. 
You said you walked around occasionally. What is occasionally?
    Mr. Mendell. Obviously not as much as I should but I was--
my work was administrative mostly, sales, banking, collecting 
money, whatever. I was in the plant a lot more than I was out, 
outside of it.
    Mr. Shimkus. Yes, let me just follow up. If you were not 
out inspecting, who was? Did you trust him to inform you of any 
inhumane treatment being committed outside in the pens?
    Mr. Mendell. Yes, I trusted the personnel that were out 
there along with the training that we had given them, yes.
    Mr. Shimkus. Did you trust them and the other employees to 
alert you to any actions that would pose a threat to public 
health?
    Mr. Mendell. Yes.
    Mr. Shimkus. Had anyone ever alerted you to these kind of 
actions before?
    Mr. Mendell. Never.
    Mr. Shimkus. I want to follow up on this 500 cow issue. 
This came up in a first hearing, and the question that was 
posed, and we didn't have the ability to get answers, is the 
incentive for pushing to the 500 limit, what extraordinary 
actions would the employees go to to reach 500? Was there a 
financial incentive, and can you answer those questions? How 
are these folks paid? Are they paid hourly or are they paid by 
the process? You understand where the question----
    Mr. Mendell. Yes. I believe most of the people there are 
paid by the hour. The supervisors are on salary. 500 a day was 
the optimum number for that plant based on economics, based on 
weight divided into fixed expenses.
    Mr. Shimkus. So there was no additional payment per cattle 
processed through a financial incentive to the employee----
    Mr. Mendell. No.
    Mr. Shimkus [continuing]. To push product through that they 
may have believed was unsafe just for the financial aspect.
    Mr. Mendel. There were days we killed 493 and days we 
killed 510.
    Mr. Shimkus. And the last line for me is this whole spent 
dairy cattle issue.
    Mr. Mendell. Yes, sir.
    Mr. Shimkus. And it was raised also in the previous 
hearing, spent dairy cows or spent dairy cattle. They are at 
the end. And that is why they go to different processes other 
than others. I think by definition they are a cheaper meat 
because they are not beef cattle. They are spent dairy cattle. 
So that has additional challenges in the processing of these 
then healthy cattle that are going through the processes. Is 
that a correct assumption?
    Mr. Mendell. I think a lot more dairy cows get condemned 
per day than say in that steer plant, yes.
    Mr. Shimkus. So in this business model there is a larger 
risk of purchasing spent dairy cattle, can I make that 
assumption?
    Mr. Mendell. There are more condemned. There is more of a 
condemn rate, yes.
    Mr. Shimkus. That is the end of my questioning. Thank you, 
Mr. Chairman.
    Mr. Stupak. We have 11 minutes left on the floor, but 
before we continue with questions let me just--one of these 
documents you gave us, Westland/Hallmark Meat Company by Sean 
Thomas, saying that he signed or had training. It says trade 
secret. Do you want that in the record or not?
    Mr. Mendell. Yes.
    Mr. Stupak. OK. Ms. DeGette.
    Ms. DeGette. Thank you very much, Mr. Chairman. And I want 
to add my thanks, Mr. Mendell, for you coming today and giving 
the best and most honest answers that you could. I know that it 
is not an easy task. But as the consumer protection 
subcommittee develops our legislation around meat safety having 
this testimony from someone whose plant really had a terrible 
problem really helps us develop this legislation. Mr. Burgess 
asked you if you would have taken quicker action if the Humane 
Society would have given you the videotape at the time they 
gave it to the prosecutors, correct, and you said, yes, you 
would have taken quicker action?
    Mr. Mendell. Yes, I probably would have.
    Ms. DeGette. And then Ms. Schakowsky asked you about the 
whole sequence of events with the USDA, and you stressed to Ms. 
Schakowsky that in your company's opinion there was really no 
danger to this meat, correct?
    Mr. Mendell. To the best of my knowledge, I thought there 
wasn't, no.
    Ms. DeGette. Right. And so here is my question. What would 
you have done--you didn't recall the beef until the USDA told 
you to recall the beef, right?
    Mr. Mendell. Correct.
    Ms. DeGette. And that was about 10 days, according to your 
testimony, after you learned about the Humane Society 
videotape, right?
    Mr. Mendell. Correct.
    Ms. DeGette. So my question is if you would have learned 
about it right away, what is it that you would have done 
differently, install the cameras?
    Mr. Mendell. Yes, I would have.
    Ms. DeGette. Would you have done anything else? Would you 
have recalled the meat?
    Mr. Mendell. Not--no.
    Ms. DeGette. No, because you didn't recall the meat until 
10 days after you learned about the video.
    Mr. Mendell. The first video that we received it was 
inhumane treatment of animals. That is what I was acting on.
    Ms. DeGette. So what would you----
    Mr. Mendell. Till the last----
    Ms. DeGette. So you would have tried to have more humane 
treatment of the animals but you wouldn't have done anything 
about the downed cattle?
    Mr. Mendell. I didn't know about the downed cows until 
later.
    Ms. DeGette. When did you know about the downed cows?
    Mr. Mendell. That is the tapes that the Humane Society 
held, the ones with the downed cows.
    Ms. DeGette. Right. But you didn't--so when you received 
those tapes you weren't told until 10 days later by the USDA to 
recall the beef, right?
    Mr. Mendell. I have never seen the downed cows going in the 
knocking box tapes until today.
    Ms. DeGette [continuing]. Oh, OK.
    Mr. Mendell. So I acted on animal----
    Ms. DeGette. So your view was that seeing those downed cows 
on the videotapes that you received from the Humane Society, 
the only concern you had was the humane treatment concern, 
right?
    Mr. Mendell. That was my concern, ma'am.
    Ms. DeGette. And so really you would have never recalled 
this beef until you were told to by the USDA, right?
    Mr. Mendell. If I hadn't seen those videos there would have 
been no reason for it.
    Ms. DeGette. But you did see the videos and you still 
didn't think it was anything bigger than the--and there were 
downed cows in those videos but you didn't think it was a 
problem because you didn't see on the videos that they went 
into the processing----
    Mr. Mendell. I reacted to the inhumane treatment of animals 
until----
    Ms. DeGette. OK. You can answer my question. You thought it 
was an issue of inhumane treatment but you didn't think there 
was any kind of food risk because on the tapes you didn't see 
those going into the processing stream?
    Mr. Mendell. That is correct.
    Ms. DeGette. Thank you. So, Mr. Chairman, I guess that my 
conclusion from this line of testimony is that we really need 
to--most consumers in this country think that we have mandatory 
recall. The FDA does not have mandatory recall authority and 
the USDA recall authority is very long and involved. It is not 
an immediate mandatory recall authority. And this is what 
Congresswoman DeLauro had been working in our bill because what 
you get is you get people who even if they see the visual 
evidence that there are downed cows if they don't see the 
actual evidence that it goes into the food stream then they 
have got a business incentive not to voluntarily recall that 
meat, and so I think two things. Number 1, if you had mandatory 
recall authority by the USDA and the FDA, it would be more of 
an incentive on business owners to make that next leap to say 
if I see the downed cows there marching towards the processing, 
I am going to assume that those downed cows may go into the 
food stream, and I am going to take voluntary action. And the 
second thing is it would give the USDA an ability to actually 
take mandatory recall authority when the health of our citizens 
is at risk. And I yield back.
    Mr. Stupak. Thank you. Mandatory recalls in the Dingell, 
Pallone, Stupak bill too. Jan, go ahead for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to ask you, 
Mr. Mendell, how would you describe the training program?
    Mr. Mendell. The what program?
    Ms. Schakowsky. The training program.
    Mr. Mendell. I think it is--it is pretty intense.
    Ms. Schakowsky. Could you elaborate?
    Mr. Mendell. I don't have it with me. I can have copies 
sent to you. I will gladly have copies sent to you or to the 
committee.
    Ms. Schakowsky. Could you give us some sense of how long it 
is or is it hours, is it days?
    Mr. Mendell. I believe it is 50, 60 pages maybe.
    Ms. Schakowsky. The manual, but the program itself, the 
training program that----
    Mr. Mendell. Yes. The training program itself that they go 
through on a monthly basis I believe is 50 to 60 pages, if I am 
not mistaken. It takes an hour, hour and a half probably to go 
through it.
    Ms. Schakowsky. And you prepared to say under oath that 
everyone who signed a paper like this actually went through 
that training program?
    Mr. Mendell. Yes, ma'am.
    Ms. Schakowsky. And if we were to call on your employees, 
some employees, do you believe that every single one of them 
would say that before signing this paper that they actually 
went through that training program?
    Mr. Mendell. It is depending on management to put them 
through that training program, but as far as I am concerned, 
yes, everyone of them has gone through.
    Ms. Schakowsky. And so everyone that we might call or 
subpoena or whatever to come in, you feel confident that all of 
them would have gone through that program?
    Mr. Mendell. I feel confident that middle management has 
put every one of those employees through training.
    Ms. Schakowsky. Now I am looking through your attachments, 
quality management system, the QMSC committee members, and I 
notice, for example, that on that committee is Pablo Salas, the 
plant manager, and the Humane Society person said that he spent 
about 15 to 20 minutes a day actually by the pens. I wanted to 
ask you who among those on the quality management system 
actually were there.
    Mr. Mendell. Was the supervisor, Daniel Agardi was his 
name.
    Ms. Schakowsky. I don't see him on the--he is not a member 
of that committee or is he because I am looking at----
    Mr. Mendell. I am not certain what you are looking at but 
he was the pen foreman.
    Ms. Schakowsky. OK. And is that person there full time?
    Mr. Mendell. Yes, ma'am.
    Ms. Schakowsky. I see. So is anybody who is on the quality 
management system, your name is on there, Pablo Salas, Tony 
Cuevas, Gustavo Manzo, Martin Laguna, Henry Wong, Martin 
Gonzalez, Tony Gonzalez, Tony Padilla, and Steve Sayer, are any 
of those people who are on the quality management system 
committee there to observe what goes on day-to-day?
    Mr. Mendell. I am sure they interact on a daily basis or 
bi-daily basis or intermittently, yes.
    Ms. Schakowsky. Intermittently, but are any of those people 
who are on that--because it says in the event of an audit the 
QMSC would meet to evaluate plant's conditions and practices, 
so one would assume that people that are assigned to that 
committee would have some sort of responsibility assigned to 
them to actually check out conditions. Do they have as part of 
their job description any prescribed times or assignments to 
observe this?
    Mr. Mendell. I know that Steve Sayer has done the in-plant 
audits, which included humane handling. I know that he does it. 
I know that Stan Mendell does it.
    Ms. Schakowsky. And so that means that he has to be on 
the--he has to be there to see it?
    Mr. Mendell. Well, Daniel Agardi could be off that list. I 
am not sure. He doesn't work there anymore.
    Ms. Schakowsky. All right. Thank you. We have a vote. And I 
appreciate your testimony.
    Mr. Stupak. We have a minute and 30 seconds left to get to 
vote. We are probably going to have 2 votes. We are going to 
stand in recess. And, Mr. Mendell, we are going to let you go. 
I think there are no other questions. And we will call our 
second panel as soon as we come back. You are free to go. We 
are going to probably be 20 minutes, I would think. It depends 
on how many parliamentarian inquiries we have. You are free to 
go. We will start the second panel as soon as we get back.
    [Recess.]
    Mr. Stupak. We will resume. I will now call our second 
panel of witnesses to come forward. On our second panel we have 
Danielle Lachman, Divisional Merchandise Manager of Target 
Corporation, Mr. Daniel Wegman, Chief Operating Officer of 
Wegmans Food Markets, Inc., Mr. Dennis Olson, Professor at Iowa 
State University's College of Agriculture and Life Sciences. As 
you know, it is the policy of this committee to take all 
testimony under oath. Please be advised that witnesses have the 
right under rules of the House to be advised by counsel during 
their testimony. It looks like we are missing Mr. Wegman. I am 
sure he will be here in a second. We will hold a second, then 
we will do the oath, and we will get going. Do any of you wish 
to be represented by counsel? OK. We got you in the middle, Mr. 
Wegman.
    [Witnesses sworn.]
    Mr. Stupak. Let the witnesses reflect all the witnesses 
answered in the affirmative. They are now under oath, which 
includes the opening statement. We will begin. Let us start 
with Ms. Lachman, if you want to start, please. Turn your mike 
on there. Five minutes for an opening statement. You may wish 
to submit a longer statement for inclusion in the record. We 
look forward to your testimony. Please begin.

STATEMENT OF DANIELLE LACHMAN, DIVISIONAL MERCHANDISE MANAGER, 
                       TARGET CORPORATION

    Ms. Lachman. Thank you. Chairman Stupak, Ranking Member 
Shimkus, and other members of the subcommittee, good afternoon. 
My name is Danielle Lachman. I am pleased to be here today on 
behalf of Target Corporation. I am currently a Divisional 
Merchandise Manager for Target's Super Target grocery store 
operations. I have been in my current position since September, 
2007, and with Target since 2003. As a Divisional Merchandise 
Manager for Super Target, I oversee the produce, meat, deli, 
and bakery departments. The merchant teams in these departments 
assess available products, select and buy the right assortment 
of products, and develop a Target-brand presentation for our 
guests in the store.
    The subcommittee has invited me here to relate Target's 
recent interactions on labeling with the Food Safety and 
Inspection Service of the USDA, as well as with suppliers of 
certain of Target's fresh meat products. On September 13, 2007, 
Target received a request letter from Chairman Dingell and 
Stupak seeking information regarding fresh meat products and 
methods employed to ensure freshness. In particular, the 
subcommittee sought information regarding the modified 
atmosphere packaging used by some of Target's fresh meat 
suppliers. Target responded to all of the subcommittee's 
questions by letter dated October 4, 2007. Target also provided 
documentation as requested.
    In addition, on November 9, 2007, in an effort to fully 
address the subcommittee's concerns regarding the labeling of 
products employing MAP technology, Target wrote to the 
Administrator of FSIS seeking direction regarding how to obtain 
approval for additional labeling on meat products using MAP. 
FSIS responded to Target on January 16, 2008. In its response, 
FSIS indicated that it was not possible for FSIS to provide 
direction to Target or approval of the proposed labeling 
language without additional information and documentation. Much 
of that documentation and information is not in the possession 
or control of Target as a retailer. Target has had no further 
contact with FSIS.
    In addition to working with the subcommittee and contacting 
FSIS, Target has also reached out to its suppliers. After 
receiving the FSIS letter of January 16, 2008, Target asked its 
primary provider, Precept, a joint venture between Cargill and 
Hormel, if it would include the language in Target's letter to 
FSIS on its packaging. Precept informed Target that it had 
already submitted an application with different language to 
FSIS, which had been approved by FSIS. Target understands that 
Precept will begin employing the FSIS-approved labeling as 
early as the end of March. We understand that the new packaging 
will include the following language: ``Color is not an 
indicator of freshness. Refer to use or freeze by'' and then 
the date.
    In addition, Target understands that Precept and Hormel 
have been actively working with a consumer group to develop 
additional labeling language. We understand the joint effort is 
aimed at ensuring that this consumer group is supportive of any 
additional labeling regarding the use of MAP technology. The 
fresh meat products sold at Super Target comply with all 
applicable labeling standards. Target is committed to ensuring 
that all food products sold at Super Target will comply with 
any new labeling requirements as well. We will only buy from 
suppliers that provide assurances that they will comply with 
all applicable laws and standards. Thank you for the 
opportunity to discuss these issues with you. I would be 
pleased to answer any of your questions.
    Mr. Stupak. Thank you, Ms. Lachman. Mr. Wegman, please, 
your statement, please, sir.
    [The prepared statement of Ms. Lachman follows:]

                     Statement of Danielle Lachman

    Chairman Stupak, ranking Member Shimkus and other Members 
of the Subcommittee, Good morning. My name is Danielle Lachman. 
I am pleased to be here today on behalf of Target Corporation.
    I am currently a Divisional Merchandise Manager for 
Target's SuperTarget grocery store operations. I have been in 
my current position since September, 2007 and with Target since 
2003. As a Divisional Merchandise Manager for SuperTarget, I 
oversee the produce, meat, deli and bakery departments. The 
merchant teams in these departments assess available products, 
select and buy the right assortment of products, and develop a 
Target-brand presentation for our guests in the store.

 Interaction with the Oversight and Investigation Subcommittee and FSIS

    The Subcommittee has invited me here to relate Target's 
recent interactions on labeling with the Food Safety and 
Inspection Service (``FSIS'') of the U.S. Department of 
Agriculture (``USDA'') as well as with suppliers of certain of 
Target's fresh meat products.
    On September 13, 2007, Target received a request letter 
from Chairmen Dingell and Stupak seeking information regarding 
fresh meat products and methods employed to ensure freshness. 
In particular, the Subcommittee sought information regarding 
the modified atmosphere packaging (``MAP'') used by some of 
Target's fresh meat suppliers.
    Target responded to all of the Subcommittee's questions by 
letter dated October 4, 2007. Target also provided 
documentation as requested.
    In addition, on November 9, 2007, in an effort to fully 
address the Subcommittee's concerns regarding the labeling of 
products employing MAP technology, Target wrote to the 
Administrator of FSIS seeking direction regarding how to obtain 
approval for additional labeling on meat products using MAP.
    FSIS responded to Target on January 16, 2008. In its 
response, FSIS indicated that it was not possible for FSIS to 
provide direction to Target or approval of the proposed 
labeling language without additional information and 
documentation. Much of that documentation and information is 
not in the possession or control of Target as a retailer. 
Target has had no further contact with FSIS.

                       Interaction with Suppliers

    In addition to working with the Subcommittee, and 
contacting FSIS, Target has also reached out to its suppliers. 
After receiving the FSIS letter of January 16, 2008, Target 
asked its primary provider, Precept (a joint venture between 
Cargill and Hormel), if it would include the language in 
Target's letter to FSIS on it's packaging. Precept informed 
Target that it had already submitted an application with 
different language to FSIS which had been approved by FSIS.
    Target understands that Precept will begin employing the 
FSIS-approved labeling as early as the end of March. We 
understand that the new packaging will include the following 
language, ``Color is not an accurate indicator of freshness. 
Refer to Use or Freeze By [date].''
    In addition, Target understands that Precept and Hormel 
have been actively working with a consumer group to develop 
additional labeling language. We understand the joint effort is 
aimed at ensuring that this consumer group is supportive of any 
additional labeling regarding the use of MAP technology.

                               Conclusion

    The fresh meat products sold at SuperTarget comply with all 
applicable labeling standards. Target is committed to ensuring 
that all food products sold at SuperTarget will comply with any 
new labeling requirements as well. We will only buy from 
suppliers that provide assurances that they will comply with 
all applicable laws and standards.
    Thank you for the opportunity to discuss these issues with 
you. I would be pleased to answer any of your questions.
                              ----------                              


 STATEMENT OF DANIEL WEGMAN, CHIEF EXECUTIVE OFFICER, WEGMANS 
                       FOOD MARKETS, INC.

    Mr. Wegman. Thank you for the opportunity.
    Mr. Stupak. Do you want to pull that up just a little 
closer to you, that mike?
    Mr. Wegman. OK. Mr. Chairman, Ranking Member, and members 
of the committee, thank you for the opportunity to appear 
before you. I am Danny Wegman, and I am the CEO of Wegmans, 
which is a 70 store supermarket chain with stores in New York, 
Pennsylvania, New Jersey, Virginia, and Maryland. We are a 
family-owned company, founded in 1916. Wegmans is committed to 
providing safe and wholesome food for our customers. We see the 
number of people who suffer from related illness each year and 
we need to do better for our customers.
    I am also the chairperson of the Food Marketing Institute's 
Food Safety Task Force. This task force was created to move 
food safety forward through the retail environment. It is the 
second time this task force has been formed. It was formed 10 
years ago, first of all, and at the time the topic was E. coli 
and ground beef, the same topic, strangely enough. And it was 
back then when we as a retailer, one of our customers had a 
case of E. coli, and we were wondering where the E. coli came 
from. And they were a regular shopper. The health authorities 
looked in their freezer. Our ground beef was there. They had it 
tested for E. coli. There was no E. coli there. And 
nevertheless the customer had it. We don't know where he got 
it. We were very concerned, and we said there is no--we didn't 
know how to eliminate E. coli in our stores and so we said the 
only thing we can do is urge customers to cook ground beef to 
160 degrees or risk fatal illness.
    My team thought it was better than saying risk dying, so we 
chose fatal illness. But we did this. We are in all of our 
stores. We introduced thermometers to our customers. We had 
them in all our stores. We gave actually a type of thermometer 
away to all our customers who wanted the ground beef, and told 
them what to do with it. Interestingly, ground beef sales went 
up, and I think the reason for that was they knew what to do 
with the ground beef and could eat it safely. Even at the 
height of our education, however, it turned out that only less 
than 40 percent of our customers really truly understood what 
we were talking about. So we had good results but we still 
didn't get where we wanted to be.
    In May of 2002, we introduced irradiated ground beef to our 
customers, and our sales got as high as between around--we 
averaged about 5 percent of our ground beef sales. The highest 
week ever would have been about 10 percent. Our retails were 
anywhere from 10 to 20 cents higher than normal beef, normal 
ground beef, and we found the program was good but we didn't 
quite get to the sales level that we wanted. This was in 2002. 
Then in 2004 our supplier went bankrupt, which was SureBeam, 
and that had to stop us from selling irradiated ground beef.
    So finally we introduced a product in August of 2006, and 
we didn't quite promote it in quite the same fashion because 
our cost was substantially higher. We had to ship the product 
around because it wasn't made in the same plant where our 
regular ground beef was, so today's date we are selling it at 
about 40 cents a pound higher than our normal ground beef, and 
the sales are only 1 percent. We still certainly believe in it. 
The product is tested for E. coli prior to irradiation and the 
irradiation is an additional step for safety. We have chosen a 
level of irradiation that kills E. coli O157:H7 and is 
equivalent to cooking the ground beef to 160 degrees, the 
recommended cooking temperature for non-irradiated, which is 
the same as for non-irradiated, so the irradiation is an 
additional step in the process.
    We use the word irradiated, and we use it right now in the 
front of our package because we felt it was--for our go to 
market strategy we try and be right up front with people. We 
are not afraid of that. We would rather tell them that it is 
irradiated and why we are doing it. So I guess as we sit here 
today in many ways we feel that we are really not getting the 
support of the government that we need to pursue food safety 
the way it should be pursued. We feel that the regulations, 
some of them, are out of date, need to deal with new pathogens, 
need to deal with new technologies. Number 1, recognize that if 
irradiation is effective in eliminating pathogens from ground 
beef and allowing labeling that will communicate this to 
customers.
    Number 2, USDA's caution about the cook to 160 degree 
message is understandable, but irradiated fresh ground beef 
should have different label--allow different wording or 
something to indicate that you have changed the process. We at 
one point, when we were reintroducing our ground beef started 
with traditional ground beef, must be cooked to 160 degrees to 
be sure that any illness causing bacteria that may be in the 
meat are killed. That isn't necessary with Wegman's irradiated 
fresh ground beef because dangerous micro-organisms have been 
killed or rendered incapable of causing illness. And we got a 
letter from the USDA that says FSIS advises consumers that for 
optimal safety all raw ground beef, including raw ground beef 
that has been irradiated, should be cooked to a minimum 
internal temperature of 160 degrees Fahrenheit. So if you take 
what they were telling us, the customers were right in only 
purchasing 1 percent of their ground beef because indeed it was 
a stupid test. Pay 40 cents a pound more and get nothing, and 
that is not what we know to be true, so that was a big concern 
to us.
    Next, we think it is important to have a minimum level of 
irradiation if we are going to use this because there is a 
maximum but there is no minimum, and if you don't apply enough 
irradiation you really don't get the desired results that you 
are looking for. You are not eliminating E. coli. And right now 
there is no minimum. And then, second of all, we would like 
this to be designated by some type of a word whether it is 
pasteurized or whether it is ready to eat or whatever you want 
to call it, but it needs to be differentiated from just plain 
random irradiation. Many products are available in pasteurized 
and non-pasteurized forms, and it is not confusing for 
consumers to tell the difference with labeling.
    An example of this is eggs. Pasteurized eggs are available 
for use in products that may not be fully cooked following the 
addition of egg, such as a Caesar salad or egg nog and 
customers are comfortable with it. Next, we are encouraging our 
customers to adopt healthy lifestyles by eating more fruits and 
vegetables, but these foods can pose a risk too. We believe 
that the list of products that can be irradiated should be 
expanded to include fruits and vegetables, as well as other 
ready-to-eat products. In today's world, I am not convinced at 
all the interventions we make will be able to stop E. coli in 
all lettuce. I have an example of a lettuce grower who has been 
there for I don't know how many years. He is next to a farm, a 
dairy farm. He has been there forever. It is his family 
business.
    Recently there was some kind of a problem with the 
irrigation pipes or something, and they caused E. coli in the 
lettuce. Now in theory this is just what you don't want done, 
but I am trying to think myself if I own a farm, and I have 
been there for years and the world is changing, are the right 
incentives there to get me to do the right things, and I am not 
sure they are. As an industry, we are going to try as hard as 
we can to audit our farmers and make sure that everything we 
can see is being done in anything the science can tell us, but 
I am not convinced that we may get there, and so I am not sure 
that we shouldn't be considering irradiation for vegetables 
that we are not going to--that we are not going to cook.
    Mr. Stupak. Let me have you finish up there. You are 
running a little bit over there.
    Mr. Wegman. OK. I guess we would ask that we help protect 
customers from foodborne illness by encouraging and approving 
the use of technologies that reduce pathogens. That is 
basically what we are after. And I guess if--I would like to 
have the government have as much passion about keeping people 
safe with the food they eat as we do as retailers because when 
people come in our store, we have an obligation that they do 
get safe food, and we find that there are some things in there 
that the government is doing that seems to be sitting on the 
sidelines instead of taking an active position. So thank you 
very much. I appreciate the chance to share my thoughts.
    [The prepared statement of Mr. Wegman follows:]
    [GRAPHIC] [TIFF OMITTED] T0332.028
    
    [GRAPHIC] [TIFF OMITTED] T0332.029
    
    [GRAPHIC] [TIFF OMITTED] T0332.030
    
    [GRAPHIC] [TIFF OMITTED] T0332.031
    
    [GRAPHIC] [TIFF OMITTED] T0332.032
    
    [GRAPHIC] [TIFF OMITTED] T0332.033
    
    [GRAPHIC] [TIFF OMITTED] T0332.034
    
    [GRAPHIC] [TIFF OMITTED] T0332.035
    
    Mr. Stupak. Thank you for coming. Professor Olson, if you 
would, please, sir, for your opening statement, 5 minutes, and 
if you have a longer statement, part of the record.

  STATEMENT OF DENNIS G. OLSON, PH.D., PROFESSOR, IOWA STATE 
UNIVERSITY, COLLEGE OF AGRICULTURE AND LIFE SCIENCE, DEPARTMENT 
                       OF ANIMAL SCIENCE

    Mr. Olson. Thank you, Mr. Chairman. Thank you for inviting 
me to appear before this committee. I am Dennis Olson, 
Professor of Animal Science and Professor in charge of our 
Linear Accelerator at Iowa State University, which is the first 
food irradiation facility at a university in the United States. 
After World War II and President Eisenhower's Atoms for Peace 
Program, the U.S. Army developed a strong research program in 
food irradiation. That was in 1951. Thirteen years later in a 
joint Congress committee on atomic energy a statement from the 
Surgeon General said in summary it can be stated that foods 
irradiated up to absorbed doses of 5.6 Mrads, which would be 
equivalent to 56 kGy today with a cobalt-60 source of gamma 
radiation or with electrons with energies up to 10 million 
electron volts have been found to be wholesome, i.e., safe and 
nutritionally adequate. That was in 1965.
    Interest in irradiation grew internationally, and a joint 
coordinated international program to look at the safety and 
wholesomeness of irradiated foods ensued. And a joint expert 
committee for the World Health Organization, the Food and 
Agriculture Organization, the Atomic Energy Agency or the 
International Atomic Energy Agency joint committee, and they 
issued a report in 1981 that said in their landmark report the 
committee conducted the ``irradiation of any food commodity up 
to an overall average dose of 10 kGy presents no toxicological 
hazard,'' hence toxological testing of food so treated is no 
longer needed. That was that report, and it was a monumental 
report because shortly thereafter in 1983 the Codex 
Alimentarius Commission, which is the highest legal authority 
for international food standards, issued rules for irradiated 
foods that says any food up to 10 kGy could be irradiated.
    And after that was issued, there are now 59 countries that 
have some irradiated foods that are approved for use with 
different maximum doses on those. The concern, however, was the 
10 kGy because since 1973 we have been irradiating foods for 
our astronauts that have gone up to about 30 kGy, and so the 
question is, is a 10 kGy an actual limit? And so again a series 
of research projects ensued and in 1999 another joint expert 
committee with the World Health Organization, the FAO and IAEA, 
formed and their conclusion was foods that are appropriately 
prepared, packaged, and irradiated to high doses under proper 
conditions to sterilize them should be deemed safe. And after 
that report was issued again the Codex changed their rules and 
removed the 10 kGy limit. So irradiated foods are safe and in 
fact there are now 15 countries in the world that have no limit 
on any food that can be irradiated and several of that 15 group 
restrict no dose.
    But the U.S. is not one of those. Even though there has 
been no indication FDA has ever disagreed with the joint expert 
committee reports, we still have very severe restrictions. We 
were in a catastrophe here in the United States in 1998 in 
December and then January and February of 1999 where we had 35 
million pounds of Billmar frankfurters and deli meats that were 
recalled, and the recall was due to 100 illnesses that occurred 
in 22 states resulting in 21 deaths, and with that occurrence, 
that catastrophe, 30 different organizations related to 
agriculture and food formed and submitted a petition to FDA for 
ready to eat foods, and essentially it would cover almost all 
foods in the U.S. except for seafood. That was in 1999. We are 
still waiting for that petition to be approved.
    And we had another catastrophe in the fall of 2006 when we 
had spinach that was recalled where--that was in September and 
October of 2006, 199 illnesses in 26 states, 102 
hospitalizations, and 3 deaths. And as I got contacted by the 
media, my question was is this a big enough catastrophe for FDA 
to issue their ready to eat approval, and a year-and-a-half 
later, I guess not. One issue I wanted to address is there has 
been some concern about does irradiation destroy the quality of 
the product, and so thanks to the courtesy of SADEX Corporation 
in Sioux City, Iowa, we have brought a number of products here 
that we have irradiated. I was there Monday and I watched that. 
As you inspect these, you will see we have a non-irradiated and 
an irradiated one. Every irradiated one will have a little 
label on it with my initials that I personally put on there, 
and I also have dosimetry sheets to indicate what doses those 
received. So I hope you take a chance to look at those and even 
open it up and taste it. The quality is excellent.
    The last point I wanted to make is that we have some 
pillars of public health in the United States. About 100 years 
ago we were debating about whether cooking milk was 
appropriate, and a lot of debate on that. We now know that 
pasteurization of milk and juices is a pillar of public health 
in preventing illness. Likewise, when we chlorinate our water 
supply, we are preventing illness by that treatment and also by 
vaccinating for viruses for protecting our population. I 
believe that when we have widespread use of irradiation in our 
food supply, it will also be listed as a pillar of public 
health. Thank you, Chairman. I will be happy to answer 
questions you might have.
    [The prepared statement of Mr. Olson follows:]

                      Statement of Dennis G. Olson

    Mr. Chairman, I would like to thank the committee for 
inviting me to offer my views on food irradiation. My career 
has been devoted to this subject through teaching, research and 
commercial applications. In 1993, I commissioned the first 
electron-beam food irradiation facility at Iowa State 
University and developed an extensive program in food 
irradiation research and education in cooperation with many 
other universities.
    Irradiation can be a powerful weapon in the nation's food 
safety arsenal. It destroys pathogenic bacteria without 
changing the nature of the treated food. The effect is similar 
to pasteurization, in that food is made safer, while 
maintaining the taste and appearance of the untreated product. 
Of course, the absence of heat means that, in comparison with 
pasteurization, irradiation can be applied to a much wider 
range of fresh or ready to eat foods. Food irradiation cannot 
make food radioactive. The equipment used for food irradiation 
does not have sufficient energy to cause radioactivity in any 
treated material, including food, regardless of the amount of 
irradiation absorbed.
    Irradiation is not a new technology, and food irradiation 
is not a new topic, even in these halls. In June 1965, 
following more than twenty years of research by the Army, the 
US Army Surgeon General testified before Congress and concluded 
that ``foods irradiated up to an absorbed dose of 5.6 Mrad (56 
kGy) with a cobalt-60 source of gamma radiation or with 
electrons with energies up to 10 million electron volts (MeV) 
have been found to be wholesome, i.e. safe and nutritionally 
adequate.'' \1\ The Surgeon General, in that report more than 
40 years ago, concluded that irradiated food is safe regardless 
of the dose. \2\ Since then, decades of increasingly 
sophisticated research have affirmed that conclusion. Now, more 
than forty years later, I welcome the opportunity to repeat 
that message. Irradiated food is safe.
    In recent decades, irradiation has been increasingly 
adopted to sterilize medical products, and is now considered 
state of the art in medical sterilization. That same evolution 
should have occurred in food irradiation, and that it did not 
happen is quite literally a tragedy. The millions of pounds of 
contaminated ground beef, lettuce and spinach that have been 
recalled in the last eighteen months, and the sickness and 
death that accompanied those recalls, would have been prevented 
if those products had been irradiated.
    The companies and the trade groups involved in these 
recalls, many of whom have testified before this Subcommittee, 
have all promised to do better. But they have also said, in a 
variety of ways, that despite their best efforts there is no 
``Kill Step'' that will ensure their customers do not become 
sick in the future. Those assertions are simply not true. The 
pathogens responsible for these recalls, E. coli O157:H7, 
salmonella and Listeria monocytogenes, can be killed by proven, 
available and safe technology. Food irradiation is that ``Kill 
Step.''
    I am convinced that food irradiation should be, and 
ultimately will be, broadly used in the food industry. As that 
occurs, food irradiation will become one of the Pillars of 
Public Health, along with chlorination of water, pasteurization 
of milk and juices, and vaccination, in the prevention of 
illness. I urge Congress to advance the application of 
irradiation in the food industry. To that end, approved uses of 
irradiation need to be expanded, regulatory agencies and public 
health professionals need to actively engage with consumers to 
educate them about the benefits of the technology. Labeling 
requirements, if needed, should be informative not alarming. 
Food processors need to be encouraged to adopt irradiation, or 
alternative food safety interventions that guarantee a 
comparable reduction in risk.
    The first step needs to be an immediate increase in the 
scope of governmental approved uses for food irradiation. Of 
the products involved in the recent recalls, only ground beef 
has adequate approval from FDA and USDA. Irradiated ground beef 
is currently available in the marketplace, but in limited 
amounts. None of the major ground beef producers market an 
irradiated product.
    With regard to leafy greens, which include spinach and 
bagged salads, the FDA allows irradiation for insect control 
and shelf-life extension, but does not allow it to be used for 
pathogen reduction. In order to allow irradiation for pathogen 
reduction in leafy greens, the FDA needs to approve both the 
use and the increased dose necessary for effective pathogen 
control in these products. That approval should have been 
granted years ago. In late 1999, a petition to allow 
irradiation for pathogen reduction in fruits and vegetables and 
other ready to eat foods (FAP 9M4697) was submitted to FDA. 
Eight years later, that petition is still pending. Two 
petitions submitted to FDA by USDA, its sister agency, also 
remain ``pending'' after more than eight years (FAP 0M4695 and 
FAP 9M4696). Yet, these petitions are being considered under 
the agency's ``expedited'' review process.
    The FDA's review responsibility with regard to irradiation 
petitions is to evaluate safety. Safety in this context 
involves assessment of microbiological risk, potential toxicity 
and nutritional adequacy. Although it sounds complicated, after 
decades of research this evaluation should be a simple task. 
There is no longer any question about the safety of irradiated 
foods. In fact the kind of case-by-case review that the FDA 
requires has been irrelevant and unnecessary for more than a 
quarter century.
    In 1980, the World Health Organization published a report 
summarizing all of the research to that date, \3\ and concluded 
that any food, even if irradiated to a moderately high dose, 
would be wholesome. In other words, safe and nutritionally 
adequate. The same conclusion reached by the US Army Surgeon 
General fifteen years earlier. The WHO report further concluded 
that further research on the safety of food irradiation at 
moderately high doses was unnecessary.
    In response to the WHO report, the Codex General Standard 
for Irradiated Food was adopted in 1983. Those standards 
provided that irradiation of any food up to an average dose of 
10 kiloGray (kGy) presented no concern. The FDA did not adopt 
the Codex recommendations.
    In 1999, the World Health Organization issued a subsequent 
report on high dose irradiation and concluded there is no 
irradiation dose where foods become unsafe. \4\ In 2003, the 
Codex Alimentarius Commission, which is the highest 
international body on food standards, revised its 1983 Standard 
to lift all restrictions on food categories or dose limits for 
irradiated foods. The Codex standard does provide that doses 
above 10 kGy should only be used when needed to achieve a 
technological purpose. There are now 15 countries that permit 
the irradiation of any food, and several allow irradiation at 
any dose. The U.S. is not one of them. The limited approvals of 
irradiation in the U.S. has continued despite the support of 
the American Medical Association, American Dietetic 
Association, American Veterinary Medical Association, Center 
for Disease and Protection, Public Health Service, Council of 
Science and Technology, Institute of Food Technologists, 
National Association of State Departments of Agriculture and 
others recognizing the safety and benefits of food irradiation. 
\5\
    The FDA apparently believes that the 1999 WHO report 
considered all of the studies the FDA considers relevant, \6\ 
and has expressed no disagreement with the conclusions in that 
report. Nonetheless, FDA continues its outdated petition by 
petition review. Perhaps, in light of the evidence outlined 
above, the time has come to consider whether the classification 
and regulation of irradiation as a food additive should be 
changed.
    When food processors discuss irradiation they often claim 
either that they have not studied its use, or have determined 
that it will damage the product, making it unacceptable in the 
marketplace. I believe the quality issue is not a real issue, 
but in any case it should not be a regulatory concern. The 
marketplace will ultimately decide if quality is compromised by 
irradiation. For my part, I have confidence in the capacity of 
the food industry to develop packaging, product configuration, 
processing temperature and irradiation dose to offer high 
quality and safe irradiated foods.
    If there is a quality hurdle, it is a very low one. Several 
irradiated food products, and the non-irradiated controls, are 
available today for your evaluation. These products were 
purchased off the shelf, and irradiated in their retail 
packages without any intervention to improve quality. I believe 
they demonstrate that quality does not have to be sacrificed in 
an irradiated product.
    Adoption of irradiation technology in the food industry is 
impeded by lack of timely and adequate FDA approvals, warning-
style labeling requirements, the lack of engagement of public 
health officials to promote the safety of irradiated foods to 
consumers, and of course, the food industry's desire to avoid 
increased cost.
    The cost of irradiation is a valid concern. In addition, 
there are only a few irradiation facilities in the U. S. 
currently capable of irradiating food in commercial volumes. 
The limited number of irradiation facilities can mean high 
transportation costs, but that is not unusual to a developing 
technology. Increased demand will lead to more, better located, 
irradiation facilities. Nonetheless, even with the current 
limited capacity, it should cost only cents per pound, 
including transportation. The offsetting benefits of 
irradiation are no recalls, no illnesses, no deaths and avoided 
litigation awards.
    Mr. Chairman, thank you again for inviting me to testify on 
the application of this important pillar of public health 
technology; food irradiation. I solicit your help to get all 
foods approved for irradiation and to and eliminate the 
unwarranted warning-type label requirements. We should not 
accept the fact that a number of our citizens will get sick, be 
hospitalized or die because the government has not allowed the 
food industry to adopt food irradiation for all foods to 
prevent those catastrophes.
    Dennis G. Olson, Ph. D.
    Professor-in-Charge
    Linear Accelerator Facility
    Iowa State University
---------------------------------------------------------------------------
    \1\ Radiation Processing of Foods. Hearings before the Congress of 
the UnitedStates, 9 and 10 June, 1965. Washington, DC, US Government 
Printing Office,1965, pp. 105-106.
    \2\ Wholesomeness of irradiated food. Report of a Joint FAO/IAEA/
WHO Expert Committee. Geneva, World Health Organization, 1981 (WHO 
Technical ReportSeries, No. 659).
    \3\ A dose of 56 kGy is more than 10 times the maximum dose 
currently approved for fresh meat, and higher than the dose approved 
for sterilizing foods to be used by NASA in the space program. [21CFR 
179.26(b)(8)]
    \4\ Joint FAO/IAEA/WHO Study Group on High-Dose Irradiation 
(Wholesomeness of Food Irradiated with Doses above 10 kGy) (1997: 
Geneva, Switzerland) Wholesomeness of food irradiated with doses above 
10 kGy: report of a Joint FAO/IAEA/WHO Study Group--WHO technical 
report series: 890
    \5\ Food Irradiation: Available Research Indicates that Benefits 
Outweigh Risks. GAO Report (GAO/RCED-00-217) to the Committee on 
Commerce, Sub-Committee on Oversight and Investigations, U.S. House of 
Representatives, August, 2000.
    \6\ 70 FR 48057 August 16, 2005
---------------------------------------------------------------------------

                             Summary Points

    1. Food irradiation cannot make food radioactive.
    2. Irradiated food is safe.
    3. Food irradiation can be the ``Kill Step'' to prevent 
pathogens from causing illness.
    4. When widely adopted, irradiation will be a Pillar of 
Public Health along with chlorination, pasteurization and 
vaccination in preventing illness.
    5. More FDA approvals to irradiate all foods are needed 
immediately.
    6. Quality of irradiated foods is not a regulatory concern 
and industry can overcome any quality issues.
    7. Labeling of irradiated foods, if needed, should be 
informative not alarming.
    8. Cost to irradiated foods is cents per pound and will 
lower as more facilities are built.
    9. Expanded use of irradiation for food will decrease 
illness.
                              ----------                              

    Mr. Stupak. Yes, we are going to try to get some questions 
in. We are going to have two votes on the floor so let us 
start. Let me start with you, Professor, as you are grabbing a 
drink of water. You say in your testimony, and you alluded to 
it, but in your written testimony, page 3, the FDA apparently 
believed that the 1999 WHO report considered all the studies 
the FDA considers relevant and had expressed no disagreement 
with the conclusions in that report. This is on irradiation of 
foods, correct?
    Mr. Olson. That is correct.
    Mr. Stupak. And then you go on to say nonetheless FDA 
continues its outdated petition by petition review. Perhaps in 
view of the evidence outlined above, it is time to consider--
and you said you are still waiting. What is the delay? It has 
been 1999. We are now 9 years later, almost 10 years later. Why 
aren't they ruling on the petition that you all put together?
    Mr. Olson. Well, there are some issues that came up with 
furans, and there had to be some research done on that and some 
market basket tests. But we need to have some common sense 
because we have found acrylamides in potato chips and French 
fries that we have been eating for decades and acrylamide is 
listed as a carcinogen. We felt furans in maybe slightly 
elevated levels in irradiated products that have high 
carbohydrate content, slight elevation.
    Mr. Stupak. Is that harmful? Would that be harmful?
    Mr. Olson. Well, in a pure form it would but the greatest 
content that we have in our market basket study that FDA did is 
in baby food, and so if anybody is going to be susceptible, it 
should be young children and baby foods have by far the highest 
amount of furans as any of the other foods that have been 
tested, but it is still a delay that has prevented the petition 
from coming forward.
    Mr. Stupak. Is it because the FDA doesn't have the science 
foundation to address the issue raised in the petition?
    Mr. Olson. I think they are fully capable of the science 
part. I have no doubt about that. What other issues has caused 
that from not being issued especially in light of what we have 
seen around the world, you know, it is----
    Mr. Stupak. Do other countries use irradiation, like the 
European Union and others, do they use it in their products?
    Mr. Olson. Frankly, we have an explosion of facilities 
being built, especially in the Southeast Asia area where we are 
going to be experiencing this spring a tremendous amount of 
irradiated fruits, tropical fruits coming into the United 
States. That is the biggest area of activity that is occurring. 
We have a lot of shrimp that are irradiated in that area as 
well.
    Mr. Stupak. But your petition didn't include seafood, isn't 
that what you said, the WHO, World Health Organization, the 
petition you guys submitted on that behalf did not include 
seafood?
    Mr. Olson. That is correct because there were other 
petitions submitted that did include seafood.
    Mr. Stupak. So there are petitions pending before the FDA 
on seafood?
    Mr. Olson. The last one was in molluscan and shell fish 
which was approved in '95 or '97, I think it was.
    Mr. Stupak. Mr. Wegman, if I may, you said you began 
selling your irradiated ground beef when a consumer got sick. 
It wasn't necessarily traced back to your beef but that is how 
you got interested in this. And I have one of yours right here, 
Wegmans 9010 irradiated ground beef. Why did you feel it was 
important to put irradiated on the product itself?
    Mr. Wegman. We just wanted to be very clear with our 
customers. We weren't trying to pull a fast one on them.
    Mr. Stupak. OK. To put irradiated on there, did you get 
approval from the FDA?
    Mr. Wegman. We must have or we wouldn't have it on there, I 
guess. He can answer it better.
    Mr. Stupak. OK. I am sorry. I said FDA. It is USDA.
    Mr. Olson. USDA requires the label to say irradiated, 
generally irradiated for food safety with a symbol on that but 
that statement may be no larger than the ingredient statement 
on any package. But Wegmans took another step and put a 
billboard of it.
    Mr. Stupak. OK. As a retailer then, Mr. Wegman, did you 
have to work with the supplier to get the USDA to approve your 
label?
    Mr. Wegman. I believe we do. If you need further exact yes 
or no, I can ask somebody behind me.
    Mr. Stupak. OK. On this committee we have had past hearings 
on carbon monoxide. Do you use carbon monoxide packaging for 
any of your beef or anything, Mr. Wegman?
    Mr. Wegman. No, we don't.
    Mr. Stupak. Just irradiation?
    Mr. Wegman. Yes.
    Mr. Stupak. OK. Let me go to Ms. Lachman then. Do you use--
in your beef products?
    Ms. Lachman. We use MAP package products, yes.
    Mr. Stupak. Carbon monoxide.
    Ms. Lachman. I believe that is the tri-gas in there.
    Mr. Stupak. OK. If Wegmans can use irradiation on their 
packaging and it is rather pronounced, and I looked earlier 
before on the spinach and all that, and there is pretty good 
size labels on there. Why won't you just call it carbon 
monoxide as opposed to modified packaging or whatever?
    Ms. Lachman. Quite honestly, we have to--we did submit the 
letter to FSIS. The language was not approved. We have worked 
with Hormel and Precept, or Precept who is our primary vendor. 
Precept declined to pursue our language as they already had a 
label approved by FSIS for that packaging.
    Mr. Stupak. And what is that label that is approved by 
FSIS?
    Ms. Lachman. One moment, and I can read it.
    Mr. Stupak. Is that the one that is in your testimony about 
it doesn't change the color or whatever?
    Ms. Lachman. ``Color is not an adequate indicator of 
freshness. Refer to use or freeze by'' date.
    Mr. Stupak. And the reason why it doesn't change color 
because it has been treated with the carbon monoxide, right?
    Ms. Lachman. I believe that is on the package. I am not an 
expert on that.
    Mr. Stupak. OK. I guess what I am trying to figure out, 
Wegmans have done the right thing to let the consumer know but 
when it comes to carbon monoxide we get all kinds of push back, 
and if Wegmans can do it successfully why can't we just put 
carbon monoxide.
    Ms. Lachman. I am sorry. I can't speak for what Wegmans has 
done but we have been working with Hormel to pursue labeling.
    Mr. Stupak. But it doesn't say carbon monoxide on it? See, 
we still think the consumer has the ultimate right to know 
whatever it is. So I am going to go to Mr. Shimkus. We have a 
couple of votes on the floor. I know I got plenty more but go 
ahead.
    Mr. Shimkus. Thank you, Mr. Chairman. I would like to go to 
Dr. Olson. Your testimony implies that when it comes to 
irradiation private industry is waiting for the FDA golden 
stamp of approval. If the FDA approved the use of irradiation 
for food in higher doses, do you think that more technological 
advances in this area by private industry would follow, 
ultimately reducing the costs to irradiate the food and 
resulting in a more affordable product to consumers?
    Mr. Olson. I think there are several factors involved. The 
red meat petition was approved, final rules, by USDA on 
February 23, 1999, and were first allowed February 23, 2000. 
Industry offered irradiated ground beef in May just a few 
months later, and so certainly industry is not going to invest 
until rules are in place. The second is that the high cost that 
Mr. Wegman talked about is a lot related to transportation. You 
make the product one place. You transport it to an irradiation 
facility. You transport it back to a distribution center. Then 
it gets to the retail store. And when we get an infrastructure 
in place even where you have an irradiation facility in line or 
in plant, then we are talking instead of that 40 cents it might 
be 5 cents.
    Mr. Shimkus. Yes, I really believe in competitive market 
principles, and there is always a debate about when we 
intervene and the initial intervention is very costly but then 
I think the business tries to streamline it to make sure that 
they can bring a competitive product, you know, for the 
consumer because I think, Mr. Wegman, you know that you had 
sold previously irradiated beef but that company went out of 
business. It probably went out of business because it couldn't 
compete on cost. Do you know the reason?
    Mr. Wegman. I apologize. I don't know the entire reason. My 
belief was that there were----
    Mr. Shimkus. It is not your company so you don't have to--
--
    Mr. Wegman. So I can say things about it. There were some 
lines of business that were never allowed to be irradiated that 
they couldn't run through their system and the fixed costs were 
very high. But we are looking to see if it would be around a 
dime, and that is what the folks say to us. But we got to get 
volume going through it. We would like permission to go after 
this thing and if I get thrown in jail can you at least bring 
me some water? Because we got to tell our customers that you 
can eat a good tasty, juicy hamburger if it is irradiated, 
otherwise, we would love to try that and see if this thing will 
really fly and get back to where we were or even higher.
    Mr. Shimkus. Well, it is part of our challenge to because 
we have--I mean we will have individuals here that will say 
irradiate it? Radiation, no. And part of the hearing process is 
to get on the record the safety and efficacy so if and when we 
move a bill and we put this in that we don't hit these walls 
that will develop here, much like the whole question of the 
packaging, whether it is--and we just want clarity for the 
consumer so the consumer can choose. I have another question I 
want to make sure I ask of Mr. Olson.
    Mr. Olson, in your testimony you state that there is no 
longer any question about the safety of irradiated foods. 
However, committee staff was told about scientific studies in 
Europe that claim that the irradiation processes with meat and 
some produce, in particular mangoes, result in the production 
of chemicals. You addressed this earlier to some extent in the 
carcinogens. But the question really deals with why do these 
studies don't hold merit in your eyes or do they?
    Mr. Olson. No, they don't for a couple of reasons. One is 
that Europe has spent a great deal of time trying to identify 
irradiated foods. Part of that mission is so that they can deny 
it but they want to be able to detect irradiated foods so you 
are looking at compounds that may have formed in the product 
that has not formed in non-irradiated foods, and there are a 
number of those that have been detected. But then you take the 
next step and you try and purify that, and then you try and see 
if there are any carcinogenic or any toxicological issues. And 
some have suggested in a pure form they might but you look at 
how do you approve any food additive in this country, and that 
is you go through extensive animal testing. And we did that for 
many, many years. There has been no food additive that has ever 
had such thorough animal testing done as this process.
    In fact, if we look at other non-thermal technologies for 
processing technologies, they have never had to undergo the 
scruples of a food additive petition. In 1958 we have a food 
additive that is in fact either the cobalt or the linear 
accelerators the additive. And that is what has forced this 
whole issue of going through these great strides and any hence 
of any kind of things that might suggest they are wrong, 
delays, delays, delays the implementation. Maybe we need to 
think in terms of let us look at irradiation as any other 
process, microwaving, hydrostatic pressure pulse, electric 
fields, on and on and on. We got to quit doing this delaying 
factor and get it into the public health sector.
    And the last point I wanted to make before, and that is 
what brought along chlorination of water, pasteurization of 
milk and juice, vaccinations, is strong continuous support from 
the public health professional. It is not the industry that 
brought in pasteurized milk. It wasn't the equipment 
manufacturers of pasteurizers that got this into the market 
place. It wasn't consumers demanding it. It was the public 
health professionals, and that is where we need to move forward 
with getting irradiation accepted into this market.
    Mr. Shimkus. Thank you very much. And I think the other 
focus, what helps us is it has got to be science based. It has 
to go through the regular scientific process, and then we have 
to trust that and we have to lead by example to move in the 
direction that I think we think we both need to go. Thank you, 
and I yield back.
    Mr. Stupak. We have four votes on the floor. It is probably 
going to take us until 3:15. I am going to ask this panel to 
stay. I have questions about the tomatoes, the spinach, and the 
mushrooms there, and a number of other things that I want to 
ask about because I think it is very important in the education 
process, so if you will stay. We are in recess until 3:15.
    [Recess.]
    Mr. Stupak. OK. The committee will come to order. We are 
going to go a second round of questions. I said I had a number 
of questions. And, Mr. Olson, Professor Olson, if I can start 
with you. On February 26, the CEO of Dole Foods testified that 
they tried irradiation and it fried their vegetables, and they 
said it just made them soggy and it just doesn't work. Comment 
on that because I see we have spinach. Explain what you got, 
you got spinach, you got mushrooms, you got tomatoes.
    Mr. Olson. Yes. We have spinach and we have lettuce. And 
even when we were getting irradiated ground beef in May, 2000, 
and past that, there was some reluctance and often quality was 
used as an issue of not moving forward. I know one company that 
we worked with almost 9 months until they had a ground beef 
recall. All of a sudden the quality is not an issue. So I think 
there is a little reluctance to move forward. They don't want 
to bother.
    Mr. Stupak. I think those mushrooms, can I irradiate them 
and can I put it too strong where I wreck the quality in the 
taste of the food?
    Mr. Olson. No, I don't think we have had anything 
deteriorated from irradiation on the table.
    Mr. Stupak. OK. The testimony was that Mr. Wegmans product, 
40 cents more per pound of beef, and that is transportation 
cost mostly? Would that be fair?
    Mr. Olson. I would say most of it would be transportation 
costs.
    Mr. Stupak. Mr. Wegman.
    Mr. Wegman. Eighty cents.
    Mr. Stupak. Eighty cents.
    Mr. Wegman. Eighty cents.
    Mr. Stupak. It is 80 cents more?
    Mr. Wegman. It is a little less. It is probably 60, 70 now 
but we can fix that.
    Mr. Stupak. But is that mostly transportation costs because 
you got to send it one place to another place to another place?
    Mr. Wegman. It is combined, yes. It is the handling.
    Mr. Stupak. So if we use more irradiation of meat, 
vegetables, that would bring that cost down of it because other 
companies would get into irradiation, would it not?
    Mr. Olson. Yes.
    Mr. Stupak. Professor Olson, what is the downside other 
than maybe consumer conception? Is there a downside to 
irradiation? I understand when you irradiate something with E. 
coli it breaks the molecule and therefore it can't manifest in 
humans. Explain it to us a little bit, and what is the downside 
of it?
    Mr. Olson. Let me--just because you brought that one issue 
up-- basically when we are controlling bacteria, we are 
damaging DNA. Now we can do that with electron beams. We can do 
that with X-ray. We can do it with gamma ray. We do it by fast 
moving electrons regardless of what source, and so they all 
have the same effect on that. But the downside, and I said it 
many times, the only downside is cost.
    Mr. Stupak. The cost of irradiating it or the extra 
handling that is involved because you put another step in it. 
It is my understanding you take that spinach right there. If 
Dole would send you a box of spinach you laid out on a belt, 
and I saw your public TV special on irradiation by Iowa State 
University, you put it on a belt and use that right in the bag, 
right?
    Mr. Olson. Correct.
    Mr. Stupak. And then at the end you just ship it back to 
Dole?
    Mr. Olson. That is correct.
    Mr. Stupak. So the cost then would be just that extra step 
you have to put in, but if we had more--it is cost basically 
then?
    Mr. Olson. That is right. And say if Dole had their own 
irradiation facility in their own plant, it is pennies.
    Mr. Stupak. Let us say Salinas Valley, where we got 21 
outbreaks of E. coli in the last 10 years. Every 6 months we 
have a new outbreak in Salinas Valley, which is supposed to be 
America's salad bowl. Why wouldn't those growers then get 
together in that area and just irradiate the fruits and 
vegetables and be done with this problem we have?
    Mr. Olson. I think if we had a public health professional 
that is saying we need to ensure that we have a safe food 
supply and irradiation would be doing that, I think that would 
help a great deal. It is a little bit like metal detection. 
Every one of these bags have gone through a metal detector. Is 
it because we have a lot of metal? No. But occasionally we have 
that metal so to ensure that we don't have the consumer 
experience any metal in their product it goes through a metal 
detector, and that is the irradiation should be looked at as an 
insurance that we are not going to have E. coli or other 
pathogens in those products.
    Mr. Stupak. But what food borne illnesses could be 
prevented specifically besides E. coli if we used irradiation?
    Mr. Olson. salmonella, and in fact we can list a whole 
bunch of things like E. coli, salmonella, Yersinia, Listeria. 
There is a wide range of those. If we gave a product a dose 
that would control salmonella just like when we have process 
controls for heating to control salmonella, we control 
everything else. So that is the benchmark in terms of our 
ultimate control to make sure that we don't have any of these 
pathogenic bacteria survive. salmonella is the most resistant 
to irradiation and the most resistant to heat.
    Mr. Stupak. The opponents of irradiation argue or they sort 
of believe that if we were to use more irradiation in fruits, 
vegetables, meat, it would be used as an alternative to prevent 
food borne illness such as sanitation. In other words, you 
wouldn't have to sanitize. You wouldn't have to worry about 
your sanitation.
    Mr. Olson. I have a great example for you.
    Mr. Stupak. OK.
    Mr. Olson. A hundred years ago when we were talking about 
pasteurization of milk, let us say the opponents of that said 
let us clean up the farms and let us go with certified rather 
than pasteurized milk, so a lot of attempts were made to do 
that. And one of the chief arguments against pasteurization is 
we are just going to let these dairy farms be dirtier. If you 
compare a dairy farm today versus a dairy farm 100 years ago, 
it is thousands of times more sanitary. So there is no 
incentive to be dirty. That is--it sounds maybe logical but 
there is no incentive to be dirty.
    Mr. Stupak. Ms. Lachman, I had asked you before but let me 
try to rephrase the question this way. I am still trying to get 
at why you are just not putting carbon monoxide on treated 
packages, why you just don't say carbon monoxide. Will Target 
comment to write to Precept, and I understand Precept was sort 
of a stumbling block here, will Target commit to write to 
Precept and request that carbon monoxide be added to labels on 
meat for sale at Target?
    Ms. Lachman. As I understand it, for labeling we need 
governmental approval, and we have been working with Precept/
Hormel to pursue language, and they already have language in 
place or they have language approved by FSIS.
    Mr. Stupak. But does it include carbon monoxide?
    Ms. Lachman. No, it does not.
    Mr. Stupak. All right. In this committee and in our 
legislation, we have all been very clear, the consumer has the 
right to know. You can use fancy words but we like it like 
here, irradiation, carbon monoxide. Cargill and Hormel supplies 
your meat. Wouldn't you just easier call them and say, look, we 
want to include carbon monoxide. You are our supplier. If you 
don't want to do it, fine. We will go to a supplier who will 
provide us the food that we can put the labeling on it that 
says carbon monoxide. You really don't need FDA approval to put 
the carbon monoxide labeling on your food, do you?
    Ms. Lachman. It is my understanding we need to have FSIS 
approval to put any labeling on regulated meat packaging.
    Mr. Stupak. How about just a sign in the store?
    Ms. Lachman. I am not sure what is required to put a sign 
in the store.
    Mr. Stupak. Kyle, can you give me that exhibit? Here is at 
one of your stores for the public. We see it all the time, and 
I think we have it on the table there for you, our fresh meat 
and seafood set the standard for naturally fresh unlike other 
stores that may use carbon monoxide to preserve a product's 
color even after--never has and never will. Why don't you just 
put the sign? You wouldn't need to get FDA approval to put the 
sign up there saying this meat may be treated with carbon 
monoxide or we will not use it. That is what we have asked you 
to do, not use carbon monoxide.
    Ms. Lachman. I am not sure what is required to put up a 
statement with content that relates to regulated product but 
for a technical sign about a process or a specific product, we 
would certainly rely on our expert vendors to help craft 
language that would make sense for a consumer, but we will of 
course comply with all applicable laws.
    Mr. Stupak. OK. So basically the only way Target is going 
to do it then is if we have Hormel or Cargill put carbon 
monoxide on the packaging. You are not going to use your 
financial leverage to get them to do it for you?
    Ms. Lachman. We continue to work with Hormel and have 
conversations about labeling. And what Hormel has told us is 
that they have been partnering with consumer groups to develop 
additional language for MAP product, and as late as when I 
spoke to them on Monday, I think as late as Friday they 
submitted additional language to FSIS, and they have worked 
with consumer groups.
    Mr. Stupak. They can, excuse the pun, they can work until 
the cows come home. It is not going to fly with this committee 
until they use carbon monoxide. And I would think that Target, 
like Wegman, would want to inform their consumers, not fancy 
words, not all this stuff we have seen, that modification that 
they want to put modified atmosphere packaging, MAP, as they 
call it, has been rejected many times by the committee. I would 
hope you would use your influence and just say carbon monoxide, 
we either use it or we don't. Let the consumer make their 
decision. Wegman did it. It certainly hasn't hurt them, and I 
think the consumer certainly has that opportunity to know that. 
Mr. Shimkus for questions.
    Mr. Shimkus. Thank you very much, Mr. Chairman. I think the 
whole carbon monoxide debate is words have an impression and 
you have to overcome the GMO, genetically modified organisms, 
has been a scourge of the European community, and now we 
slowly, after years, the European community is now 
understanding the safety. We are using real science to 
understand GMOs. Likewise, irradiation, there have been years 
we don't have anything irradiated, but we have to do an 
educational process. And I think there is probably the same 
thing with the packaging issue. So I am following this debate. 
I am pretty new to the committee with interest, and that is 
just my 2 cents worth. There is this whole real science quality 
of the food supply and honesty in advertising, and somehow we 
are going to have to work through this.
    Mr. Chairman, I am going to double dog dare you because I 
believe in leadership by example, and I know that you had Kevin 
actually partake in a food test of irradiated food, so I am 
going to ask my staff or the committee staff on our side to go 
down and grab those mushrooms, and we will have a taste test. 
Would you be up to that?
    Mr. Stupak. I am allergic to mushrooms.
    Mr. Shimkus. I was going to do the tomatoes but I was 
afraid we would spray them all over the place.
    Mr. Stupak. I will do tomatoes.
    Mr. Shimkus. You will do the who?
    Mr. Stupak. The tomatoes.
    Mr. Shimkus. But we might spray them. He is allergic to 
mushrooms. Maybe that will help with our floor vote. No, we 
can't use this. He can't eat these. OK. We will do whatever. 
Dr. Olson, what do you recommend?
    Mr. Olson. Do spinach. Spinach was a big problem a year and 
a half ago.
    Mr. Shimkus. And then we are going to go out to the flag 
pole.
    Mr. Wegman. I don't know that I would eat spinach that is 
not irradiated.
    Mr. Shimkus. That has not been irradiated? Oh, it has been 
irradiated for food safety. Have you done this, Dr. Olson?
    Mr. Olson. Now with these particular pages.
    Mr. Shimkus. All right.
    Mr. Olson. The point was that since the non-irradiated ones 
have been sitting out here for several hours that maybe----
    Mr. Shimkus. Come on now. We don't want qualifications. No 
difference. I think Popeye would approve.
    Mr. Olson. So how was the product?
    Mr. Shimkus. Not bad. I am not an expert but I know that is 
how people are buying packages now. I think that is part of the 
problem of packaging in that manner. I had a friend call me 
unexpectedly, going to drop by, a college buddy, so I run to 
the store. The thing that I can do is put steaks on the grill. 
I can get a package of salad and zap some potatoes. And that is 
a quick meal but that salad is all in a bag. It makes it easy. 
I do this for two reasons. We are moving from meat to 
vegetables, and that is why I followed up on the taste test, 
which is fine by me.
    Mr. Wegman, the selling of vegetable products, the cost of 
vegetable products, the consumer debate, what are your 
comments?
    Mr. Wegman. Let me start with the cost. I think that we 
have got a long journey but I think we should get started on 
the journey. As far as I know, to irradiate today costs $25 
million. We wanted to do that. We wanted to do our own meat 
plant and put irradiated ground beef in it which is too 
expensive for us to do it. We went with Cargill. So I think it 
is going to be a while before it gets down to that incremental 
dime whether it is ground beef, whether it is vegetables or 
lettuces. I think we need to be realistic about it.
    Mr. Shimkus. Can I follow up on that? So we want to protect 
business. We don't want to drive folks. We want to do things 
safe. So in movement to this, if we are going to move in this 
direction how do we do that without affecting real cost?
    Mr. Wegman. What I think we need is simply to take the 
barriers away. Let us figure out the economics. I mean we can 
do that with Sadeck and Cargill.
    Mr. Shimkus. But if we do a certain date like, say, 6 
months you can't do it. We can't turn. We don't have the 
equipment, we don't have the machines. The big entities will be 
buying forward so the small entities will be disenfranchised. 
So there has to be a process by which we move this through our 
economy and our food system in a gradual process so that we 
don't pick winners and losers by this process.
    Mr. Wegman. I think we accomplish it by taking away the 
barriers. Let us do it on produce. Let us take away if we want 
to talk about rare ground beef and being able to eat it. I mean 
we are going to do it this summer. We are going to find a way 
that is legal, and we are going to do it. We want to get this 
moving. I think that is--you had another question too about----
    Mr. Stupak. But let me follow up on that though. But as 
chairperson of the Food Marketing Institute you said, right, 
Food Marketing Institute safety task force, are you moving 
toward some kind of rules or regulations you would recommend to 
the Congress as we move this food safety legislation for 
irradiation? Is your task force doing something along those 
lines that could give us some insight?
    Mr. Wegman. At the moment, no. And what we are working on, 
frankly, is trying to get the growers to adhere to an audit 
process that we think takes them to a higher level without 
irradiation.
    Mr. Stupak. Sure, but the last recall we had in '06 was a 
micro-organism. E. coli was found there. You can't just clean 
it up by washing it and all that. You almost need something 
like irradiation. I think E. coli has developed strains where 
now you need more science as opposed to just the old 100-year 
process that we have done in the past.
    Mr. Wegman. That is my belief, and I think there are some 
things we can do but that is my belief.
    Mr. Stupak. Mr. Shimkus, did you have some more? Thanks for 
the gourmet lunch.
    Mr. Shimkus. No, but I would just say that you may want to 
double dog dare Mr. Whitfield because I don't think he has 
partaken.
    Mr. Stupak. You are allergic to spinach, but it is your 
time for questions.
    Mr. Whitfield. I want to thank the panel. I actually have 
just one question, Dr. Olson. Will your irradiation kill prions 
in BSE or mad cow disease?
    Mr. Olson. No. Prions are mineralized protein. They are not 
DNA or RNA and so we cannot destroy those. They are just too 
small.
    Mr. Whitfield. OK. But does that present a safety issue?
    Mr. Olson. Well, there are other mechanisms are in place, 
the rule on feed bans, the downer cow issue, the symptoms, the 
sampling programs, all those to detect and actually prevent is 
almost a public health issue again. We are going to prevent 
that problem, not try and intervene or solve the problem by 
treatment.
    Mr. Whitfield. That is all the questions I have.
    Mr. Stupak. No further questions of this panel. We will 
excuse you, and thank you again for your testimony and your 
products and your lunch. Professor Olson, let me congratulate 
you. On Monday we actually put in the 150th anniversary of the 
founding of Iowa State on the first land grant colleges. Of 
course, the first one was Michigan State University but Iowa 
State was right there too. We had that vote on Monday. We were 
just talking about it when you came up. Yes, Mr. Wegman.
    Mr. Wegman. Chairman Stupak, could I thank you and your 
committee for your work, please? This is very important to us. 
It is our life. And we are very appreciative that you are 
putting this effort into it. Thank you.
    Mr. Stupak. Thank you, but as the task force I would 
encourage you guys to develop something that we can look at, 
your task force on food safety with the food, that group you 
head up, OK? We are real interested in that. And when I mention 
Salinas Valley it makes sense. Every 6 months we are having an 
E. coli recall. Why can't we put irradiation right there where 
it is all being processed? It just makes sense to me. And I ask 
the FDA all the time do you do a epidemiology study on what is 
going on there. Oh, it might be the cow farm down there. Well, 
let us solve it. One way you can solve it is irradiation, it 
sounds like.
    Mr. Wegman. And I just wanted to add one more statement, 
and that is if we are going to deal with raw product there is 
almost no kill step except for irradiation, and so I think that 
we need to zero in on this as a public health issue where we 
can have a kill step without changing the nature of the 
product.
    Mr. Stupak. Thank you. And thank you again, everyone on 
this panel. I would now like to call up our third panel of 
witnesses to come forward. On our third panel, we have Dr. 
Stephen Sundlof, Director of FDA's Center for Food Safety and 
Applied Nutrition, and Dr. Richard Raymond, Undersecretary for 
Food Safety at USDA's Food Safety and Inspection Service, FSIS. 
Gentleman, it is the policy of this subcommittee to take all 
testimony under oath. Please be advised that witnesses have the 
right under rules of the House to be advised by counsel during 
their testimony. Do any of you wish to be represented by 
counsel? Mr. Raymond, Mr. Sundlof? OK.
    [Witnesses sworn.]
    Mr. Stupak. Thank you, and witnesses are under oath. Dr. 
Sundlof, do you want to start with your opening, please, sir?

   STATEMENT OF STEPHEN F. SUNDLOF, D.V.M., PH.D., DIRECTOR, 
  CENTER FOR FOOD SAFETY AND APPLIED NUTRITION, FOOD AND DRUG 
                         ADMINISTRATION

    Dr. Sundlof. Thank you, Mr. Chairman and members of the 
subcommittee. I am Dr. Stephen Sundlof, Director of the Center 
for Food Safety and Applied Nutrition at the Food and Drug 
Administration. Thank you for the opportunity to discuss the 
agency's efforts to enhance food safety. I am pleased to be 
here today with my colleague from USDA, Dr. Raymond.
    Food can become contaminated at many steps along the path 
from farm to fork. In recent years, FDA has done a great deal 
to prevent both deliberate and unintentional contamination of 
food at each of these steps. However, changes in consumer 
preferences, changes in industry practices, and the rising 
volume of imports have posed challenges that required us to 
adapt our current food protection strategies.
    The outbreaks in the last year and a half have underscored 
the need to develop multi-disciplinary and integrated product 
safety strategies. To address these challenges, last November 
FDA released the Food Protection Plan, which provides a 
framework to identify potential hazards and counter them before 
they can do harm. Also at that time, Health and Human Services 
Secretary Michael O. Leavitt presented to the President an 
Action Plan for Import Safety. Together these plans provide an 
updated and comprehensive approach to ensure that the U.S. food 
supply remains one of the safest in the world.
    The plans encompass three core elements: prevention, 
intervention, and response. The prevention element means 
promoting increased corporate responsibility so that food 
problems do not occur in the first place. The intervention 
element focuses on risk-based inspections, sampling, and 
surveillance at all points in the food supply chain. The 
response element bolsters FDA's emergency response efforts by 
allowing for increased speed and efficiency.
    We are working with all of our food safety partners to 
achieve the food safety enhancements identified by these plans. 
To implement the Food Protection Plan, FDA is requesting 10 new 
authorities, and we seek the assistance of members of this 
subcommittee to help obtain passage of these.
    For example, FDA is requesting the authority to require 
entities in the food supply chain to implement measures solely 
intended to protect against intentional adulteration of food by 
terrorists or criminals. We also request explicit authority to 
issue regulations requiring preventive food safety controls for 
high-risk foods. Such authority would strengthen FDA's ability 
to require manufacturers to implement risk-based Hazard 
Analysis and Critical Control Point, or HACCP, or equivalent 
processes to reduce foodborne illness from these foods.
    Some of the other legislative proposals include: 
authorizing FDA to accredit and use highly qualified, 
independent third parties to evaluate compliance for voluntary 
inspections; allowing the FDA to move the inspection of high-
risk products of concern upstream by requiring the exporting 
countries' regulatory authority or third party inspector to 
certify each shipment for compliance with FDA standards prior 
to shipment; giving FDA authority to issue mandatory recalls if 
a voluntary recall is not effective, authorizing the FDA to 
refuse admission of imported food if inspection access has been 
delayed, limited, or denied.
    In addition to numerous other outreach activities underway 
to engage our stakeholders in implementing the Food Protection 
Plan, FDA is planning to host a meeting in August with 
regulatory, epidemiology, and laboratory officials from the 
Departments of Health and Agriculture from all 50 states. This 
will provide a forum for local, state, and federal partners to 
exchange information and ideas about implementing the plan and 
enhancing domestic food safety.
    To address the ongoing issue of safety of lettuce and leafy 
greens, FDA is continuing to work with officials in California 
and with industry to assess the prevalence of factors in and 
near the field environment which may contribute to the 
potential contamination of leafy greens with E. coli O157:H7, 
and the extent to which good agricultural practices and other 
preventive controls are being implemented.
    In the fall of 2007, in cooperation with industry, state 
and local governments, and academia, FDA conducted assessments 
on farms. By identifying practices and conditions that can lead 
to product contamination, FDA and its food safety partners hope 
to improve guidance and policies intended to minimize the 
potential for future disease outbreaks, as well as to ascertain 
future food safety research, education, and outreach needs.
    As part of its Tomato Safety Initiative, FDA is continuing 
its collaboration with the state health and agricultural 
officials from Florida and Virginia, the produce industry, and 
several universities to prevent foodborne illnesses associated 
with tomatoes from those states. FDA is leading the effort to 
conduct assessment of the factors most likely to be associated 
with the previous salmonella contamination. Last summer, 
assessments were conducted in the field and at packers. Similar 
assessments will be conducted in Florida this spring. 
Information from these assessments will help inform appropriate 
preventive measures.
    With regard to imported food safety, in December, the 
Department of Health and Human Services and the People's 
Republic of China signed a Memorandum of Agreement or MOA to 
enhance the safety of food and animal feed products exported 
from China to the United States. The MOA establishes a 
bilateral mechanism to provide greater information to ensure 
that products from China meet U.S. standards for quality and 
safety. The key terms of the agreement include enhanced 
registration and certification requirements, greater 
information sharing, faster access to production facilities, 
and the implementation of key benchmarks to evaluate progress.
    FDA has also made a commitment to station inspectors and 
other agency representatives in China to increase our ability 
to carry out foreign inspections and to facilitate cooperation 
between FDA and its counterpart regulatory authorities. FDA is 
considering similar endeavors in other countries. Last month 
FDA briefed representatives from 48 embassies to discuss both 
plans and to engage their assistance in implementation.
    Mr. Chairman, thank you for the opportunity to discuss 
FDA's food safety activities. We look forward to working with 
you to obtain passage of the requested legislative authorities 
identified in the Food Protection Plan and the Import Safety 
Action Plan. And I would be happy to answer any questions.
    [The prepared statement of Mr. Sundlof follows:]
    [GRAPHIC] [TIFF OMITTED] T0332.036
    
    [GRAPHIC] [TIFF OMITTED] T0332.037
    
    [GRAPHIC] [TIFF OMITTED] T0332.038
    
    [GRAPHIC] [TIFF OMITTED] T0332.039
    
    [GRAPHIC] [TIFF OMITTED] T0332.040
    
    [GRAPHIC] [TIFF OMITTED] T0332.041
    
    [GRAPHIC] [TIFF OMITTED] T0332.042
    
    [GRAPHIC] [TIFF OMITTED] T0332.043
    
    [GRAPHIC] [TIFF OMITTED] T0332.044
    
    [GRAPHIC] [TIFF OMITTED] T0332.045
    
    [GRAPHIC] [TIFF OMITTED] T0332.046
    
    [GRAPHIC] [TIFF OMITTED] T0332.047
    
    [GRAPHIC] [TIFF OMITTED] T0332.048
    
    [GRAPHIC] [TIFF OMITTED] T0332.049
    
    [GRAPHIC] [TIFF OMITTED] T0332.050
    
    [GRAPHIC] [TIFF OMITTED] T0332.051
    
    [GRAPHIC] [TIFF OMITTED] T0332.052
    
    Mr. Stupak. Thank you. Mr. Raymond, your opening statement, 
please, sir.

STATEMENT OF RICHARD A. RAYMOND, M.D., UNDER SECRETARY FOR FOOD 
 SAFETY, UNITED STATES DEPARTMENT OF AGRICULTURE, FOOD SAFETY 
                     AND INSPECTION SERVICE

    Dr. Raymond. Mr. Chairman and members of the subcommittee, 
I am pleased to appear before you today to address the ongoing 
investigation of the Hallmark/Westland Meat Packing Company in 
Chino, California, among other issues that you have. I want to 
assure you that I am deeply concerned about the inhumane 
handling of non-ambulatory, disabled cattle in that facility. 
As soon as we learned of the problems at Hallmark/Westland we 
took immediate steps to determine if the allegations made 
public by the Humane Society of the United States were 
accurate. The USDA's Office of the Inspector General is leading 
this investigation with support from FSIS and AMS.
    Pending the conclusion of the investigation, the Secretary 
announced 2 weeks ago that we will be implementing a series of 
interim actions to verify and thoroughly analyze humane 
handling activities in all federally inspected establishments. 
We have already begun those actions. The Federal government has 
an interlocking system of controls to protect against BSE. The 
FDA's ruminant-to-ruminant feed ban which began in 1997 is the 
most significant step that the Federal government has taken to 
protect animal health. The single most important thing we can 
do to protect human health regarding BSE exposure is the 
removal from the food supply of specified risk materials or 
SRMs. These are tissues that, according to the available 
scientific evidence, could be effective in a cow with BSE.
    According to the Harvard risk assessment, the SRM removal 
process alone reduces the risk of BSE exposure to consumers by 
99 percent. After the first case of BSE was detected in the 
United States, the USDA conducted an enhanced BSE surveillance 
testing program for 2 years. During this time, only two animals 
were detected with BSE and that is out of over 759,000 high 
risk animals that we have tested to date. It is important to 
note that both of those animals were born prior to the 
initiation of the FDA's feed ban and neither of those animals 
did enter the food supply. The rule prohibiting non-ambulatory 
cattle from entering into the food supply is simply one of the 
multiple measures that we have in place. Because of these 
measures, we can be confident of the safety of our beef supply 
in regards to BSE exposure.
    I would like now to briefly highlight our efforts to 
further protect human health from foodborne pathogens. Based on 
the Centers for Disease Control and Prevention's annual food 
net data report, we are making some progress towards meeting 
the Healthy People 2010 goal regarding the incidents of 
foodborne illness, but we do know that we still have work to do 
to further reduce foodborne illness in foods that we regulate. 
Following an increase in positive product test results and 
recalls of E. coli O157:H7, which I will just refer to E. coli 
from now on. Last fall, the Food Safety and Inspection Service 
announced several new ongoing actions to protect the public 
against the risk of E. coli including expanded testing.
    It is important to keep things in perspective, however. 
Although we ended 2007 with 21 recalls due to E. coli and the 
percentage of FSIS E. coli positive samples for 2007, which was 
0.23 percent, is still well below the percentage of positives 
as recently as 2001 when it was 0.87 percent. FSIS also 
collects and analyzes samples of raw meat and poultry product 
for salmonella. Because of 4 years of steady increase in 
salmonella positive product testing results, the FSIS announced 
an 11-point risk-based strategy for salmonella reduction in raw 
products in February, 2006. We can easily see the positive 
result of this risk-based strategy. The percentage of plants 
that fall into the best performing category has increased 
dramatically from 35 percent when we announced the plan to 74 
percent at the end of 2007.
    On March 28, 2008, the agency will begin posting on its Web 
site completed verification test results from establishments 
with salmonella rates in other categories beginning with young 
chicken slaughter establishments. Very briefly, we have gone 
from approximately 17 percent of chicken carcasses testing 
policy for salmonella to about 7.4 percent in these 2 years. At 
FSIS we rely on the efforts of our partners to help us in our 
mission to protect the public's health. FSIS works in 
collaboration with the sister agencies on multi-jurisdictional 
food safety issues, whether those agencies are Federal, state 
or local entities. Two examples of these successes of the 
foodborne disease active surveillance network are Food Net and 
Pulse Net.
    These two systems allow agencies to collaborate and bring 
their specialized knowledge together to better protect public 
health. I know another area of interest for this subcommittee 
is how the agency ensures the safety of imports. FSIS uses a 
comprehensive system to ensure that imported meat, poultry, and 
processed egg products are safe and secure. Our three-part 
system includes a thorough analysis of each country's food laws 
and inspection systems to determine initial equivalence before 
they can ever export. We do on site audits of each country's 
food safety system to verify the system is implemented in 
accordance with what is in writing and then to ensure that 
equivalence is maintained on an annual basis, and our port of 
entry inspection on all FSIS-regulated meat, poultry, and 
processed egg products coming into the United States with very 
few exceptions.
    Before I conclude, if I might, I have 20 seconds left, I 
want to try to clarify something I heard earlier today 
regarding the USDA's recall classifications. I am not sure it 
still was entered in exactly correct so I am just going to read 
for you. A class 1, this is a health hazard situation where 
there is a reasonable probability that the use of the product 
will cause serious adverse health consequences or death. Class 
2 is the health hazard situation where there is a remote 
probability of adverse health consequences from the use of the 
product, and class 3, this is a situation where the use of the 
product will not cause adverse health consequences.
    So in conclusion, I will just stay that FSIS remains 
committed to improving its approach to inspection, to focus on 
public health and risk. And as a medical physician and a public 
health professional, I believe that what all of us here with a 
stake in food safety must accomplish is further protecting the 
people, especially those most vulnerable to a foodborne illness 
which includes the very young, the elderly, the immune 
compromised, and pregnant women. Again, thank you for the 
opportunity to be before you and the committee today, and along 
with Dr. Sundlof, I am happy to try to respond to your 
questions.
    [The prepared statement of Mr. Raymond follows:]

                    Statement of Dr. Richard Raymond

    Mr. Chairman and Members of the Committee, thank you for 
inviting me to appear before you today to address the ongoing 
investigation of the Hallmark/Westland Meat Packing Company 
(Hallmark/Westland) in Chino, California, and other related 
issues. I want to assure you that I am deeply concerned about 
the inhumane handling of non-ambulatory disabled cattle in that 
facility.
    I am Dr. Richard Raymond, Under Secretary for Food Safety 
at USDA. While there are a number of agencies at the Department 
working together on this matter, the Agency for which I have 
responsibility is the Food Safety and Inspection Service 
(FSIS). FSIS is the public health regulatory agency responsible 
for ensuring that meat, poultry, and processed egg products are 
safe, wholesome, and accurately labeled. FSIS enforces the 
Federal Meat Inspection Act, the Poultry Products Inspection 
Act, and the Egg Products Inspection Act, which require Federal 
inspection and regulation of meat, poultry, and processed egg 
products prepared for distribution in commerce for use as human 
food. FSIS also enforces the Humane Methods of Slaughter Act, 
which requires that all livestock at federally inspected 
establishments be handled and slaughtered in a humane way.
    As soon as the Humane Society's video was released on 
January 30, Secretary Schafer called for an investigation into 
the matter. USDA's Office of the Inspector General (OIG) is 
leading that investigation, with support from FSIS and the 
Agricultural Marketing Service (AMS). As the Secretary 
announced last week, pending the conclusion of the 
investigation, we are implementing a series of interim actions 
to verify and thoroughly analyze humane handling activities in 
federally inspected establishments.
    I remain confident in the safety of the U.S. food supply. 
To help ensure its safety, we take a number of steps to prevent 
food-borne illness. FSIS employs over 9,000 personnel, 
including 7,800 full-time in-plant and other front-line 
personnel protecting the public health in approximately 6,200 
federally-inspected establishments nationwide. FSIS personnel 
must be continuously present for slaughter operations and must 
inspect processing plants at least once per shift per day. 
Under the FSIS verification sampling program, FSIS samples 
meat, poultry, and processed egg products and analyzes them for 
the presence of microbial pathogens. In addition to its 
targeted sampling for Listeria monocytogenes in ready-to-eat 
products, the Agency has paid particular attention to E. coli 
O157:H7 in raw ground beef through the initiative announced 
last fall and salmonella in raw meat and poultry products 
through the ongoing salmonella improvement plan. To protect 
against bovine spongiform encephalopathy (BSE), the federal 
government also has an interlocking system of safeguards, which 
I will describe in more detail later.

                          Initial USDA Actions

    As soon as we learned of the problems at Hallmark/Westland, 
USDA took immediate steps to determine if the allegations made 
public by the Humane Society of the United States (HSUS) were 
accurate.
    On February 1, 2008, Hallmark/Westland voluntarily stopped 
slaughter operations. As a result of FSIS findings, FSIS 
suspended inspection at the plant on February 4, 2008. This 
action was based on FSIS findings that the establishment failed 
to prevent the inhumane handling of animals at the facility, as 
required by FSIS regulations and the Humane Methods of 
Slaughter Act.
    This suspension of inspection will remain in effect, and 
Hallmark/Westland will be unable to operate, until corrective 
actions are submitted in writing and verified through a full 
review by FSIS. This verification process will ensure that all 
animals will be handled humanely and none will be allowed to 
proceed to slaughter until Hallmark/Westland complies fully 
with FSIS regulations.
    Evidence from the ongoing investigation demonstrates that, 
over the past 2 years, this plant did not always notify the 
FSIS public health veterinarian when cattle became non-
ambulatory after passing ante-mortem (prior to slaughter) 
inspection, as is required by FSIS regulations. It is important 
to note that certain cattle, while ambulatory when they pass 
ante-mortem inspection, may later become non-ambulatory from an 
acute injury or another circumstance. If such a situation 
occurs, FSIS regulations require the public health veterinarian 
to inspect the animal again and determine that the animal did 
indeed suffer from an acute injury before the animal is 
permitted to go to slaughter. This failure by Hallmark/Westland 
led to the company's February 17, 2008, voluntary recall of 143 
million pounds of fresh and frozen beef products produced at 
the establishment since February 1, 2006.
    While it is extremely unlikely that these meat products 
pose a risk to human health, the recall action was deemed 
necessary because the establishment did not comply with FSIS 
regulations. The recall was designated Class II because the 
probability is remote that the recalled beef products would 
cause adverse health effects if consumed. This recall 
designation is in contrast to a Class I recall, which is a 
higher-risk health hazard situation where there is a reasonable 
probability that the use of the product will cause serious, 
adverse health consequences or death.

                         Safeguards Against BSE

    I am aware that this situation has raised questions about 
the risk of BSE. I would like to take this opportunity to give 
you a brief summary of the safeguards against BSE that we have 
in place to protect our food supply.
    Since the discovery of the first case of BSE in Great 
Britain in 1986, we have learned a tremendous amount about this 
disease. That knowledge has greatly informed USDA's regulatory 
systems and response efforts. It has also given us the 
opportunity to examine our own cattle herd, which is why we 
know that the risk of BSE in the United States is extremely 
low.
    As noted earlier, the federal government's interlocking 
system of controls to protect the food supply from BSE includes 
a ban on non-ambulatory disabled cattle. But that is simply one 
of the multiple measures in place.
    We have learned that the single most important thing we can 
do to protect human health regarding BSE is the removal from 
the food supply of specified risk materials (SRMs)--those 
tissues that, according to the available scientific evidence, 
could be infective in a cow with BSE. FSIS requires that all 
SRMs, including the brain and spinal cord, are removed from 
carcasses so that they do not enter the food supply. Slaughter 
facilities cannot operate their slaughter operations without 
the continuous presence of FSIS inspection personnel to ensure 
safe and wholesome product, including the removal and 
segregation of SRMs. According to the 2005 Harvard Risk 
Assessment, SRM removal alone reduces the potential exposure to 
consumers of BSE by ninety-nine percent. FSIS line inspectors 
are stationed at key points along the production line where 
they are able to directly observe certain SRM removal 
activities. Other off-line inspection personnel verify 
additional plant SRM removal, segregation and disposal. 
Moreover, FDA bans SRMs in FDA-regulated human foods (and 
cosmetics).
    Likewise, another significant step we have taken to prevent 
the spread of BSE and bring about its eradication in the animal 
population is the ruminant feed ban. In 1997, the FDA 
implemented a mandatory feed ban that prohibits feeding most 
mammalian protein to ruminants, including cattle. The feed ban 
is a vital measure to prevent the transmission of BSE to 
cattle.
    Another step is BSE testing, which is best used as a 
surveillance tool. By testing high-risk animals, including 
those that show possible clinical signs of the disease, we can 
document the effectiveness of our security measures.
    USDA's Animal and Plant Health Inspection Service (APHIS) 
has conducted targeted BSE surveillance testing since 1990, 
including an enhanced surveillance effort that was initiated 
after a cow tested positive for the disease in December 2003. 
The goal of the enhanced effort, which began in June 2004, was 
to test as many animals in the targeted population as possible 
over a 24-month period. This intensive effort detected only two 
additional animals with the disease, out of over 759,000 
animals tested. Both of those animals were born prior to 
initiation of the FDA feed ban and neither entered the food 
supply. This testing confirms an extremely low prevalence of 
the disease in the United States.
    The enhanced surveillance program provided sufficient data 
to allow USDA to more accurately estimate the prevalence or 
level of BSE within the U.S. cattle population. Based on this 
analysis, we can definitively say that the incidence of BSE in 
the United States is extremely low. APHIS continues to conduct 
an ongoing BSE surveillance program targeted to high-risk 
animals that samples approximately 40,000 high-risk animals 
annually. This level of surveillance significantly exceeds the 
guidelines set forth by the World Animal Health Organization, 
which has affirmed that U.S. regulatory controls against the 
disease are effective.
    It is because of the strong system that the United States 
has put in place that we can be confident of the safety of our 
beef supply from BSE and that the spread of BSE has been 
prevented in this nation.

                            Further Actions

    The investigation led by OIG with support from FSIS and AMS 
is ongoing. However, we are not waiting for the completion of 
the investigation to act.
    USDA has already taken a number of steps to strengthen our 
inspection system. As I mentioned above, pending the conclusion 
of the investigation, USDA has implemented a series of interim 
actions to verify and thoroughly analyze humane handling 
activities in all federally inspected establishments.
    FSIS has increased the amount of time allocated per shift 
by inspection program personnel to verify humane handling 
activities and to verify that animals are handled humanely in 
ante-mortem areas. FSIS is also conducting surveillance 
activities to observe the handling of animals outside the 
approved hours of operation from vantage points within and 
adjacent to the official premises. A notice has been issued to 
all FSIS inspection program personnel to reinforce the work 
methods for conducting humane handling verification activities 
at all levels and to ensure the greatest utility of the Humane 
Activities Tracking System (HATS) program. This began on March 
3.
    Surveillance and inspection activities are being 
prioritized and focused based on existing data such as the 
category of livestock handled at the facility, humane handling 
data, observations made at the facility during regular 
inspection and a plant's operating schedule.
    FSIS will continue to collect information in HATS, which 
provides an accounting of the time spent by FSIS inspection 
program personnel performing specific tasks and the results of 
that inspection related to humane handling and slaughter. 
Starting on March 4, 2008, FSIS inspection program personnel 
assigned to Federally inspected livestock slaughter 
establishments increased the amount of time that they spend 
conducting HATS activities from anywhere between 50-100 
percent. This increased HATS inspection will continue for 60 
days and will be closely measured during that time.
    Prioritization will help to ensure the optimal use of 
resources to ensure humane handling and food safety. FSIS is 
focusing surveillance and inspection activities at 
establishments where older or potentially distressed animals 
are slaughtered, such as facilities that handle dairy or veal 
cattle. At these facilities, the time spent performing HATS 
activities will be doubled. At facilities with contracts from 
the AMS for nutrition assistance programs, regardless of the 
type or class of the animal slaughtered, HATS verification time 
is being doubled. At facilities where non-ambulatory livestock 
are infrequently presented, such as in slaughter facilities 
that handle young market classes including steers, heifers, 
market hogs, and lambs, an additional 50 percent of HATS 
verification time may be required. At least once every two 
weeks, a District Veterinary Medical Specialist or a district 
analyst is verifying that inspection personnel at each official 
livestock slaughter establishment are conducting the 
appropriate increase in HATS verification time. Any plant found 
not to be in compliance will be reported to the in-plant 
supervisor and the frontline supervisor.
    Meanwhile, FSIS will begin reviewing the HATS to determine 
what, if any, adjustments are needed to maximize its utility as 
a tracking tool to improve compliance.
    FSIS is currently auditing all 19 beef slaughter 
establishments that participate in AMS's nutrition assistance 
program. This is the first in a set of audits we will be 
conducting. We expect to complete that audit by the end of the 
week, when we will begin to analyze the results.
    The investigation being led by OIG with support from FSIS 
and AMS is ongoing. Once the investigation has concluded, we 
will have additional information that, along with the results 
of the additional verification activities, will determine the 
actions for FSIS oversight, inspection and enforcement that may 
be required.

                  Efforts to Fight Foodborne Pathogens

    In addition to BSE, I wanted to take this opportunity to 
report to the Subcommittee some of the Agency's activities 
regarding some specific foodborne pathogens. Based on Centers 
for Disease Control and Prevention's (CDC) annual FoodNet data 
report, we are making some progress toward meeting the Healthy 
People 2010 goals regarding the incidence of foodborne illness, 
though we know we still have work to do to further reduce 
foodborne illness.
    FSIS' verification sampling is a critical method the agency 
uses to collect data and is a good example of how we have taken 
a more risk-based approach. The agency's verification sampling 
program, FSIS samples meat, poultry and processed egg products 
and analyzes them for the presence of microbial pathogens. 
However, the agency has paid particular attention to E. coli 
O157:H7 in raw ground beef and salmonella in raw meat and 
poultry products through the E. coli O157:H7 initiative 
announced last fall and its ongoing salmonella strategy.
    The new, ongoing actions we have undertaken to protect the 
public against the risk of E. coli O157:H7 include expanded 
testing. By March 2007, FSIS had already begun testing trim, 
the primary component in ground beef, in addition to ground 
beef itself. However, as a result of an increase in E. coli 
O157:H7-positive samples, the subsequent increase in the number 
of E. coli O157:H7-related recalls, and the increase in human 
illnesses linked to these recalls, FSIS implemented a number of 
initiatives to combat E. coli O157:H7.
    In July 2007, after an unusual number of E. coli O157:H7 
positives the month before, FSIS substantially increased the 
number of raw ground beef samples scheduled for July from 1,100 
to 1,943--an increase greater than 75 percent. After seeing 
nothing unusual in the positive sample rate in July, FSIS began 
scheduling samples for every raw ground beef establishment once 
per month (i.e., approximately 1,350 samples per month).
    On October 26, 2007, FSIS inspection program personnel 
began testing additional components of ground beef. By testing 
earlier in the production chain, FSIS minimizes the likelihood 
that this contaminated source material will be used in ground 
beef that is available to consumers. FSIS began requiring 
countries whose beef is imported to the United States to 
conduct the same trim and beef component sampling or an 
equivalent measure, and the agency has begun verification 
sampling of trim at ports of entry to supplement the agency's 
sampling of ground product at ports of entry. We will be 
analyzing imported and domestic product test results to 
determine whether we need to make further changes to FSIS 
policies and programs.
    Other key initiatives targeted to Federally-inspected 
plants that produce raw beef products include verifying control 
of E. coli O157:H7, the creation and use of a new checklist for 
verifying control, targeted sampling for E. coli O157:H7 at 
slaughter and grinding facilities based on production volume 
and pathogen controls, follow-up sampling of 16 samples and 
conducting food safety assessments for plants with a Federal or 
State positive E. coli O157:H7 test result, and refinement of 
the agency's E. coli O157:H7 test method to provide a more 
sensitive test that will detect E. coli O157:H7 at even lower 
concentrations. All of these policy changes mean that FSIS will 
be better able to identify an emerging problem as early as 
possible and will be able to prevent contaminated product from 
entering commerce.
    The agency is completing a more in-depth analysis of the 
data captured in responses to questions, filled out by FSIS 
inspection program personnel, about reassessment of HACCP plans 
related to E. coli O157:H7. Our preliminary data, completed in 
November 2007, shows that almost 96 percent of all beef 
slaughter and processing establishments reassessed their HACCP 
plans. We are analyzing these responses, and we anticipate that 
the analysis will lead to new policies, directives, or possibly 
rules and regulations.
    In the wake of these progressive E. coli O157:H7-related 
policy changes, FSIS determined that steps were also needed to 
ensure that inspection program personnel and the industry fully 
understand the nature of the challenge presented by E. coli 
O157:H7. We are developing a strong, ongoing strategy to 
evaluate the success of our training program. Through the In-
Plant Performance System, AssuranceNet management controls, and 
reports from district analysts, the agency is ensuring that 
inspection program personnel are doing their jobs correctly, 
are held accountable, and have appropriate workloads and 
supervision.
    As with any policy or program change, FSIS is making sure 
that we educate and receive feedback from our public health 
partners and stakeholders regarding our E. coli initiatives. 
For example, on October 17, 2007, FSIS, FDA, and CDC hosted a 
public meeting regarding E. coli serotypes other than O157:H7 
that are related to foodborne illness. In October and November, 
2007, FSIS targeted outreach and training sessions around the 
country for small and very small raw beef processors. On 
January 23, 2008, FSIS participated in a meeting with the 
American Meat Institute Foundation and the National Meat 
Association about E. coli O157:H7 surveillance and prevention.
    We will continue to work to identify the cause of the 
recent increase in E. coli O157:H7 illnesses and recalls, and 
to find a permanent, workable solution to the issue. Thus, we 
are planning a public meeting for April 2008, focused on a 
discussion with representatives from science, academia, 
industry, consumer groups and government, about the increase in 
illnesses and recalls attributed to E. coli O157:H7. This 
meeting will provide updates on FSIS initiatives and build a 
foundation for establishing solutions to address the challenges 
posed by this pathogen.
    In mid-May, FSIS will hold a meeting with its State and 
local public health partners, including FDA, CDC, industry and 
consumer groups, about how to improve the effectiveness and 
efficiency of outbreak investigations and recalls conducted by 
FSIS in collaboration with these partners. Every E. coli 
O157:H7-related recall last year showed me something that we 
can improve, and I hope that these meetings will get everyone 
to start thinking about how to improve the coordination, 
accuracy, and timeliness of communication and food safety 
activities, specifically outbreak investigations and recalls.
    Another important step in that direction is USDA's 
announcement on February 5, 2008, that the Department agreed to 
grant a conditional license to Bioniche for its E. coli O157:H7 
Cattle Vaccine. This is the world's first vaccine that may be 
used as an on-farm intervention to reduce the amount of E. coli 
O157:H7 shed by cattle.
    It is important to keep things in perspective. Although 
last year we observed a rise in E. coli O157:H7-positive 
samples and recalls, because of new policy implementation and 
closer oversight and by working with industry, USDA has made 
tremendous progress in controlling E. coli O157:H7 overall. In 
fact, between 2002 and 2006, FSIS testing shows the percentage 
of samples testing positive for E. coli O157:H7 declined by 
78.3 percent. During this time there was also a reduction in 
illnesses attributed to E. coli O157:H7. There was a slight 
increase in 2006, but several of those illnesses were 
attributed to food outbreaks that were not related to meat 
products.
    FSIS instructed plants to reassess their food safety plans 
in 2002. As a result of industry's hard work and commitment to 
making safer products, we saw the rates of positive samples 
decrease in 2002, 2003 and 2004, remaining at 0.17 percent for 
2005 and 2006. To put that percentage into perspective, out of 
12,000 samples taken in 2006, only 20 were positive for E. coli 
O157:H7.
    Although we ended 2007 with 21 recalls due to E. coli 
O157:H7, the percentage of E. coli O157:H7 positive samples for 
2007--0.23--was still well below the percentage of positives 
during the 2000--2003 timeframe.
    As another part of the agency's verification sampling 
program, FSIS collects and analyzes samples of raw meat and 
poultry product for salmonella. In response to this continued 
foodborne threat, in February 2006, FSIS announced an 11-point, 
risk-based strategy for salmonella reduction in raw products. 
The initiative included targeting resources at establishments 
with higher levels of salmonella and changed the reporting and 
utilization of FSIS' salmonella verification data test results.
    We can easily see the positive results of this risk-based 
strategy. If we compare the plant categories based on broiler 
carcasses analyzed for salmonella in 2006 to 2007, we see that 
the percentage of plants in Category 1, or those with sampling 
results amounting to half or less than half of the current 
standards, increased dramatically, from 49 percent to 74 
percent. Likewise, the percentage of plants in Category 3 
decreased significantly from 10 percent to two percent. 
Essentially, the percentage of young broiler carcasses that 
tested positive for salmonella decreased by 50 percent--from 16 
percent to 8 percent.
    Earlier this year, FSIS announced further changes in its 
salmonella policy to continue driving down the incidence of 
salmonella in poultry. On March 28, 2008, the agency will begin 
posting on its Web site completed verification test results 
from establishments performing in Category 2 or 3, beginning 
with young chicken slaughter establishments. The agency will 
also offer specific waivers to Category 1 establishments. With 
these waivers, those establishments with the lowest salmonella 
rates will be able to test new procedures, equipment, or 
processing techniques that will facilitate improvements in the 
ongoing control of salmonella.

                Coordination with Public Health Partners

    In conjunction with CDC, FDA, and epidemiologists and 
public health laboratories in several States, FSIS continues to 
build upon existing data in the Foodborne Diseases Active 
Surveillance Network, or FoodNet, which conducts active 
surveillance of foodborne diseases, case-control studies to 
identify risk factors for acquiring foodborne illness, and 
surveys to assess medical and laboratory practices related to 
foodborne illness diagnoses. FoodNet data are also used to 
evaluate progress toward meeting CDC's Healthy People 2010 
national objectives for foodborne infections.
    A sister system of FoodNet is PulseNet, a collaborative 
national computer network of public health laboratories that 
link seemingly sporadic illnesses together and enable public 
health officials to more quickly identify and respond to multi-
State illness outbreaks. In fact, through the use of PulseNet, 
we are able to identify seemingly unrelated foodborne illnesses 
as actual outbreaks more quickly. Prior to PulseNet, many of 
these outbreaks would not have been recognized as outbreaks. 
These two systems allow agencies to collaborate and bring their 
specialized knowledge together to better protect public health.
    FSIS also takes every opportunity to diversify and improve 
the data submitted to CDC's PulseNet. On August 30, 2007, FSIS 
and the Agricultural Research Service (ARS) signed a memorandum 
of agreement in order to share data on salmonella. 
Specifically, the cooperative agreement served to set 
requirements related to the submission of salmonella strains 
and carcasses from the FSIS/Pathogen Reduction, HACCP 
Verification, Baseline, and other programs to ARS for testing. 
ARS tests include Pulsed-Field Gel Electrophoresis, which helps 
to determine the so-called DNA fingerprint of a pathogen; 
antimicrobial susceptibility tests; and other laboratory sub-
typing procedures.
    We are committed to working with all of our food safety and 
public health partners to use the data that is available and 
seek more data to be able to attribute illnesses to specific 
foods. To cite one important example, we held a public meeting 
in April 2007 with our stakeholders and partners and engaged 
them in a discussion about the importance of foodborne illness 
attribution data, how this data is being developed, and how it 
is being used. Because we believe attribution is important in 
public health decision making, we are pioneering the use of 
attribution data in our evolving public heath risk-based 
approach to inspection.

                 How FSIS Ensures the Safety of Imports

    I know another area of interest for the Subcommittee is how 
the Agency ensures the safety of imports. FSIS uses a 
comprehensive system to ensure that imported meat, poultry, and 
processed egg products are safe and secure. The three-part 
system includes a thorough analysis of each country's food laws 
and inspection systems to determine initial equivalence; on-
site audits of each country's food safety system to verify that 
the system is implemented in accordance with what is in 
writing, and then to ensure equivalence is maintained; and 
port-of-entry inspection on all FSIS-regulated meat, poultry, 
and processed egg products coming into the United States, with 
a few exceptions. The amount of FSIS-regulated meat and poultry 
imports has remained approximately the same over the past five 
years, hovering around four billion pounds of meat and poultry 
from 29 of the now 34 eligible countries, approved through 
rulemaking.
    In addition to the initial re-inspection of product 
entering the United States, FSIS performs intensive random re-
inspection on approximately 10 percent of the shipments of meat 
and poultry products. These re-inspection tasks include product 
examinations, microbiological analysis for pathogens, and/or a 
test for chemical residues.
    Approximately five percent of shipments of imported meat 
and poultry products receive microbiological and chemical 
verification testing. This system is enhanced by FSIS' Import 
Surveillance Liaison Officers, who conduct a broad range of 
surveillance activities at import facilities and in commerce, 
and serve as liaisons to improve coordination with other 
agencies like U.S. Customs and Border Protection.
    Access to the U.S. Customs and Border Protection's 
Automated Commercial Environment (ACE) database has provided 
FSIS a more targeted approach to identifying and controlling 
ineligible entries of FSIS-regulated product closer to the 
entry point, rather than after its release into commerce. In FY 
2005, prior to FSIS' use of the ACE system, the amount of 
ineligible product removed from commerce that did not pass 
through import houses was a little over 36,000 pounds. In FY 
2006, this amount increased to 1.6 million pounds, and in FY 
2007, 2.1 million pounds was identified, destroyed, or 
redirected to FSIS for re-inspection.

               Interagency Working Group on Import Safety

    Recently, I represented USDA in the Interagency Working 
Group on Import Safety, helping to determine which aspects of 
the U.S. food safety system can be strengthened. The President 
formed this Working Group to conduct an across-the-board review 
of import safety by U.S. importers, and by Federal, State, and 
local governments. It was also given the task of providing 
recommendations to the President that will help to further 
improve the safety of imported products.
    In September 2007, the Working Group issued a strategic 
framework for doing more to ensure the safety of imported 
products. This framework outlines a risk-based approach that 
includes the principles of prevention, intervention, and 
response. The framework supports USDA's long-standing approach 
to evaluating and verifying the ability of foreign food safety 
systems to meet food safety requirements for meat, poultry, and 
processed egg products exported to the United States.
    On November 6, 2007, the Working Group released an 
implementation action plan containing 14 recommendations and 50 
action steps. The Working Group provided specific short- and 
long-term recommendations for import safety improvements and 
reflected stakeholder input received through several outreach 
activities, as well as from a public meeting that was held on 
October 1, 2007, at USDA headquarters here in Washington. The 
Administration is working toward implementation of the Working 
Group's recommendations. Progress is being measured by each 
action step.

           Continued Evolution of Inspection and Use of Risk

    Because of my medical background and passion for public 
health, I have pursued the issue of how best to use risk in 
inspection. It has been a healthy debate. I believe this open 
and frank debate on risk needs to be expanded to include all 
foods.
    We need to continue to pursue these looming questions: 
Where is the risk greatest and where do inspection and other 
resources belong? Not all food products are equal from a risk 
standpoint. I am encouraging all food safety partners to join 
together and assess all foods and ensure that we are getting 
the best return for the Federal investment in food safety for 
the American public.
    Higher risk products and processes would appear to warrant 
a higher level of effort to ensure measures are in place and 
put into action to control pathogens, lowering the likelihood 
of foodborne illness. While inspection may be critical for some 
plants and products, a system of audits may be acceptable for 
products with less inherent risk, or processes with less risk 
or hazards, where established methods have proven effective to 
control pathogens.
    We need to develop a uniform, consistent process to 
determine when and where inspection is warranted, based on the 
inherent risk of the product and a plant's demonstrated control 
of that risk, and when and where audits are sufficient. I hope 
that we will collectively ask the tough questions and come up 
with answers for a new approach to inspection based on public 
health and risk.

                               Conclusion

    FSIS is committed to improving its approach to inspection 
to focus on public health and risk. As a medical doctor and a 
public health professional, I believe that what all of us with 
a stake in food safety must accomplish is protecting people, 
especially those most vulnerable to a foodborne illness--the 
very young, the elderly, the immune-compromised and pregnant 
women.
    Again, thank you for the opportunity to appear before you 
today. I am now happy to take your questions.
                              ----------                              

    Mr. Stupak. Thank you. The Federal Register which had those 
classifications were made part of the record earlier because 
there was some confusion on different classes so thank you. I 
said in my opening though that one of the things I try to do as 
chairman and members of this subcommittee, when we have 
companies, government agents, and agencies and other 
individuals come before the committee we expect them to follow 
through on promises they make. And we will do a follow-up. We 
will bring them back if we have to. So let me start, Mr. 
Raymond, with a matter last year in November, at our hearing 
last November. Mr. Inglejohn, who is here today, testified 
about approving carbon monoxide packaging. And we pointed out 
that the studies that microbial submitted as part of the 
approval process were flawed, and we were told that Mr. 
Inglejohn said he would re-examine FSIS approval and get back 
with us because there was denial and it wasn't--whether it was 
treated with carbon monoxide or not the microbials were going 
down and the studies were flawed. We acknowledged that on the 
record.
    So whatever happened, how come you haven't got back with 
us? Have you reviewed that study that we brought up in 
November?
    Dr. Raymond. I don't know why we didn't get back to you but 
I commit to you and promise to you that we will very shortly. I 
know we have re-looked at all the data between that testimony 
and today, and we have found continuing evidence that the 
microbials do go down in number and time in products treated 
with the MAP program.
    Mr. Stupak. But it showed the same thing without the MAP 
program too, so that was the flaw we were showing. But anyway, 
when will you get back to us? Give me a date. When can you get 
back to us on this?
    Dr. Raymond. Two weeks.
    Mr. Stupak. Two weeks. OK. I am going to hold you to that. 
In early February you mentioned Westland/Hallmark. How did you 
learn about this Westland/Hallmark? Were you notified by the 
Humane Society? How did USDA learn of this?
    Dr. Raymond. The Washington Post informed us, sir.
    Mr. Stupak. OK.
    Dr. Raymond. That they had the videotapes.
    Mr. Stupak. OK. And did you see the videotapes?
    Dr. Raymond. Yes.
    Mr. Stupak. OK. Have all the videotapes been turned over to 
USDA?
    Dr. Raymond. I don't know that all videotapes they have in 
their possession have been turned over. I cannot say that.
    Mr. Stupak. Were you here today when we showed the earlier 
videotapes?
    Dr. Raymond. Yes, I was, sir.
    Mr. Stupak. You have seen those prior to today's hearing?
    Dr. Raymond. Yes, I have.
    Mr. Stupak. They have been in the public domain for some 
time, right?
    Dr. Raymond. I know the first one has. I will be honest 
with you, I have not seen the second one in the public domain. 
That is not to say that it is not. I don't mean to be----
    Mr. Stupak. Sure. Did USDA find that Westland/Hallmark 
illegally slaughtered downed cattle? Have you made that 
finding?
    Dr. Raymond. If I might, I would also like to clarify the 
definition of downer. A downer cow is a cow that when it 
presents for antemortem inspection cannot rise on its own and 
ambulate. That technically is a downer cow. Cattle that have 
been inspected by the veterinarian, both at rest and in 
ambulation, in movement, to be fit for the food supply may for 
whatever reason not be able to get up later, and as you heard 
earlier, if the veterinarian inspects that animal and can 
determine that it is due to an acute--it can go in the food 
supply.
    Mr. Stupak. Correct.
    Dr. Raymond. That is not what we would call a downer. We 
would call that a non-ambulatory.
    Mr. Stupak. OK. During USDA's inspection, did you find 
Westland/Hallmark illegally slaughtered non-ambulatory cattle?
    Dr. Raymond. Yes, we did, sir.
    Mr. Stupak. And since 2004, I think the records showed 
earlier, that has been U.S. law, you cannot slaughter----
    Dr. Raymond. January, 2004, an interim rule was put into 
action.
    Mr. Stupak. OK. Let me ask you this. You saw the videos 
today. Were any of the cattle that we saw or cows in the video 
today, were they slaughtered illegally based on the videos you 
saw today?
    Dr. Raymond. They were slaughtered in non-compliance with 
our regulations, yes, sir.
    Mr. Stupak. OK. At our previous hearing, we heard testimony 
that the USDA veterinarian who conducted the antemortem 
inspections at Westland/Hallmark only inspected cattle twice a 
day, 6:30 a.m. and 12:30 p.m. That was on the first video we 
saw today. Further, he performed these inspections the same 
time every day according to the videos. What was that inspector 
doing then the rest of the day?
    Dr. Raymond. First of all, the statement that he inspected 
the animals only 6:30 and 12:30 comes from the Humane Society. 
We are doing our own investigation to determine the accuracy of 
that statement. Our inspectors, veterinarians and other 
inspectors, are instructed to go out into the pen area 
periodically during the day at different times unannounced to 
observe handling. But to answer your question, the public 
health veterinarian in this particular plant also has other 
duties that are off line that take him into the plant not the 
least of which is examining all the carcasses postmortem.
    And it wasn't mentioned this morning but about 20 carcasses 
per day in that plant are condemned postmortem because he sees 
things once the hide is off that would pull that animal out, so 
that is one of the very important things that he does plus 
other, the HASA procedures, the SOSP procedures.
    Mr. Stupak. How many inspectors did you have at Westland/
Hallmark?
    Dr. Raymond. Five, sir.
    Mr. Stupak. And have some of them been disciplined as a 
result of your investigation at Westland/Hallmark?
    Dr. Raymond. I cannot talk about personnel issues at this 
particular point in the investigation.
    Mr. Stupak. The question was were they disciplined, yes or 
no.
    Dr. Raymond. I can't discuss personnel issues at this point 
in time in the investigation.
    Mr. Stupak. According to the newspapers, three of them were 
disciplined. Any reason to say that newspaper was wrong?
    Dr. Raymond. I really can't discussion personnel issues.
    Mr. Stupak. All right. What type of surveillance was there 
in the cattle pens when the inspector was not there? Do we have 
any--if an inspector isn't there, is there any USDA inspection 
going on in these cattle pens?
    Dr. Raymond. Not on a continual basis, no.
    Mr. Stupak. You mentioned you were a professional public 
health officer. Professor Olson mentioned that before FDA--I 
know it is an FDA question but for 9 years they have had this 
petition going since 1999 on irradiation. As a professional 
health public official, wouldn't you want to see that petition 
acted upon on irradiation? Should it take 9 years?
    Dr. Raymond. The beef are USDA also so I find a lot of 
things about the Federal government as a public health official 
to be slow and sometimes that is good because everybody gets a 
chance to have a voice and explain their thoughts and so forth. 
I do find it problematically slow as a public health official, 
including at the USDA.
    Mr. Stupak. Right. And now you are part of the government 
so----
    Dr. Raymond. Yes.
    Mr. Stupak [continuing]. Wouldn't you expedite and try to 
get that process moving forward instead of 8 or 9 years?
    Dr. Raymond. Yes, sir.
    Mr. Stupak. Because I think as the professor said if it 
wasn't for public health officials, we probably wouldn't have 
had pasteurization and other advances in science and 
technology. It has been reported that--it is going into a 
personnel issue again but let me try it. Supervising 
veterinarian at Westland/Hallmark had worked on site for 20 
years. It has also been reported that in the 1990s Hallmark 
faced scrutiny for the way it handled downer cattle. Further, 
in 2005 as testimony showed today USDA cited the company for 
non-compliance for being overly aggressive in using electric 
prods to move cattle. If the veterinarian was present during 
these times why wasn't he putting forth these complaints or 
being more diligent to make sure that downer cows or cattle 
were not being mistreated or illegally slaughtered?
    Dr. Raymond. If our veterinarian had seen any of these 
actions that plant would have been--the inspection would have 
been suspended, and that plant, as we did in 12 plants last 
year when our public health veterinarians or other inspectors 
did see egregious inhumane handling, we do take it serious and 
we did shut 12 plants last year because of it. He evidently did 
not see it in this plant, but again that is part of the 
investigation.
    Mr. Stupak. I mentioned he has been there for 20 years. So, 
Dr. Raymond, USDA inspectors are often assigned to facilities 
for years on end. Do you believe that this practice can 
compromise their role as a regulator? In other words, does 
their loyalty shift from the government to the company they are 
supposed to regulate?
    Dr. Raymond. I understand your question, and I would 
certainly hope that would not because of the levels of 
supervision that they have. They are not out there all by 
themselves. They have supervisors that overlook their work. The 
in-plant inspector in charge is overlooking a line inspector. 
We have the district managers, deputy district managers all the 
way to the assistant administrator for the office of field ops.
    Mr. Stupak. Let me ask you this, and then I will it turn 
over to my friend, Mr. Shimkus, for questions. There has been 
an alarming jump in the number of recalls and illness 
associated with E. coli contaminated meat. In 2007 alone there 
were 21 recalls of meat products due to being tainted with this 
deadly pathogen. These recalls affected about 33 million pounds 
of meat. And then you look back one year to 2006 with E. coli 
contamination, we had 8 recalls and just over 155,000. Why the 
dramatic increase?
    Dr. Raymond. I think that is a multi-part answer, sir, and 
it does concern me greatly, and that is why we have announced 
several new E. coli initiatives including several meetings with 
other experts, scientists, industry, consumers, et cetera. But 
to try to answer your question, there are several factors. One, 
we have a more sensitive test when we test for E. coli. Half of 
those 21 recalls were due to product tested positive. We 
tested, and we have a more sensitive test now. I think you are 
going to continue to see that part of recalls increase as this 
test gets more widely used, number 1.
    Number 2, we changed the way we do recalls last year. I was 
unhappy with some of the--I don't know if you want to call them 
policies--that FSA has had in place, that they did not do 
recalls until certain things all lined up. And I said that is 
too long. As a public health official, I can't wait that long. 
We are going to do them quicker, and so we did some recalls 
last year that would not have happened the year before. I think 
we do a better job of linking seemingly unrelated illnesses 
together because of Pulse Net, which I referenced very briefly 
in my opening comment. That is a technique that allows us to 
take a case of E. coli foodborne illness in Minnesota and link 
it to one in Michigan and hopefully find the product and we do 
the recall. We couldn't have done that 10 years ago. That 
didn't all happen last year. I am not saying that is why last 
year, but we do a better job there.
    I do believe the health professionals are doing much more 
testing than they used to when people do have signs and 
symptoms of foodborne illnesses. We work hard with them for 3 
years telling them the more tests you do the better attribution 
we can get, the better attribution we have the better we can 
find what the solutions are to fix this problem. A lot of 
physicians and other health care professionals were reluctant 
to order a stool culture for the cost if the patient didn't 
look that ill so we are seeing twice as many tests being done 
as we did just a couple years ago, and, quite frankly, the 
patients are more concerned about this, the victims. The people 
that get the GI symptoms are thinking foodborne illnesses 
because of all the publicity and they run to the health care 
provider more quickly and they get attention more quickly, so I 
think the numbers are up because of those reasons.
    All that said, the product testing went up last year, pure 
and simple. It went up last year. I believe personally, and I 
have no science to back this up. I will tell you right now this 
is Raymond's theory that the E. coli load on the cattle has 
gone up, and I believe the interventions that we have in place 
in the plants are now being overwhelmed by a higher number of 
contaminants of E. coli on the hides and ultimately on the 
carcasses and in the intestines of these animals. We need to 
get that number down or find better in-plant interventions or 
use irradiation as you have already heard. I don't believe 
industry got sloppy and I sure don't believe our inspectors 
fell asleep at the switch. I do believe the load became higher 
because of changes in the feed, changes in the environment, 
maybe changes in the bug itself. Maybe it has developed a 
resistance. Some of the lactic acid washes, for instance, that 
we use, same as staphylococcus has developed a resistance to 
penicillin. Bugs do do that.
    Mr. Stupak. OK. That was Raymond's theory. Answer me this 
one, Stupak's theory. What happened here with Westland/Hallmark 
here? What happened? You call them up. You gave them 4 to 5 
hours the testimony was and they agreed to the recall even 
though you had a 10-day period. And they asked for the video 
that you said that USDA had, and according to Mr. Mendell he 
never saw that video. What convinced Hallmark to do the 140 
million pound recall based on a phone call? What else did the 
USDA have that would a company where this gentleman spent his 
whole life building up basically go down based on a phone call, 
what else is there? How are you that convincing? What are we 
missing?
    Dr. Raymond. There are no smoking guns if that is what you 
are after. We obviously interviewed many employees and also not 
just employees, the plant and our employees, but also the truck 
drivers that hauled the cattle there, the buyers that bought 
the cattle. We threw out a wide net and interviewed a lot of 
people, and we found evidence. Allowing an animal that became 
acutely disabled to go into the food supply without being 
inspected by the public health veterinarian was not an isolated 
incident. It was not a common incident but it happened enough 
that we knew we had a problem. We told the gentleman that. We 
did not show him the film that day. We had to look at it 
because of the investigation but he didn't ask a second time.
    But I want to clear up the 10-day thing also. We didn't say 
do it in 10 days or it will be worse. What we said was you can 
do a voluntary recall now or tomorrow we will detain the 
product and in 10 days we begin the process to detain it. But 
we would have gone into action the next day.
    Mr. Stupak. So it was based upon your investigation that it 
was more than just the 2 cows we pointed out today.
    Dr. Raymond. Yes.
    Mr. Stupak. OK. Thank you. Mr. Shimkus. Sorry I went over 
my time there.
    Mr. Shimkus. You are the chairman and you have the gavel. A 
couple questions, and as prepared as I want to be because of 
the questioning and answering, I am scattered all over the 
place, so let me start with this. The 12 plants that were 
closed down last year, what is their status today?
    Dr. Raymond. They are operating.
    Mr. Shimkus. And have you, the USDA, have you--in the last 
hearing I talked about there was I think from USDA 12 
facilities operating, 10 were positive, I mean 10 were found to 
have problems, 2 had slaughtered downed cattle. In the OIG 
inspector's report, that issue. I mean it does make the case 
that 10 were fine. There are always problems. Let me go to the 
question my chairman mentioned. I understand you can't answer 
personnel questions but a follow-up on this. Is the 
investigation ongoing?
    Dr. Raymond. Yes, sir.
    Mr. Shimkus. That is why you are not going to answer it?
    Dr. Raymond. Yes, sir.
    Mr. Shimkus. OK. Then that is a better response than it is 
over and we just don't want to tell you. Let me go to it. This 
is also another follow-up question. What specific evidence did 
USDA have in early February against Westland/Hallmark to 
warrant this recall? Was it just the public videos we have seen 
today or did USDA have conclusive evidence that these downed 
cows were slaughtered and that their meat entered the food 
supply and was sold to customers?
    Dr. Raymond. Our decision to ask them to do a voluntary 
recall was based on not only the video but also on multiple 
interviews with plant employees, our employees, and other 
providers around the plant. The video, when we saw the video 
what that really did was authenticated the interviews that we 
had done which at that point in time was sworn testimony but 
yet to shut a plant down of that size and do what we did the 
video authenticated the interviews and that is when we took 
action.
    Mr. Shimkus. Do you have any evidence that the meat entered 
the food supply and was sold to customers?
    Dr. Raymond. Yes, sir. I mean Mr. Mendell made the comment 
that some of those animals may have been condemned postmortem. 
Of course, I don't know which ones were in those 20 but we 
certainly cannot say it did not enter commerce. I think it is a 
reasonable statement to assume it did enter commerce, some of 
it. I don't know that.
    Mr. Shimkus. You don't know that either. You don't know 
that it entered. You don't know that it did not enter. And is 
that why it is a class 2 versus a class 1?
    Dr. Raymond. No. The reason it is a class 2 is because the 
risk of that--the animal you saw in the video, let us just 
assume for a moment that it went into commerce.
    Mr. Shimkus. But we don't know that. That is the whole 
point. We don't know that it actually went in. I mean you are 
making an--part of my other line of questioning was it would be 
better for me to have a tape that said here is the cow coming 
off the truck, they are doing everything bad and evil and 
malicious and inhumane. They drag it into the kill box. The 
animal gets killed. The animals gets processed. It goes past 
the postmortem inspection and it has been ground up and it is 
in hamburger. But we don't know that. I hear there are more 
tapes but I don't--it is a You Tube generation but I can 
guarantee you I am not You Tubing for meat processing recall. 
Maybe I should as ranking member. Maybe that is what I should 
be doing at night. But I hadn't seen that second tape.
    Dr. Raymond. If I may. When the investigation is complete, 
you will see evidence that will assure you we did what we had 
to do, number 1. Number 2, this product entered that 
establishment in violation of our regulations, and our 
regulations are there for a reason and that is to protect the 
food supply as well as we can. It entered the food chain in 
violation of our regulations. That is why it is a class 2.
    Mr. Shimkus. Does a class 2 mean that it is a public health 
threat?
    Dr. Raymond. There is a remote probability that consumption 
of this product may cause serious adverse health events.
    Mr. Shimkus. I will give back the balance of my time.
    Mr. Stupak. OK. Mr. Whitfield for questions, please.
    Mr. Whitfield. Yes. Thank you, Mr. Chairman. Mr. Raymond, 
in your testimony on page 1 you indicate all of the various 
acts that FSIS enforces, and you also say that it enforces the 
Humane Methods of Slaughter Act, which requires that all 
livestock at federally inspected establishments be handled and 
slaughtered in a humane way. Now all of the testimony indicates 
that this Hallmark plant was closed at Chino because it 
violated FSIS regulations and there was a class 2 recall 
because there was a remote possibility that the meat was 
contaminated, is that correct?
    Dr. Raymond. We initially suspended inspection at this 
plant on February 4 because of violation of the Humane Handling 
Act. It was subsequent to that that we suspended the inspection 
because of the illegal entry of the----
    Mr. Whitfield. OK. So initially it was suspended because of 
the Humane Handling Act?
    Dr. Raymond. That is correct, sir.
    Mr. Whitfield. OK. And so you all take the Humane Handling 
Act very seriously just as well as you do the food safety?
    Dr. Raymond. Absolutely.
    Mr. Whitfield. OK. Now what kind of training do inspectors 
receive as it relates to humane handling?
    Dr. Raymond. Depending what their inspection level is and 
where they would be working, there is variable degrees. First 
of all, the public health veterinarians, of course, that are 
mostly the ones that are going to be noting these activities 
are trained professionals. They have gone to veterinary medical 
school where they have been taught humane handling methods 
throughout their education and probably practiced them in the 
field for a while before they came to work with us. The other 
non-veterinarian inspectors are going to go through I don't 
know how many hours. I can find out for you and get back to 
you. I don't know the exact--but they all receive training. The 
on-line inspector is going to do a whole lot less looking for 
inhumane activities because he or she is in the plant and not 
out----
    Mr. Whitfield. And how many inspectors are in that plant in 
Chino, how many inspectors were there?
    Dr. Raymond. There were five inspectors, sir. Three were 
on-line and two were off-line.
    Mr. Whitfield. So three on-line, two off-line, and then one 
veterinarian?
    Dr. Raymond. I included the public health veterinarian in 
the two off-line. Sorry.
    Mr. Whitfield. OK. Now you said that a downer cow is a cow 
that at the point of antemortem inspection cannot be 
ambulatory, is not ambulatory.
    Dr. Raymond. That is correct, sir.
    Mr. Whitfield. At what point is the antemortem inspection 
made?
    Dr. Raymond. It is made before the animal is allowed to 
enter the knock box. It is generally made some time the day of 
slaughter. It may be a few hours before the animal actually 
goes to the knock box.
    Mr. Whitfield. So that point is right next to the knock 
box, it is right there?
    Dr. Raymond. It is in the yard. It is in the pens. 
Depending on the size of the plant. There may be a plant that 
slaughters 10 cows a day and it would be right next to it. In a 
large plant it might be 10 pens away.
    Mr. Whitfield. But if a cow went past that point and was 
ambulatory and then for some reason the leg was broken and went 
down in order to get it to the knock box they would have to 
move it some way.
    Dr. Raymond. It would have to be humanely handled after the 
veterinarian came out and examined it at the spot where it went 
down and determine----
    Mr. Whitfield. And how would they move it after the leg had 
been broken to the knock box?
    Dr. Raymond. They would stun it and then basically move it 
while it was unconscious into the knock box.
    Mr. Whitfield. So they would make it unconscious and move 
it?
    Dr. Raymond. Yes.
    Mr. Whitfield. OK. Now on March 3 you all initiated this 
new program called Humane Activities Tracking System, is that 
correct?
    Dr. Raymond. Did you say on March 3?
    Mr. Whitfield. That it began on March 3.
    Dr. Raymond. It actually began several years ago. March 3, 
what we did was we gave directives to our work force to 
increase the amount of time they spent on the humane animal 
treatment tracking system, humane animal tracking system. But 
we did that in an effort to find out if what happened at 
Hallmark was an isolated incident or whether it was something 
that was more pervasive, so we doubled the amount of time that 
we spend on these HATS activities, that is humane handling 
activities. There are nine things we look at.
    Mr. Whitfield. So this activity's tracking system is an old 
program but you just beefed it up on March 3?
    Dr. Raymond. Yes.
    Mr. Whitfield. All right. And what does that mean, beef up, 
what does that mean?
    Dr. Raymond. For the plants that are producing product for 
the school lunch programs, for instance, or any other federal 
commodity programs, we will spend twice as much time doing 
these HATS activities in those plants for the next 60 days. For 
plants that deal with primarily old cows like this plant they 
will also increase the amount of activity from 50 to 100 
percent a time, and then in the fat cattle we will increase it 
up to 50 percent of the time because----
    Mr. Whitfield. How does this system relate to the 
computerized tracking system?
    Dr. Raymond. This is it.
    Mr. Whitfield. This is the computerized tracking system. 
OK. All right. One other question. Dr. Sundlof, if you were a 
Rotary Club in my home town, for example, how would you explain 
the interaction between FDA and the Department of Agriculture 
as it relates to food safety? You are responsible for food 
safety. They are responsible for food safety. So what is the 
interaction here?
    Dr. Sundlof. Thank you, Congressman. Well, the simple 
answer is that the USDA is responsible for the safety of meat 
and poultry, and FDA is responsible for virtually everything 
else. I think there are some processed egg products that USDA 
is also responsible for, and I hope I got that all right, Dr. 
Raymond.
    Mr. Whitfield. But how often is it, I know I am going over 
my time a little bit, but I know that FDA has some regulations 
that certain animals will not be slaughtered for human 
consumption if it is found that they contain 1 of 12 or 13 
chemicals, for example.
    Dr. Sundlof. Right. The law says, and this is how we 
interact with the U.S. Department of Agriculture, that drugs 
can only be used in food-producing animals if, first of all, 
they are approved by the Food and Drug Administration. And, 
secondly, if the remaining residues of those drugs in the 
animal fall below a predetermined level after a certain time 
period which we regulate by assigning what is called withdrawal 
time, so after the last time the drug is given there has to be 
a waiting period before those animals can be processed into 
food. The animals at slaughter are actually tested by the 
Department of Agriculture, Food Safety Inspection System. They 
are analyzed for the presence of several, many more----
    Mr. Whitfield. You mean when they arrive they are----
    Dr. Sundlof. At slaughter they are usually--swabs are taken 
of the kidneys or liver or fat samples so----
    Mr. Whitfield. In the postmortem?
    Dr. Sundlof. Post-mortem.
    Mr. Whitfield. And then those are analyzed?
    Dr. Sundlof. Those are analyzed.
    Mr. Whitfield. For every animal?
    Dr. Sundlof. Pardon me?
    Mr. Whitfield. For every animal?
    Dr. Sundlof. Not for every animal. There are really two 
different programs, and I should let Dr. Raymond talk about 
this but there is a random sampling where we try and get an 
idea what the total population is and then there is a 
surveillance type sampling in which there are animals that look 
like they are high risk animals, and a lot of times dairy 
cattle are generally considered to be higher risk because 
oftentimes they are at the end of their life and they have been 
treated with drugs for disease.
    But the USDA does the testing. If they find a residue 
violation then it is up to the Food and Drug Administration to 
take the enforcement action. And what we do is we go out to the 
establishment where the animal came from and try and trace that 
animal back to the farm of origin and try and understand why 
there was a residue issue, and if it is serious then we will 
take enforcement action and have often in the past.
    Mr. Stupak. Thank you, Mr. Whitfield. Mr. Raymond, if I 
may, in earlier testimony, or I should say the hearing, we had 
2 weeks ago they talked about downer cow loophole. Some people 
feel, humane societies and others feel, that once it is a 
downer cow it should not go into the food supply at all even if 
inspected by a veterinarian. Your comment on that?
    Dr. Raymond. I believe that an animal that has passed 
inspection, has been seen to ambulate in motion, does not 
appear to have any chronic health problems that then falls and 
breaks its leg, there is no reason that that presents a threat 
to the food supply of this country, and I believe they should 
be allowed to enter into the food supply. We have had this 
rule, as you mentioned yourself, since January of 2004. That is 
4 years. This company violated the rule. I do not believe we 
should change the rule to affect 800 companies because one 
company violated the rule.
    Mr. Stupak. OK. I think I speak for all parents of school-
age children and seniors and the elderly when I say that in 
light of the videos we saw today and Mr. Mendell's admissions 
today, I guess we feel safer knowing that the meat has been 
recalled, and there is some testimony or comments were made 
that mad cow disease, that won't surface, or the incubation 
period could be as high as 13 years, is that right?
    Dr. Raymond. That is correct.
    Mr. Stupak. So we may not know the outcome of all this for 
some time. We could have----
    Dr. Raymond. There is that remote possibility which defines 
a class 2.
    Mr. Stupak. And let us say some surface 12 years from now, 
we wouldn't know if it was from Hallmark or wherever it came 
from, right, if someone came down with mad cow disease?
    Dr. Raymond. Let me remind you that no one in this country 
has ever come down with a variant CJ disease from eating cattle 
that came from this country. We only had 2 cows test positive 
in the herd out of 759,000. It is extremely rare. Those cows 
were both born before the feed ban went into effect, which went 
into effect over 10 years ago. These cows were 4 to 7 years of 
age. That is when a dairy cow quits producing milk.
    Mr. Shimkus. Mr. Chairman, in follow-up can we ask him when 
was that, what year?
    Mr. Stupak. What year is that?
    Dr. Raymond. The 2 confirmed cases, the 2 confirmed cases 
have come since the cow went down in December, 2003. I don't 
know the exact dates but it has been since December, 2003, 
actually since June, 2004 when APHIS began their enhanced 
surveillance.
    Mr. Stupak. We just had one in Canada too actually on the 
day of the hearing, right?
    Dr. Raymond. I am just talking to the American herd right 
now.
    Mr. Stupak. Pardon?
    Dr. Raymond. I am just talking to the American herd right 
now. The American herd has not had any cattle found that have 
BSE that were born after the feed ban went into effect.
    Mr. Shimkus. Mr. Chairman, can I follow up?
    Mr. Stupak. Sure.
    Mr. Shimkus. And the age of the cows at that time? We are 
going back to these two. What was the age of the cows?
    Dr. Raymond. They were born before the feed ban. That is 
what is really important. It is not the age. But I can sure get 
the age for you. I don't know the age.
    Mr. Shimkus. You answered the question, maybe I asked it 
wrong, but it was before the feed ban?
    Dr. Raymond. Yes, sir.
    Mr. Stupak. Let me go back, Mr. Raymond. Would the USDA 
have discovered this problem without the Humane Society's sting 
operation?
    Dr. Raymond. I would like to say yes but obviously it was 
going on and we had not, so I don't know.
    Mr. Stupak. Prior to this being notified or receiving these 
videos or notification of the sting operation by I think you 
said the Washington Post, had USDA been investigating this 
plant for downer animals? You said there were rumors and this 
video just verified what you had----
    Dr. Raymond. No, no. After we became aware of the video the 
things we had to do was confirm that this action actually took 
place at this plant. We had to make sure that there was non-
humane handling at this plant before we took action, which we 
did on the Monday morning, the 4th. At the same time, we are 
interviewing because we felt if this happened, if this plant 
had that kind of wanton disregard for our Federal statutes, 
then how did we know they had the same--placed the same 
emphasis on SRM removals, for instance, which would be most 
important or the downer rule. So we began a very thorough 
investigation of this particular plant, and we had interviews 
that indicated that this process of allowing an animal that 
became disabled to go to slaughter had been going on for 2 
years. The video gave us irrefutable evidence, and that is when 
we did the recall.
    Mr. Stupak. OK. Thank you. Mr. Sundlof, Dr. Sundlof, I 
don't want to leave you out. In your opinion, does the proposed 
2009 budget for FDA provide adequate resources for the Center 
for Science and Applied Nutrition to protect the Nation's food 
supply?
    Dr. Sundlof. Well, let me just say, Mr. Chairman, that we 
look at it as more or less a down payment. We have said last 
fall that we are starting out a new approach to food safety and 
that is really focusing on the prevention side looking at our 
import programs and starting to ramp up to a different way of 
approaching food safety. We received somewhere in the order of 
$42 million in addition to our fiscal year '08 budget in '09, 
that is what the President has requested. This is going to go 
to trying to get those programs to the state where we need to 
start to really build the programs after that.
    Mr. Stupak. So it is a down payment so it doesn't 
adequately address the financial needs we have for food safety?
    Dr. Sundlof. We have a lot to do under the new food 
protection plan and the Import Safety Action Plan, and we 
haven't even begun to put pen to paper to determine what that 
budget is going to look like.
    Mr. Stupak. OK. Under the 1997 FDA Modernization Act, 
Congress required the FDA to implement an expedited status for 
food safety petitions. In 1999, the agency stated that the top 
priority would be given to petition design to decrease the risk 
of foodborne illness, is that correct?
    Dr. Sundlof. I believe that is correct, yes.
    Mr. Stupak. FDA has approved irradiation for reducing 
pathogens in meat and poultry and for insect control and shelf 
life extension of fruits and vegetables. However, the FDA does 
not allow irradiation to be used for pathogen reduction in 
fruits and vegetables. In 1999 a petition to allow irradiation 
for path reduction in fruits and vegetables and other ready to 
eat foods was submitted to the FDA. Eight or 9, well, almost 9 
years later now the petition is still pending. Why hasn't the 
FDA acted on that petition on irradiation?
    Dr. Sundlof. My understanding, Mr. Chairman, is that the 
original petition, the 1999 petition, involved virtually all 
foods. As we start--and we took the approach that we were going 
to evaluate that petition and look at all foods under that 
petition. During the process of reviewing the information, we 
did find that in certain foods the process of irradiation did 
result in the production of furans which are cancer-causing 
chemicals.
    So what the approach is now is that we are looking at 
specific types of foods under that petition. Our first one, the 
one of highest importance right now is leafy green vegetables, 
and we are working--it is our Number 1 priority to get that 
out. There is work being done.
    Mr. Stupak. When will that be done on leafy green 
vegetables? Can you give us a commitment it is going to be done 
here in the next few months?
    Dr. Sundlof. Well, I can tell you that we will complete our 
review, the center will complete its review within the next 
several--I can't tell you exactly how many months but certainly 
this fiscal year and we will try and do much better than that.
    Mr. Stupak. Well, this fiscal year is until September 30. 
You had it for 9 years.
    Dr. Sundlof. We are talking here just about the----
    Mr. Stupak. Right, leafy.
    Dr. Sundlof. Right.
    Mr. Stupak. Yes, leafy was there in 1999 and it is still 
there.
    Dr. Sundlof. Right.
    Mr. Stupak. What about the suggestion that you put an 
irradiation plant by Salinas Valley? You had that 21 outbreaks 
in 10 years. Why weren't you--would that help solve this 
problem? Why couldn't we put an irradiation plant to get that 
leafy vegetables and the spinach crop that we seem to have an 
outbreak every 6 months. Why won't we do that?
    Dr. Sundlof. Well, we don't--that would be up to the 
industry if they wanted to do that but first obviously they 
need----
    Mr. Stupak. FDA won't even do an epidemiology study to try 
to figure out the source. Every time we come someone thinks it 
is the water, someone thinks it is the cows around there. I 
mean that is our salad bowl as you guys all referred to it. 
After 21 outbreaks you would think you would be a little bit 
more aggressive in trying to figure this out and solve the 
problem.
    Dr. Sundlof. Actually, Mr. Chairman, we are doing that. We 
have been working with the State of California, with the 
academic community in California, and with the industry to try 
and better understand how E. coli is transferring from the 
environment into the spinach and other leafy greens. We are 
also looking at GIS systems, so we are looking at the 
topography using satellite imaging to determine where the 
outbreaks have occurred in the past so that we can have a 
better idea from an epidemiological approach to understanding 
what are the conditions that led to this contamination so we 
can prevent it in the future.
    Mr. Stupak. OK. Let us go back to the irradiation of food. 
It is used in over 30 countries. It is endorsed by the World 
Health Organization, CDC, Codex, even the FDA has stated that 
irradiation is safe and effective in decreasing or eliminating 
harmful bacteria. Did FDA in its 9 years or 8 years they have 
had this petition find any science to justify these delays?
    Dr. Sundlof. Again, the finding that irradiation does 
produce this cancer-causing substance, furans in some foods, is 
one of the things that has prevented us from moving forward, 
and I don't believe that information was available to those 
international organizations when they did make their decision.
    Mr. Stupak. Are there furans in leafy greens?
    Dr. Sundlof. My information that I have indicates that 
irradiation of leafy greens at the rate that they would 
normally be irradiated would create minimal furans, so it would 
be very, very small.
    Mr. Stupak. So there would be no health risk?
    Dr. Sundlof. So that is the direction we are proceeding, 
yes.
    Mr. Stupak. Well, if there is no health risk then why not 
approve the petition then?
    Dr. Sundlof. Again, Mr. Chairman, we are working on it. 
There are a lot of administrative hurdles that we have to 
cross.
    Mr. Stupak. Yes, 9 years worth. Let me ask you this one. 
Canada and Japan have repeatedly found that seafood exports 
from Vietnam have tested positive for banned antibiotics. We 
have been told that every major importing country has found 
repeated shipments of Vietnamese shrimp tainted with banned 
antibiotics. It came up at our last hearing 2 weeks ago. We are 
also told that the FDA has known about the problem since at 
least 2003, but has yet to issue an import alert regarding 
Vietnamese shrimp imports. Is shrimp from Vietnam a problem? If 
so, why don't we have a Vietnamese shrimp import alert?
    Dr. Sundlof. Mr. Chairman, we do analyze shrimp coming from 
Vietnam and other Asian countries. I think we have taken action 
in the past on Vietnamese fish, especially catfish, I know. I 
am not sure about the shrimp at this point but----
    Mr. Stupak. Could you get back with us on that?
    Dr. Sundlof. We can certainly get back with you on that.
    Mr. Stupak. I mean the last testimony is we get Pakistani 
shrimp that is rejected in Europe, it comes here. They don't 
export anything here but in the last couple months they have 
done 165,000 pounds and it has got fungi and bacteria and that 
is why it is rejected in the EU, but we seem to have it here 
and the same with Vietnamese shrimp. As soon as it gets pushed 
out of another country, it seems to be dumped here because we 
are not checking for it. And there is no import alert around it 
even though we know the problems existed since 2003.
    Dr. Sundlof. I do know that we have been testing imported 
shrimp and other seafood products from a variety of countries, 
and we have not seen an increase in the residues of those 
drugs. There hasn't been--you know, over the years, there has 
not been a spike. We don't see that so the----
    Mr. Stupak. But the bacteria found there is a health 
concern, is it not?
    Dr. Sundlof. Bacteria?
    Mr. Stupak. Yes.
    Dr. Sundlof. Bacteria certainly is, yes.
    Mr. Stupak. Let me ask you this. During the last hearing on 
February 26, a witness testified that in June, 2006, former 
Director of the Center for Food Safety and Applied Nutrition, 
Dr. Robert Brackett, stated that the FDA did not consider 
pesticide residues in food a serious matter and would no longer 
monitor them. As the new director of the Center for Food Safety 
and Applied Nutrition, do you believe pesticide residue in food 
is a serious problem, and will the FDA monitor them under your 
direction?
    Dr. Sundlof. Well, we certainly will monitor them, and we 
look at pesticide residues in light of all of the things that 
we consider to be risks associated with foods, and we try to 
prioritize. We normally analyze between 4,000 and 6,000 
imported and domestic products per year for pesticides so it is 
not like we are not doing it. We are doing about between 4,000 
and 6,000 pesticide analyses per year.
    Mr. Stupak. So which ones are most harmful of the analysis 
you have been doing? Which ones should the American people be 
on the lookout for on the pesticides and the amounts that are 
of concern?
    Dr. Sundlof. Well, let me just say that 93 percent of the 
pesticides that we are finding are not because they are--we 
don't know if they represent a safety hazard. We think they 
probably are minimal. We don't have tolerances for them in the 
United States so any amount that we find would be a violation 
of our laws, and that is 93 percent of them so it is difficult 
to say which are the most important from a hazardous point of 
view but we do--when we do a screen we screen for over 300 
different pesticides, and any one of those that is determined 
to be violative, we can take action. We have import alerts on, 
for instance, Dominican Republic produce right now because of 
pesticides.
    Mr. Stupak. Let me ask you this. At our last hearing on 
February 26, the CEO of a private lab that tests food under the 
import alert told the committee that we, and we already learned 
this from testimony last summer, that labs, private labs, will 
discard bad results at the request of the importer and the same 
private lab will keep testing the product until a positive 
result is obtained or the importer will hire another lab to 
test the product until a positive result is obtained. You were 
advised by our staff to review this testimony, were you not?
    Dr. Sundlof. I don't know.
    Mr. Stupak. OK. Did you ever review that testimony?
    Dr. Sundlof. I don't know if we did or not.
    Mr. Stupak. Do you realize that is a problem that if you 
put an import alert they go to a lab that will give them the 
results they want and then it comes in?
    Dr. Sundlof. I do recognize that. I do recognize that that 
is an issue, and we can get back to you on that, Mr. Chairman.
    Mr. Stupak. OK. We have legislation moving on food safety. 
We are going to make that a requirement. Don't you think all 
lab tests if there is an import alert, if I am a private lab, I 
test whether it is a positive test or a negative test, you 
should have access to it, you should have----
    Dr. Sundlof. We would like to have access to that.
    Mr. Stupak. So you would like to have that authority then?
    Dr. Sundlof. We would like to have the information. Whether 
it requires legislation or not--it would be nice if we had the 
information from----
    Mr. Stupak. Having the information is one thing. Doing 
something about it is another thing. I mean just giving you the 
information isn't going to do anything. If you get a negative 
test, you can't lift the import alert, right?
    Dr. Sundlof. If we get a negative--the way the import alert 
works is that if a company provides us with documented evidence 
that they no longer----
    Mr. Stupak. Had the problem.
    Dr. Sundlof. Then they can----
    Mr. Stupak. But you don't know how many tests they take 
before they get one that shows that or which batch they are 
taking it from, correct?
    Dr. Sundlof. That I don't know.
    Mr. Stupak. Wouldn't it be like in drugs, wouldn't it be 
better to get all the tests so you can make a determination 
whether or not this batch of food or shrimp from Vietnam is 
actually safe for human consumption, not just the ones that the 
private labs want to give you?
    Dr. Sundlof. We would like to have as much information as 
we can get.
    Mr. Stupak. Thank you. Mr. Shimkus has some questions.
    Mr. Shimkus. Mr. Raymond, would the USDA provide to this 
committee all the footage of films that you have on Westland/
Hallmark?
    Dr. Raymond. Yes, we would be glad to.
    Mr. Shimkus. Dr. Sundlof, what is the risk of BSE from non-
ambulatory cattle in the meat supply?
    Dr. Sundlof. Well, in the United States----
    Mr. Shimkus. In the United States.
    Dr. Sundlof. In the United States, as Dr. Raymond said, it 
is very, very small testing.
    Mr. Shimkus. What is a good word for very, very small?
    Dr. Sundlof. Well, the phrase that has been used is 
vanishingly small but----
    Mr. Shimkus. Vanishingly small.
    Dr. Sundlof. Vanishingly small.
    Mr. Shimkus. Percentage wise on a scale of 1 to 100, what 
would be vanishingly small? The point it, and I don't want to 
be trivial, but I want to--in 0 to 100 using decimals, what is 
vanishingly small?
    Dr. Sundlof. Let me just say that I can't answer the 
question exactly but let me give you an example of how I 
believe USDA APHIS, Animal Plant Health Inspection Service, set 
up their survey in such a way that they would be able to detect 
one cow in 10 million. OK. They actually sampled well beyond 
what they had originally set out to do so rather than a couple 
hundred thousand, they sampled almost three-quarters of a 
million and they found two animals. Those animals were born 
before the 1996 feed ban. It implies that the number is 
somewhere below 1 in 10 million. So that is as close as I can 
get, and I would defer to Dr. Raymond if he has better numbers.
    Dr. Raymond. I am sorry. I was trying to get myself out of 
a hole that I just dug.
    Mr. Shimkus. I was thinking you might have got yourself in 
a hole but I will let you try to dig out when I----
    Dr. Raymond. You are talking about how much we----
    Mr. Shimkus. Why don't you let me just go, and I got some 
questions that follow up on this line anyway. It is really 
yours to answer, Dr. Raymond, but it deals with BSE. Is there a 
postmortem testing for BSE? Dr. Sundlof, do you know? I know 
the testing is done by you all, but I want to ask the expert 
here.
    Dr. Sundlof. My understanding is that postmortem testing is 
done when there is a suspect animal but not as a routine 
method.
    Mr. Shimkus. Dr. Raymond.
    Dr. Raymond. It is all postmortem because what we are doing 
is looking at the brains of these cows. We don't test them in 
the plant. There is no instantaneous test in the plant but 
animals that present to this particular plant and any other 
plant that are wobbly or appear to have central nervous system 
diseases are going to be sampled, and a sample of the downers 
are going to also be sampled so they are going to be tested. We 
are still testing 40,000 high risk cattle a year in this 
country.
    Mr. Shimkus. And the result of the testing so far?
    Dr. Raymond. Just the two animals since the enhanced 
surveillance started. The enhanced surveillance stopped----
    Mr. Shimkus. They were born prior to----
    Dr. Raymond. They were all born prior to the feed ban going 
into effect.
    Mr. Shimkus. Post that time, none?
    Dr. Raymond. No animals born after the feed ban have been 
found to have BSE in this country.
    Mr. Shimkus. In this country. Any of these two in Hallmark/
Westland plant?
    Dr. Raymond. No. The two that we are talking about were 
downers on the farm. They were not even at a processing plant 
or a slaughter plant.
    Mr. Shimkus. So they were no challenge to the food supply?
    Dr. Raymond. The two that we have found since the first one 
went down in the State of Washington were on farm animals.
    Mr. Shimkus. You went through the classes, so for the 
processing facility what is their response class 2 versus a 
class 3 recall? What would be the difference or is there?
    Dr. Raymond. There is a difference. There is a difference 
between a 1 and a 2 and a 3 because of the severity of the 
risk, the threat to the American public.
    Mr. Shimkus. And 2 is--I mean you know these. Can you 
restate 2 for me?
    Dr. Raymond. A remote probability of adverse health 
consequences. If it is a class 1, we are going to do everything 
we can as quickly as we can to get all that product out of 
commerce and to alert the American public. A class 2 we are 
going to do the same thing but when you are dealing with a 
recall as big as this one it takes longer to get that product 
out and we have to use our resources to go out and verify the 
product has been removed. And we may be able to verify it a 
little quicker as a class 1.
    Mr. Shimkus. My challenge is this, that I have already gone 
through the chain of command concerns that I have, the chain of 
custody issue, which I am not sure we understand yet. And then 
point two, if BSE is vanishingly remote, class 2 versus class 
3, 1 in 10 million. Vanishingly remote, I can't quantify that.
    Dr. Raymond. If we could say zero risk, we would have done 
a class 3. We cannot say zero risk. Those regs were put into 
place in January of 2004 to mitigate the exposure, the risk of 
exposure to BSE for the American consuming public, and each one 
of those regulations is important. Some are more important than 
others. I would state to you that the SRM removal is absolutely 
the Number 1 most important thing we do to protect human 
health. The feed ban is the Number 1 thing we do to protect 
animal health. Those two together give us good safety but we 
also man mechanical separation of meat in cattle 30 months and 
over. We also ban downer cattle from entering the food supply. 
They are part of the interlocking steps that we have. And any 
time one of those steps is violated, we are going to have to 
take action.
    Mr. Shimkus. If you would have done a class 3 to this 
facility, tell me the difference.
    Dr. Raymond. It is still a recall. A recall is a recall.
    Mr. Shimkus. So there is no difference?
    Dr. Raymond. Not really. A sense of urgency within the 
department maybe or within the consuming public but a recall is 
a recall.
    Mr. Shimkus. Is there any alternatives?
    Dr. Raymond. They produce this product in non-compliance 
with our regulations and therefore by definition it becomes 
unfit for human consumption.
    Mr. Shimkus. And I asked this earlier, of the facilities 
that were closed, they have reopened so Westland/Hallmark would 
have--what would they have to do to reopen?
    Dr. Raymond. They would have to, A, assure us that they 
have steps in place that humane handling will be guaranteed, 
and that what happened with the humane handling won't happen 
again, and then they have to address the issue of the violation 
of the compliance with the laws and give us the things that 
have been into place to make sure that they are in compliance 
with all of our regulations.
    Mr. Shimkus. You know, I guess the concern is we get the 
inhumane handling part. We understand that. The concern is that 
we want to make sure that what you did in the recall was based 
upon a concern of health and safety of the food supply versus 
using that process--there are other things to do to address 
inhumane handling than a class 2 or class 3 recall if the 
vanishingly small risk, which is 1 in 10 million. That is what 
a lot of us will struggle with, that the process was used--
there are probably other legal aspects to be able to go after 
people who have a process by which there is inhumane treatment. 
My concern is that the health and safety of the food supply and 
that we don't use that as an excuse to attack people for being 
inhumane. There are other rules and regulations and laws that 
we can then enact.
    Dr. Raymond. If it had just been inhumane handling, I have 
no doubt that that plant would be up working slaughtering 
animals today and processing them, but it was more than just 
inhumane handling. Our investigation showed that they produced 
a product in violation of our regulations.
    Mr. Shimkus. One last question. Why didn't you show them 
the video when they asked for it?
    Dr. Raymond. At that particular point in time when he 
asked, we were trying to determine how much of this is going to 
have to be kept confidential because of the ongoing violation. 
We were trying to figure out a way to get him to be able to see 
it, but he never asked us a second time. I do believe some of 
his plant management did see it when we talked to them about 
recall. They had seen the 4-minute video.
    Mr. Shimkus. I think there is a hole in the debate when you 
are talking about the immediate health and safety of the food 
supply, you are telling a person you are going to close them 
down. You probably owed it to him if he asked for the video to 
show him the video. And I will yield back my time.
    Mr. Stupak. But there was no reason why Mr. Mendell 
couldn't go online like the rest of America and viewed it 
online, right?
    Dr. Raymond. No.
    Mr. Stupak. A lot of us are glad you did the recall. It was 
a clear violation. We don't want downer cows in our food supply 
so I think the USDA acted appropriately. Let me ask you this 
though, because--just a couple quick questions if I may--
because I want to go back to carbon monoxide, Dr. Raymond. 
Target sent a formal letter to USDA asking to approve a label 
to alert consumers that packaging certain meat products that 
they would sell, Target would sell, are packaged in an 
atmosphere containing carbon monoxide. USDA did not approve 
this label, thereby essentially forbidding Target from telling 
the truth about its products to consumers. Is that true?
    Dr. Raymond. For the record, I would like to read the 
letter, a portion of the letter, that was sent to us.
    Mr. Stupak. And can you provide it for the committee after 
you read it?
    Dr. Raymond. Absolutely.
    Mr. Stupak. OK.
    Dr. Raymond. ``Target requests direction as to how best to 
submit information required in 9 C.F.R. 317.4 for the sketch 
labeling and for the FSIS form application for approval of 
labels, markings and devices.'' The letter--they asked us for 
direction twice, and they start out the letter in the first 
sentence says we are sending you this letter to request 
direction from FSIS. They didn't send us a label.
    Mr. Stupak. I see.
    Dr. Raymond. And we provided a response to them for the 
direction. We have not heard back from them.
    Mr. Stupak. Could Target without USDA approval put on their 
meat packaging that the meat was packaged using carbon 
monoxide, color is not an accurate indicator of freshness, 
refer to use or freeze by date? Could they do that or do they 
need your approval to say this meat was packaged using carbon 
monoxide?
    Dr. Raymond. All labels need our approval.
    Mr. Stupak. OK. Kyle, put up that sign. Were you here when 
we showed that sign earlier? I think there might be a copy 
right there on the desk. See right in front of you, Dr. 
Raymond, as you direct yourself towards the dais here. It is 
right there. Could in the meat area where Target sells their 
meat, could they put in there our fresh meat and seafood set 
standards, and basically it says we do not use carbon monoxide. 
Can they do that, just put a sign up?
    Dr. Raymond. As long as it is truthful and not misleading, 
they can.
    Mr. Stupak. They don't need your permission to put a little 
sign up?
    Dr. Raymond. As long as it is truthful and not misleading.
    Mr. Stupak. But if they put it on the label of that meat 
right there then they have to have your approval?
    Dr. Raymond. That label has met our approval, yes, sir.
    Mr. Stupak. Right. Right. OK. So would you approve a label 
then which would say this meat is packaged using carbon 
monoxide, color is not an accurate indicator of freshness, 
refer to use or freeze by date? Would the USDA have a problem 
with that?
    Dr. Raymond. I am not going to answer that today for you, 
sir, because I would want to see the whole label and we are 
making an assumption here. I would be glad to have our labeling 
team take a look at that request and get them an answer as 
quickly as we can.
    Mr. Stupak. Well, what I just read you is already used. 
Basically I think you have already approved, USDA has approved, 
``color is not an accurate indicator of freshness, refer to use 
or freeze by date,'' that has been approved by USDA.
    Dr. Raymond. That language evidently has.
    Mr. Stupak. Right.
    Dr. Raymond. If you are reading it, and I am sure it has. 
But, if I might, it could be in little teeny tiny letters. That 
is why we would have to see the whole label.
    Mr. Stupak. So your rejection is just--they are asking for 
guidance. You are saying basically show us what you want to put 
on your label.
    Dr. Raymond. Exactly.
    Mr. Stupak. OK. So due diligence sort of fell apart, not on 
USDA part but on Target's part, is it fair to say?
    Dr. Raymond. We responded to them in January and have not 
heard back from them since.
    Mr. Stupak. OK. And get us a copy of that letter there that 
you read from back to Target and we will make a copy of it. OK. 
They just informed me they have a copy of it. Mr. Shimkus, 
anything further?
    Mr. Shimkus. Real briefly. You may not know the answer. 
Where are the cows, the spent dairy cows that used to go to 
Westland/Hallmark, where are they going? Do we know?
    Dr. Raymond. No, I don't know.
    Mr. Shimkus. Last question for you, Dr. Raymond. When you 
did your interviews based upon the receipt of this information, 
and you did interviews, did you interview the undercover Humane 
Society operative? Was that part of----
    Dr. Raymond. Yes, it was, sir. Could I just before we go 
off of this just for the record because I did misspeak, any of 
the videotapes that we have that are on our Web page, of course 
we will share with you, but there have been some that the OIG 
perhaps has subpoenaed and obviously I cannot share theirs with 
you, so I just wanted to clarify that if I might.
    Mr. Shimkus. Yes, I think we are interested in--unless it 
is any of those that are subject to the parameters you just 
mentioned. If there were videos that you would not show to Mr. 
Mendell, we would like to see those unless those are the ones 
that are under subpoena or whatever.
    Dr. Raymond. I assure you that I will talk to my legal 
folks and we will share with you everything I can share with 
you.
    Mr. Shimkus. I am fine, Mr. Chairman.
    Mr. Stupak. Thank you. That concludes questioning. I want 
to thank all the witnesses for coming today, and thank you for 
your testimony. I ask unanimous consent that the hearing record 
will remain open for 30 days for additional questions for the 
record. Without objection, the record will remain open. I ask 
unanimous consent that the contents of our document binder be 
entered in the record. Without objection, the documents will be 
entered in the record. That concludes our hearing. Without 
objection, this meeting of the subcommittee is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                      Statement of Hon. Gene Green

    Mr. Chairman, thank you for holding this hearing today on 
the Nation's food supply. I think it is important that we 
continue to have these hearings to address the issue food 
safety in the US.
    This is the sixth hearing this committee has held on the 
issue of food safety and regulatory failure. These hearings 
have continuously highlighted the fact that the FDA and 
industry need to do more to make sure our food is safe to eat.
    Each year in the US there are approximately, 76 million 
cases of foodborne illness and in the past year there have been 
numerous high profile food product recalls involving meat, 
fish, and vegetables. Today we will focus primarily on the 
safety of our meat and poultry supply.
    The hearing today focuses on the need of the FDA and USDA 
to improve their food inspection system. I believe that many of 
the outbreaks that have recently occurred can and have been 
directly linked to a poor inspection system.
    During these hearings on food safety, I have spoken many 
times of the need for more FDA inspectors at our ports. I 
represent the Port of Houston and I actually spent one day on 
the docks as they unloaded cargo and saw how the products are 
inspected.
    It is clear to me, after observing activity at the Port of 
Houston and through these hearings, that the FDA and the USDA 
do not have enough inspectors protect our food supply.
    If the FDA needs to hire third party inspectors or partner 
with another agency like the Department of Agriculture, then 
the FDA should do so to ensure product safety. However, as this 
hearing will show today, even though the USDA has third party 
inspectors, there are not enough inspectors to ensure food 
safety.
    It is our responsibility to make sure that the FDA and the 
USDA have the resources they need to protect us from 
contaminated food products. We can't point out the problem 
without offering some solution as well.
    If we need to provide more funding to allow the FDA and the 
USDA to protect our food supply then we should do just that. 
Consumers should be able to purchase food without worrying 
about botulism, E. coli, salmonella, or pesticides in their 
food.
    The Westland/Hallmark beef recall, the largest food recall 
in the US, is an example of what our food inspection system 
lacks and how the lack of proper inspection directly affects 
the most vulnerable members of the population- children.
    Westland/Hallmark was not consulting with USDA on downer 
cattle and consequently, this diseased beef entered the supply 
chain. Some of this recalled beef was supplied to schools in my 
district including Houston Independent School District and 
Pasadena School District.
    The blatant disregard for proper handling of cattle and 
allowing the diseased cattle to enter the food supply 
highlights just how little regulation is actually in place at 
these food plants.
    Clearly, this is a problem that isn't improving on its own 
and is only getting worse in my opinion.
    Thank you, Mr. Chairman for holding this hearing and I want 
to thank our witnesses for appearing before the committee 
today. I yield back my time.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0332.026

[GRAPHIC] [TIFF OMITTED] T0332.027

  Accounts from HSUS Investigator at Hallmark/Westland Meating Company

    1. I am employed as an investigator with The Humane Society 
of the United States.
    2. Between October 3 and November 14 2007 I was employed as 
a pen worker for Hallmark Meat Packing Company which supplies 
beef to Westland Meat Company, Inc. My duties included 
unloading cattle from livestock trailers, handling cattle, 
driving cattle into the kill chute for slaughter, and stunning 
cattle prior to slaughter.
    3. During my 6 weeks at Hallmark I witnessed and documented 
acts of extreme cruelty to cattle who were too sick or injured 
to stand up or walk to slaughter on their own power. I observed 
these illegal and inhumane animal handling practices on a daily 
basis.
    4. I video-recorded numerous instances where animals too 
sick or injured to walk on their own, were tortured until they 
rose to their feet, and once they stood they were shocked and/
or held by their tails to keep them up and moving into the 
chute to be slaughtered for human consumption.
    5. I video-recorded a cow collapsing in the chute leading 
to the kill box. This cow never stood up again. She was shocked 
extensively, then shot in the head and dragged into the kill 
box by a chain attached to her neck.
    6. On another instance I video-recorded a Jersey cow 
collapsing in the chute on the way to the kill box. Workers 
shock her and lift her by her tail to get her into the box. One 
worker holds her tail while the other shocks her face and then 
sides to keep her moving into the plant.
    7. I video-recorded two workers holding up a cow that can 
not walk on her own. A hotshot is used continuously to get the 
cow up and then they hold her by her tail and move her up the 
chute into the kill box. Another worker grasps the tail while 
standing alongside the chute to keep the cow upright. As soon 
as the cow enters the kill box the workers let go of her and 
she collapses. The door is quickly slammed shut to keep her 
from falling back into the chute. The workers then proceed back 
to the alley where another downed cow is lying and one shocks 
her while the others stand behind her pushing to get her to 
stand. Workers continue to shock the cow along her side and 
then her face causing her to vocalize. Eventually they push her 
to her feet and walk her up the chute. Workers hold her up and 
another shocks her from alongside the chute. They put her into 
the kill box and quickly shut the door.
    8. I video-recorded the pen manager shocking a down cow in 
the covered pen outside the crowd pen; he uses a pocket sized 
hotshot to apply electricity to her face and body. He then 
sprays water from a high pressure hose into her mouth and nose 
causing the cow to stand while workers hold her tail and walk 
her up to the kill box while continuously shocking her to keep 
her on her feet and moving.
    9. I video-recorded the pen manager and a worker approach a 
cow that has collapsed in the alley leading to the chute. She 
is unable to walk to the chute. The manager shocks the cow 
while another worker lifts her by her tail and then walks her 
up the chute. Another worker stands above the chute grasping 
the cows tail so that she cannot collapse again. The hotshot is 
continuously applied to keep the cow upright and moving.
    10. I video-recorded workers shocking a large cow with an 
electric cattle prod and dragging her from a truck by a chain 
attached to a forklift operated by an experienced worker. The 
pen manager then drags the cow some more and then rams her into 
the pen with the forklift trying over and over to get her to 
stand by using the forklift until she is held up by workers and 
is put in the alley in line for slaughter.
    11. I video-recorded an experienced worker pushing a cow 
down the stairs inside a truck instead of euthanizing her. The 
cow then collapses on top of a forklift at the truck's rear 
exit, which the worker moves, causing the cow to fall several 
feet to the pavement. He then pushes and drops her with the 
lift until she is placed in a pen with other healthy cows, 
blood is running from her vagina and rectum.
[GRAPHIC] [TIFF OMITTED] T0332.053

[GRAPHIC] [TIFF OMITTED] T0332.054

[GRAPHIC] [TIFF OMITTED] T0332.055

[GRAPHIC] [TIFF OMITTED] T0332.056

[GRAPHIC] [TIFF OMITTED] T0332.057

[GRAPHIC] [TIFF OMITTED] T0332.058

[GRAPHIC] [TIFF OMITTED] T0332.059

[GRAPHIC] [TIFF OMITTED] T0332.060

[GRAPHIC] [TIFF OMITTED] T0332.061

[GRAPHIC] [TIFF OMITTED] T0332.062

[GRAPHIC] [TIFF OMITTED] T0332.063

[GRAPHIC] [TIFF OMITTED] T0332.064

[GRAPHIC] [TIFF OMITTED] T0332.065

[GRAPHIC] [TIFF OMITTED] T0332.066

[GRAPHIC] [TIFF OMITTED] T0332.067

[GRAPHIC] [TIFF OMITTED] T0332.068

[GRAPHIC] [TIFF OMITTED] T0332.069

[GRAPHIC] [TIFF OMITTED] T0332.070

[GRAPHIC] [TIFF OMITTED] T0332.071

[GRAPHIC] [TIFF OMITTED] T0332.072

[GRAPHIC] [TIFF OMITTED] T0332.073

[GRAPHIC] [TIFF OMITTED] T0332.074

[GRAPHIC] [TIFF OMITTED] T0332.075

[GRAPHIC] [TIFF OMITTED] T0332.076

[GRAPHIC] [TIFF OMITTED] T0332.077

[GRAPHIC] [TIFF OMITTED] T0332.078

[GRAPHIC] [TIFF OMITTED] T0332.079

[GRAPHIC] [TIFF OMITTED] T0332.080

[GRAPHIC] [TIFF OMITTED] T0332.081

[GRAPHIC] [TIFF OMITTED] T0332.082

[GRAPHIC] [TIFF OMITTED] T0332.083

[GRAPHIC] [TIFF OMITTED] T0332.084

[GRAPHIC] [TIFF OMITTED] T0332.085

[GRAPHIC] [TIFF OMITTED] T0332.086

[GRAPHIC] [TIFF OMITTED] T0332.087

[GRAPHIC] [TIFF OMITTED] T0332.088

[GRAPHIC] [TIFF OMITTED] T0332.089

[GRAPHIC] [TIFF OMITTED] T0332.090

[GRAPHIC] [TIFF OMITTED] T0332.091

[GRAPHIC] [TIFF OMITTED] T0332.092

[GRAPHIC] [TIFF OMITTED] T0332.093

[GRAPHIC] [TIFF OMITTED] T0332.094

[GRAPHIC] [TIFF OMITTED] T0332.095

[GRAPHIC] [TIFF OMITTED] T0332.096

[GRAPHIC] [TIFF OMITTED] T0332.097

[GRAPHIC] [TIFF OMITTED] T0332.098

[GRAPHIC] [TIFF OMITTED] T0332.099

[GRAPHIC] [TIFF OMITTED] T0332.100

[GRAPHIC] [TIFF OMITTED] T0332.101

[GRAPHIC] [TIFF OMITTED] T0332.102

[GRAPHIC] [TIFF OMITTED] T0332.103

[GRAPHIC] [TIFF OMITTED] T0332.104

[GRAPHIC] [TIFF OMITTED] T0332.105

[GRAPHIC] [TIFF OMITTED] T0332.106

[GRAPHIC] [TIFF OMITTED] T0332.107

[GRAPHIC] [TIFF OMITTED] T0332.108

[GRAPHIC] [TIFF OMITTED] T0332.109

[GRAPHIC] [TIFF OMITTED] T0332.110

[GRAPHIC] [TIFF OMITTED] T0332.111

[GRAPHIC] [TIFF OMITTED] T0332.112

[GRAPHIC] [TIFF OMITTED] T0332.113

[GRAPHIC] [TIFF OMITTED] T0332.114

[GRAPHIC] [TIFF OMITTED] T0332.115

[GRAPHIC] [TIFF OMITTED] T0332.116

[GRAPHIC] [TIFF OMITTED] T0332.117

[GRAPHIC] [TIFF OMITTED] T0332.118

[GRAPHIC] [TIFF OMITTED] T0332.119

[GRAPHIC] [TIFF OMITTED] T0332.120

[GRAPHIC] [TIFF OMITTED] T0332.121

[GRAPHIC] [TIFF OMITTED] T0332.122

[GRAPHIC] [TIFF OMITTED] T0332.123

[GRAPHIC] [TIFF OMITTED] T0332.124

[GRAPHIC] [TIFF OMITTED] T0332.125

[GRAPHIC] [TIFF OMITTED] T0332.126

[GRAPHIC] [TIFF OMITTED] T0332.127

[GRAPHIC] [TIFF OMITTED] T0332.128

[GRAPHIC] [TIFF OMITTED] T0332.129

[GRAPHIC] [TIFF OMITTED] T0332.130

[GRAPHIC] [TIFF OMITTED] T0332.131

[GRAPHIC] [TIFF OMITTED] T0332.132

[GRAPHIC] [TIFF OMITTED] T0332.133

[GRAPHIC] [TIFF OMITTED] T0332.134

[GRAPHIC] [TIFF OMITTED] T0332.135

[GRAPHIC] [TIFF OMITTED] T0332.136

[GRAPHIC] [TIFF OMITTED] T0332.137

[GRAPHIC] [TIFF OMITTED] T0332.138

[GRAPHIC] [TIFF OMITTED] T0332.139

[GRAPHIC] [TIFF OMITTED] T0332.140

[GRAPHIC] [TIFF OMITTED] T0332.141

[GRAPHIC] [TIFF OMITTED] T0332.142

[GRAPHIC] [TIFF OMITTED] T0332.143

[GRAPHIC] [TIFF OMITTED] T0332.144

[GRAPHIC] [TIFF OMITTED] T0332.145

[GRAPHIC] [TIFF OMITTED] T0332.146

[GRAPHIC] [TIFF OMITTED] T0332.147

[GRAPHIC] [TIFF OMITTED] T0332.148

[GRAPHIC] [TIFF OMITTED] T0332.149

[GRAPHIC] [TIFF OMITTED] T0332.150

[GRAPHIC] [TIFF OMITTED] T0332.151

[GRAPHIC] [TIFF OMITTED] T0332.152

[GRAPHIC] [TIFF OMITTED] T0332.153

[GRAPHIC] [TIFF OMITTED] T0332.154

[GRAPHIC] [TIFF OMITTED] T0332.155

[GRAPHIC] [TIFF OMITTED] T0332.156

[GRAPHIC] [TIFF OMITTED] T0332.157

[GRAPHIC] [TIFF OMITTED] T0332.158

[GRAPHIC] [TIFF OMITTED] T0332.159

[GRAPHIC] [TIFF OMITTED] T0332.160

[GRAPHIC] [TIFF OMITTED] T0332.161

[GRAPHIC] [TIFF OMITTED] T0332.162

[GRAPHIC] [TIFF OMITTED] T0332.163

[GRAPHIC] [TIFF OMITTED] T0332.164

[GRAPHIC] [TIFF OMITTED] T0332.165

[GRAPHIC] [TIFF OMITTED] T0332.166

[GRAPHIC] [TIFF OMITTED] T0332.167

[GRAPHIC] [TIFF OMITTED] T0332.168

[GRAPHIC] [TIFF OMITTED] T0332.169

[GRAPHIC] [TIFF OMITTED] T0332.170

[GRAPHIC] [TIFF OMITTED] T0332.171

[GRAPHIC] [TIFF OMITTED] T0332.172

[GRAPHIC] [TIFF OMITTED] T0332.173

[GRAPHIC] [TIFF OMITTED] T0332.174

[GRAPHIC] [TIFF OMITTED] T0332.175

[GRAPHIC] [TIFF OMITTED] T0332.176

[GRAPHIC] [TIFF OMITTED] T0332.177

[GRAPHIC] [TIFF OMITTED] T0332.178

[GRAPHIC] [TIFF OMITTED] T0332.179

[GRAPHIC] [TIFF OMITTED] T0332.180

[GRAPHIC] [TIFF OMITTED] T0332.181

[GRAPHIC] [TIFF OMITTED] T0332.182

[GRAPHIC] [TIFF OMITTED] T0332.183

[GRAPHIC] [TIFF OMITTED] T0332.184

[GRAPHIC] [TIFF OMITTED] T0332.185

[GRAPHIC] [TIFF OMITTED] T0332.186

[GRAPHIC] [TIFF OMITTED] T0332.187

[GRAPHIC] [TIFF OMITTED] T0332.188

[GRAPHIC] [TIFF OMITTED] T0332.189

[GRAPHIC] [TIFF OMITTED] T0332.190

[GRAPHIC] [TIFF OMITTED] T0332.191

[GRAPHIC] [TIFF OMITTED] T0332.192

[GRAPHIC] [TIFF OMITTED] T0332.193

[GRAPHIC] [TIFF OMITTED] T0332.194

[GRAPHIC] [TIFF OMITTED] T0332.195

[GRAPHIC] [TIFF OMITTED] T0332.196

[GRAPHIC] [TIFF OMITTED] T0332.197

[GRAPHIC] [TIFF OMITTED] T0332.198

[GRAPHIC] [TIFF OMITTED] T0332.199

[GRAPHIC] [TIFF OMITTED] T0332.200

[GRAPHIC] [TIFF OMITTED] T0332.201

[GRAPHIC] [TIFF OMITTED] T0332.202

[GRAPHIC] [TIFF OMITTED] T0332.203

[GRAPHIC] [TIFF OMITTED] T0332.204

[GRAPHIC] [TIFF OMITTED] T0332.205

[GRAPHIC] [TIFF OMITTED] T0332.206

[GRAPHIC] [TIFF OMITTED] T0332.207

[GRAPHIC] [TIFF OMITTED] T0332.208

[GRAPHIC] [TIFF OMITTED] T0332.209

[GRAPHIC] [TIFF OMITTED] T0332.210

[GRAPHIC] [TIFF OMITTED] T0332.211

[GRAPHIC] [TIFF OMITTED] T0332.212

[GRAPHIC] [TIFF OMITTED] T0332.213

[GRAPHIC] [TIFF OMITTED] T0332.214

[GRAPHIC] [TIFF OMITTED] T0332.215

[GRAPHIC] [TIFF OMITTED] T0332.216

[GRAPHIC] [TIFF OMITTED] T0332.217

[GRAPHIC] [TIFF OMITTED] T0332.218

[GRAPHIC] [TIFF OMITTED] T0332.219

[GRAPHIC] [TIFF OMITTED] T0332.220

[GRAPHIC] [TIFF OMITTED] T0332.221

[GRAPHIC] [TIFF OMITTED] T0332.222

[GRAPHIC] [TIFF OMITTED] T0332.223

[GRAPHIC] [TIFF OMITTED] T0332.224

[GRAPHIC] [TIFF OMITTED] T0332.225

[GRAPHIC] [TIFF OMITTED] T0332.226

[GRAPHIC] [TIFF OMITTED] T0332.227

[GRAPHIC] [TIFF OMITTED] T0332.228

[GRAPHIC] [TIFF OMITTED] T0332.229

[GRAPHIC] [TIFF OMITTED] T0332.230

[GRAPHIC] [TIFF OMITTED] T0332.231

[GRAPHIC] [TIFF OMITTED] T0332.232

[GRAPHIC] [TIFF OMITTED] T0332.233

[GRAPHIC] [TIFF OMITTED] T0332.234

[GRAPHIC] [TIFF OMITTED] T0332.235

[GRAPHIC] [TIFF OMITTED] T0332.236

[GRAPHIC] [TIFF OMITTED] T0332.237

[GRAPHIC] [TIFF OMITTED] T0332.238

[GRAPHIC] [TIFF OMITTED] T0332.239

[GRAPHIC] [TIFF OMITTED] T0332.240

[GRAPHIC] [TIFF OMITTED] T0332.241

[GRAPHIC] [TIFF OMITTED] T0332.242

[GRAPHIC] [TIFF OMITTED] T0332.243

[GRAPHIC] [TIFF OMITTED] T0332.244

[GRAPHIC] [TIFF OMITTED] T0332.245

[GRAPHIC] [TIFF OMITTED] T0332.246

[GRAPHIC] [TIFF OMITTED] T0332.247

[GRAPHIC] [TIFF OMITTED] T0332.248

[GRAPHIC] [TIFF OMITTED] T0332.249

[GRAPHIC] [TIFF OMITTED] T0332.250

[GRAPHIC] [TIFF OMITTED] T0332.251

[GRAPHIC] [TIFF OMITTED] T0332.252

[GRAPHIC] [TIFF OMITTED] T0332.253

[GRAPHIC] [TIFF OMITTED] T0332.254

[GRAPHIC] [TIFF OMITTED] T0332.255

[GRAPHIC] [TIFF OMITTED] T0332.256

[GRAPHIC] [TIFF OMITTED] T0332.257

[GRAPHIC] [TIFF OMITTED] T0332.258

[GRAPHIC] [TIFF OMITTED] T0332.259

[GRAPHIC] [TIFF OMITTED] T0332.260

[GRAPHIC] [TIFF OMITTED] T0332.261


                                 <all>

</pre></body></html>
